<html>
<title> - GREAT LAKES RESTORATION</title>
<body><pre>[Senate Hearing 108-360]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-360

                        GREAT LAKES RESTORATION

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

  OVERSIGHT OF CURRENT AND FUTURE EFFORTS TO RESTORE AND PRESERVE THE 
                              GREAT LAKES

                               __________

                    AUGUST 25, 2003--CLEVELAND, OHIO

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works



                    U.S. GOVERNMENT PRINTING OFFICE
92-382                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                    AUGUST 25, 2003--CLEVELAND, OHIO
                           OPENING STATEMENT

Voinovich, Hon. George V., U.S. Senator from the State of Ohio... 1, 42

                               WITNESSES

Marsh, Elaine, Lake Erie Director, Great Lakes United, Peninsula, 
  OH.............................................................    28
    Prepared statement...........................................    85
    Responses to additional questions from:
        Senator Inhofe...........................................    87
        Senator Voinovich........................................    87
Reutter, Jeff, Director, Ohio Sea Grant College Program, F.T. 
  Stone Laboratory, Center for Lake Erie Area Research, Great 
  Lakes Aquatic Ecosystem Research Consortium, Ohio State 
  University, Columbus, OH.......................................    24
    Prepared statement...........................................    81
Ryan, Colonel William E., III, Deputy Commander, Great Lakes Ohio 
  River Division, U.S. Army Corps of Engineers...................     9
    Prepared statement...........................................    47
    Responses to additional questions from:
        Senator Inhofe...........................................    49
        Senator Jeffords.........................................    52
        Senator Voinovich........................................    51
Skinner, Thomas V., Regional Administrator, U.S. Environmental 
  Protection Agency, Region 5, Chicago, IL.......................     7
    Prepared statement...........................................    45
Speck, Samuel W., chairman of the board, Great Lakes Commission, 
  Eisenhower Corporate Park, Ann Arbor, MI.......................    22
    Prepared statement...........................................    74
    Responses to additional questions from:
        Senator Jeffords.........................................    79
        Senator Voinovich........................................    77
Stein, Roy A., vice-chair, Great Lakes Fishery Commission, 
  Aquatic Ecology Laboratory, Columbus, OH.......................    19
    Prepared statement...........................................    57
    Responses to additional questions from:
        Senator Jeffords.........................................    69
        Senator Voinovich........................................    71

                                 (iii)

  

 
                        GREAT LAKES RESTORATION

                              ----------                              


                        MONDAY, AUGUST 25, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                   Cleveland, Ohio.
    The committee met, pursuant to notice, at 10 o'clock a.m. 
at the Great Lakes Science Center, 601 Erieside Avenue, 
Cleveland, Ohio, Hon. George V. Voinovich [acting chairman of 
the committee] presiding.
    Present: Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. I'd like to thank all the witnesses here 
this morning and I apologize for being a little bit late. 
Perhaps it was an opportunity for some of the witnesses to meet 
each other.
    First and foremost, again, thank you for taking time out of 
your busy schedules to participate at today's field hearing of 
the Senate Environment and Public Works Committee to examine 
the current and future efforts to restore and protect the Great 
Lakes.
    Second, I thank Chairman Inhofe for calling this hearing at 
my request. And I look forward to continuing to work with my 
colleagues in the Committee and the House and Senate in 
advancing legislation to address what I believe is one of the 
most pressing environmental issues facing our Nation, 
restoration of the Great Lakes. I want to also thank the staff 
of Senator Inhofe and Senator Jeffords for being with us today 
and, as many of you know, this record will be kept and will be 
shared with the other Senators.
    While restoration is important to the plants and animals 
that call it home and to the 40 million people in the U.S. and 
Canada that depend on it for drinking water, it is also 
important to the economy and people's jobs.
    I know that quite well, as being former Governor of the 
State of Ohio. The Great Lakes region maintains the largest 
bilateral trade relationship in the world with the primary 
economic activities in recreation, tourism, shipping, 
agriculture and manufacturing. I'm glad we have representatives 
here today from the Canadian government and welcome you here 
today and thank you for taking time out of your busy schedule 
to listen to these hearings and I'm looking forward to talking 
to you after this hearing today.
    In terms of tourism, the eight Great Lakes States have 
about 3.7 million registered recreational boats, or about a 
third of the nation's total. Retail expenditures for 
recreational boating in the Great Lakes region is .6 billion 
annually, slightly less than one-third of the national 
expenditures in this category. The Great Lakes commercial and 
sport fishery alone is valued at more than $4 billion annually. 
It's been estimated that tourism in the Lake Erie area accounts 
for an estimated 1.5 billion in retail sales and more than 
50,000 jobs.
    While I was Governor, I was very proud of this, Ohio moved 
from seventh to sixth place in travel and tourism and a lot of 
it had to do with the fact, with Lake Erie of the Great Lakes. 
As a mater of fact, we worked with the Council and Great Lakes 
Governors to promote the whole Lake Erie, Great Lakes area as a 
destination. Trying to get the Europeans particularly to say if 
you really want to see America, come to the Midwest and the 
Great Lakes.
    Businesses also rely on the Great Lakes because, among 
other things, they provide an inexpensive and environmentally 
friendly means of transportation. And you'll see a lot more of 
that when you're on the Great Lakes. In 2000, this system 
provided an estimated $1.2 billion in transportation cost 
savings to steel mills, utilities, grain terminals and other 
key industries located near the 6 U.S. ports in the system. 
These industries provide more than 37,000 direct jobs and are 
able to compete in the world economy because they can keep 
transportation costs low About one third of the land in the 
Great Lakes basin is used for agriculture, supporting about 7 
percent of U.S. agricultural production. And, again, from my 
own point of view in Ohio, agribusiness is our No. 1 business 
in the State of Ohio. So for some that may come as a surprise. 
But it contributes about $90 billion to our State's Federal 
gross domestic product. One-fifth of U.S. manufacturing 
activity is based on the Great Lakes, and the region, combined 
with Canada, accounts for about 60 percent of steel production 
in North America.
    Over the last century, these activities have been both a 
detriment to this resource and a blessing for the people in the 
region. Regardless of the past, restoration of the Great Lakes 
benefits both.
    Today's hearing may seem like deja vu to some of you. One 
year ago I held another field hearing in Cleveland at the Coast 
Guard station, which is just a stone's throw away, and the 
purpose of that hearing was to look into the recurrence of dead 
zones or low oxygen areas in Lake Erie.
    I'm pleased that Jeff Reutter of the Ohio Sea Grant 
Program, who I have been out to see at Stone Lab on Gibraltar 
Island, was able to testify at that hearing and is here today 
to provide an update on this situation and the water quality of 
Lake Erie.
    Where is Jeff at? OK. Hi, Jeff. I saw Steve Goldman from 
the Lake Erie Center and he's all excited. He thinks he's 
figured out the dead zone. I'm sure you're interested. I am, 
too.
    Jeff is one of the premier scientists working on Ohio's 
Great Lake and I welcome him today.
    Also, on the second panel is Ms. Elaine Marsh from the 
Great Lakes United, who testified at last year's field hearing 
as well. Great Lakes United is a U.S. and Canadian coalition 
dedicated to preserving and restoring the Great Lakes. Last 
month, the organization testified at a hearing that I held as 
Chairman of the Subcommittee on Oversight of Government 
Management in the Governmental Affairs Committee on the 
management of Great Lakes Programs.
    I met with Ms. Marsh and several of her colleagues before 
the hearing on a report they released earlier this year on how 
to clean up the Great Lakes. I look forward to hearing from her 
this morning on the coalition's recommendations on how to move 
forward in restoring the Great Lakes.
    I also welcome on our second panel Mr. Sam Speck, who is 
Director of the Ohio Department of Natural Resources and Chair 
of the Great Lakes Commission. Sam will be providing the 
Committee with an update on his work to implement a binding 
agreement between Canada and the U.S. on a standard for making 
decisions on proposals to export water out of the Great Lakes. 
Sam and I have been friends for a long time, and we've worked 
together in organizations. We worked together on applications 
to hire Environmental Protection Agency and also a landmark 
piece of legislation stamp.
    Dr. Roy Stein, who is Vice Chair of the Great Lakes Fishery 
Commission and is also Director of the Aquatic Ecology 
Laboratory at the Ohio State University, will also testify on 
the second panel about invasive species and the state of the 
fisheries in the Great Lakes.
    Last, I welcome the two witnesses we have for our first 
panel. Tom Skinner and Colonel William Ryan, who testified at 
the hearing that I chaired last month. Mr. Skinner is the U.S. 
EPA's Great Lakes National Program office manager and Colonel 
Ryan is the Deputy Commander of the Great Lakes Ohio River 
Division of the U.S. Army Corps of Engineers. They will both be 
providing information on our current restoration efforts and 
their thoughts on where we need to go from here to restore the 
Great Lakes.
    While today is in many ways a follow-up to the hearings I 
held last year here in Cleveland and last month in the 
Governmental Affairs Committee, I think of it as just one more 
step toward my lifetime goal of restoring the Great Lakes.
    Thirty-seven years ago, when I saw firsthand the effects of 
pollution on Lake Erie and the surrounding region, I knew we 
had to do something to protect our environment. At the time, 
Lake Erie was suffering from eutrophication and was known 
worldwide as a dying lake. As a matter of fact, it was a poster 
child at that time. Its decline was heavily covered by the 
media and became an international symbol of pollution and 
degradation.
    At that time as a State legislator--and by the way, my 
district, the northern boundary of my house district was Lake 
Erie. As a matter of fact today, if I look out of my living 
room window, I don't live on the lake, but I can see the lake 
out of my living room window, in those days we were worried 
about our house falling in. There's two that will fall in 
before mine. But that's no longer a problem, as you know. But 
I'm sure some day it will be again, because the lake comes up 
and it goes down.
    I continue this fight, what I call the second battle of 
Lake Erie, as a State Legislator, County Commissioner, 
Lieutenant Governor, Mayor of Cleveland, Governor of Ohio and 
now United States Senator. So it's been a long time. I consider 
the efforts, my efforts, to preserve and protect the lake to be 
among the most significant of my career goals.
    One of the first actions I did as a State Legislator was to 
introduce a resolution calling for a $360 million bond issue 
for municipal sewage treatment plant construction along Lake 
Erie. In a nutshell, I think all of us know that the major 
causes of pollution at that time were industrial and municipal 
sewage. And also because our detergents at the time had 
phosphates in them. And because of the Federal 5/25 program, 
because we created the Ohio Water Development Authority, which 
issued--allowed us to issue revenue bonds for the industries to 
clean up their pollution, we really made some magnificent 
progress during that period of time.
    Unfortunately, many of those facilities are pretty old 
today, and we need to rededicate ourselves to dealing with 
those facilities.
    When I became County Commissioner, the Department of 
Energy--this is an old one that's been around. They were going 
to put nuclear waste in the salt mines of Lake Erie, and I 
didn't think that was a very good idea. So we put a stop to 
that one very quickly. And then as Governor of the city of 
Cleveland, I held the first international conference of zebra 
mussels here in Cleveland. And at that time, they were clogging 
up our water and lifts. And like Cleveland Illuminating, was 
having problems. And then, of course, that problem now has been 
around for a while. We're still dealing with it, aren't we, 
Jeff? And it's even gotten worse with the quagga mussels.
    And then when I was Governor, we had a Great Lakes 
Protection Fund. And Ohio hadn't kicked in their $14 million, 
and so we did that. And I think people should be very, very 
excited about the fact that we do have the $100 d million 
endowment that the Great Lakes Governors put together, that the 
income from which is distributed every year based on 
population, and then there are many opportunities through 
special research grants that some of you I'm sure sitting here 
have taken advantage of.
    And I guess the last thing that I'm very proud of, and Sam 
Speck is working on it, it's the 1998 water quality index where 
we really looked at the things that we, the various aspects of 
the Great Lakes to see if, particularly Lake Erie, to see where 
we were. We needed, I thought, a baseline to see where we were 
and then we could come back and measure if we made any progress 
or not.
    So we've been avowed for a long time. And then as a 
freshman Senator in 1999, I was fortunate to be selected as the 
Chairman of the Subcommittee on Transportation and 
Infrastructure. And I think the staff people know that. That 
was the first time that that ever happened. And it, of course, 
got yanked the next session by Jim Inhofe because he wanted it. 
And then became chairman. So I may, if I get back there, maybe 
some day be chairman of that committee again.
    But one of the initiatives that we offer is the Great Lakes 
Fishery and Ecosystem Restoration Program, which authorized the 
Corps of Engineers to plan, design and implement projects that 
support the restoration of the fishery, ecosystem, and 
beneficial uses of the Great Lakes. And WRDA at that time 
authorized $100 million specifically for projects to restore 
the Great Lakes fishery and ecosystem.
    And last year we cosponsored the Great Lakes Legacy Act, 
which was signed into law in 2002 to authorize $50 million per 
year for 5 years for the cleanup of the contaminated sediments 
of Areas of Concern. Unfortunately, we only got $15 million. We 
certainly need a whole lot more money to deal with that 
problem. Again, it's like everything else. We've gotten started 
with something that's long overdue.
    Through the years, I've also worked long and hard in 
addressing our nation's critical wastewater infrastructure 
needs. And unfortunately, billions of dollars more are needed 
to upgrade aging systems and bring communities into compliance 
with the Clean Water Act. And that's why I introduced 
legislation in the 106th, 107th, 108th to reauthorize the 
highly successful, but undercapitalized, Clean Water State 
Revolving Loan Fund program at a level of $3 billion per year 
for 5 years. So I think that, again, you've got to get back to 
basics. If we don't upgrade our sewage treatment--this was very 
interesting. I was in Akron--not Akron. Lorainne. They have an 
old plant over there, 50 years old, 49 years old. It takes 
about 15 million gallons. The guy that runs it told me that 
when it rains, they get about 40 million gallons going through. 
So they only take care of 15. The rest of it just goes in the 
lake.
    Then when he we had this blackout just recently, because we 
didn't have backup pumps, we put a lot of raw sewage into the 
lake. So I think that we need to get out of that. We need to do 
the same thing with drinking water. Infrastructure is a very 
important issue that has been neglected for too long.
    In addition, we've been avowed with the Ottawa National 
Wildlife Refuge Complex in Ohio and the Detroit River 
International Wildlife Refuge in Michigan along the coast of 
Lake Erie. We've expanded that. We need to have more wetlands.
    Responding to the hearing last August on dead zones, we 
introduced a bill that reauthorized the Harmful Algal Bloom and 
Hypoxia Research and Control Act expanded to the Great Lakes, 
not just the coastal marine waters. I then worked with the 
members of the Commerce Committee to include my provision to 
create a Great Lakes research program in a bill they passed. 
They passed that, and finally we're going to be able to take 
advantage of it. So many of these Federal programs for people 
here in Ohio just deal with the coastal and they don't even 
include us.
    For example, a couple years ago I found out that we had an 
estuary program in the Federal Government and no money for 
estuaries in Great Lakes. They didn't even know there were 
estuaries in Great Lakes. We got that amended. So now we can 
take advantage of some of those dollars.
    We also cosponsored the great Lakes Water Quality 
Indicators and Monitoring Act to expand the index that we 
created as Governors to measure water quality in Lake Erie to 
cover all the Great Lakes. And, Sam, you know we're trying to 
get you some more money, have you upgrade yours.
    Furthermore, continuing to fight against aquatic invasive 
species that are wreaking havoc in the Great Lakes. I refer to 
them as aquatic terrorists, are entering this great natural 
resource in the ballast water of boats from all over the world. 
And that's got to be stopped. And so we cosponsored that act to 
help prevent the Great Lakes from these species.
    In June, we participated in a hearing on this bill. And 
we've got to get this passed. We've got some legislation there, 
but we have no teeth--the Army Corps will tell you we don't 
have the money to be enforcing it to get it done. We have to 
get serious about this problem because God only knows what the 
next thing is that's going to come in here and we'll be dealing 
these--new things are coming in and we have our hands full just 
dealing with what we've got. So there's a lot more to be done.
    I emphasize that this is an urgent need that deserves the 
demands of a well coordinated effort, one that cannot be met by 
simply adding individual programs to those that exist. And many 
of you are familiar with the GAO report, Overall Strategy and 
Indicators for Measuring Progress are Needed to Better Achieve 
Restoration Goals. That the title of it. And that the number of 
programs is not the problem. The problem is we're not 
coordinating them.
    In responding to that report, my long held concerns about 
restoration, we've recently sponsored the Great Lakes 
Environmental Restoration Protection and Recovery Act. In 
short, this bill moves us closer to our goal of restoring the 
Great Lakes by providing funding and promoting coordination.
    As some of you may know, I was intimately involved in the 
restoration of the--comprehensive plan for the restoration of 
the Everglades. Rich Worthington, also from the Corps of 
Engineers, I'm so glad to see you here. And now it's your goal, 
as coming to you on loan from the Army Corps, it's really 
helped us out. And I was the proud sponsor of WRDA 2000, which 
approved this ambitious plan.
    Earlier this year I spoke at the Eleventh Annual Everglades 
Coalition Conference in Florida and told them, quote, what I 
would love to do as Senator is to be able to put the same kind 
of coalition together that you've been able to do for the 
Everglades for the Great Lakes. This is my dream.
    Right now we have many groups, Governors, mayors, 
environmental groups, Congress, and others, that are all 
working separately on proposals and priorities to restore the 
Great Lakes. However, the fact of the matter is if we're going 
to get something done, we need to create a symbiotic 
relationship with all of the public and private players of the 
United States and Canada to develop a comprehensive restoration 
plan for the Great Lakes.
    I'm very active on the Canadian Parliamentary Group and 
we've talked about this and I think we can get something going 
and be able to get support of that for our efforts.
    This plan, in my opinion, is absolutely essential if we 
expect to continue to restore and improve one the world's 
greatest treasures, the Great Lakes. And, frankly, from a 
selfish point of view at this stage in my life, this would be 
the capstone to my legacy to Lake Erie. And more importantly, 
to my children, and to my grandchildren and yours.
    I would again thank our witnesses for being here today and 
I am excited about the prospects that we have if we can just 
all understand we have a symbiotic relationship with each other 
and start working in the same direction. It's amazing, as I've 
seen over the years, what you can do when you have that kind of 
attitude present.
    So I'd like to first call on Tom Skinner. Tom, again, thank 
you for being here.

 STATEMENT OF THOMAS V. SKINNER, REGIONAL ADMINISTRATOR, U.S. 
  ENVIRONMENTAL PROTECTION AGENCY REGION 5, CHICAGO, ILLINOIS

    Mr. Skinner. Thank you, Senator. It's a pleasure to be with 
you again. I'm pleased to be here today to talk about our 
efforts to restore and protect the Great Lakes which, as you 
well know, is the largest freshwater system on earth. I'd like 
to start just by taking the opportunity to highlight mechanisms 
that the EPA has developed to carry out Great Lakes priority 
setting and planning. Over the past few years, we've built a 
sound structure for achieving a collective vision of 
comprehensive ecosystem management for the Great Lakes.
    We have a good understanding of the major environmental 
problems facing the Great Lakes today. And in recognition of 
these problems, the fiscal year 2004 budget that the 
administration president put out increased EPA's Great Lakes 
funding by $15 million, nearly doubling the fiscal year 2003 
levels. These additional funds will support the contaminated 
sediment projects newly authorized by the Great Lakes Legacy 
Act that you mentioned earlier.
    Efforts to develop the Great Lakes Strategy 2002 combined 
with the information for the State of the Lakes Ecosystem 
reports have provided much valuable information and experience 
to all of us. EPA continues to gather more information on the 
condition of the Great Lakes as part the Agency's scientific 
research program.
    For example, we're working to develop integrated methods of 
detecting and predicting the spread of new invasive species 
introduced into the Great Lakes. We're also developing more 
rapid methods for measuring beach water quality to give results 
in one to 2 hours, rather than the current 24 to 48 hours, 
improving our protocols for monitoring, our goal being to 
better understand the relationship between water quality and 
its health impacts on beachgoers.
    What we do know now is that, first, invasive species in the 
Great Lakes, now in excess of 160, are causing serious economic 
and ecosystem health impacts. It is virtually certain more 
invasives will enter the system in future years.
    Next, toxic contamination has triggered more than 1,500 
current fish advisories in the Great Lakes Basin. Cleaning up 
contaminated sediments and addressing the inputs of toxic 
chemicals into the lakes are key to solving this problem.
    Record numbers of beach closings have occurred in the Great 
Lakes in recent years due to nonpoint source runoff and sewage 
problems.
    A dead zone of water lacking oxygen has appeared in Lake 
Erie, impacting aquatic life and indicating that the health of 
the lake may be compromised.
    Your hearing last year, in fact, helped us substantially to 
raise awareness of this issue and refocus our efforts on this 
issue.
    The Great Lakes Strategy 2002, working along with the 
Lakewide Management Plans for each of the Great Lakes and 
Remedial Action Plans, identifies these problems and the three 
form a complementary framework for current and future efforts 
to address them. A suite of goals and measures in this strategy 
is guiding governmental partners toward solving these problems. 
Some of most important goals are: By 2005, cleanup and deal 
with three areas of concern, with a cumulative total of ten by 
2010. By 2007, reduce concentrations of PCBs in lake trout and 
walleye by 25 percent. By 2007, establish 300,000 acres of 
buffer strips in agricultural lands using non-regulatory 
Federal and State programs. By 2010, 90 percent of Great Lakes 
beaches to be open 95 percent of the season. By 2010, restore 
or enhance 100,000 acres of wetlands in the Basin. By 2010, 
substantially reduce the further introduction of invasive 
species, both aquatic and terrestrial, to the Great Lakes Basin 
Ecosystem. And accelerate the pace of sediment remediation, 
leading to the cleanup of all designated sites by 2025.
    We have other challenges in restoring the Great Lakes. They 
include the sheer geographic size of the system and the range 
of problems present in the Great Lakes. The Great Lakes also 
require binational cooperation to achieve results.
    Coordination with numerous partners and jurisdictions is 
another issue. We have 8 Great Lakes States, over 10 Federal 
agencies, and over 30 Indian tribes responsible for carrying 
out environmental and natural resource management programs to 
protect and restore the Great Lakes. Many other key 
organizations such as the Council of Great Lakes Governors, The 
Great Lakes Commission, the Great Lakes Fishery Commission, and 
the International Joint Commission, or IJC, also have extremely 
important roles.
    Public involvement. The very nature and value of the Great 
Lakes as a natural resource means many non-governmental 
partners and individuals from all sectors of society are 
interested in the Lakes' health.
    The potential for duplication of efforts. There are 
currently a number of plans and planning efforts for the Great 
Lakes that address different geographic scales. It is important 
to coordinate these efforts, as you mentioned. And it is 
important that they do not cause unnecessary confusion, wasted 
resources, or lead to reinventing the wheel.
    Finally, where do we go from here? Our goal right now, our 
intent right now is to implement the Great Lakes Strategy in 
conjunction with the LMPs and the RAPs. It's going to be 
important to move forward and continue to work with the Council 
of Great Lakes Governors to ensure that the Governors' 
priorities are emphasized and that duplication of efforts is, 
in fact, avoided. I have a great deal of respect for the 
Council.
    Senator you have no reason to remember this, but when I was 
a young staffer for their Governor Jim Thompson of Illinois, we 
actually worked with you and your folks in forming the Great 
Lakes Protection Fund. So I have a long history with that group 
and a great appreciation for the work that they do.
    The Great Lakes Strategy 2002, the Management Plans and the 
RAPs can serve as the starting point for all of this work, 
including the Governors Council. And finally, we're following 
closely, as you might imagine, the Great Lakes Environmental 
Restoration and Recovery Act you are sponsoring in the Senate 
and the similar bill that has been introduced in the House. It 
raises some interesting possibilities I think for all of us, 
and I'm sure will be the subject of much discussion in the 
coming months.
    In closing I would like to thank you for the opportunity to 
speak today. I'm certainly more than happy to take questions. 
But even more, I would like to thank you for your tireless, and 
as you noted, your lifelong efforts on behalf of not only Lake 
Erie but all of the Great Lakes. You're a true champion of 
Great Lakes' causes, and we very much appreciate that.
    Senator Voinovich. Thank you, Tom. Very nicely said.
    Colonel Ryan?

 STATEMENT OF COLONEL WILLIAM E. RYAN, III, DEPUTY COMMANDER, 
 GREAT LAKES OHIO RIVER DIVISION, U.S. ARMY CORPS OF ENGINEERS

    Colonel Ryan. Thank you, Senator Voinovich. I'm pleased to 
testify before you on the restoration of the Great Lakes.
    As chairman of the transportation and infrastructure 
subcommittee, you balance flexibility, adaptic management, good 
science, evaluations appropriate for a professional oversight 
and all those things are critical.
    We recently had experience in the Everglades restoration 
and it will be important in restoring, protecting the 
environmental resources of the Great Lakes while continuing to 
maintain Great Lakes' critical role in the economic vitality of 
the region.
    The Great Lakes system is one of our nation's most vital 
natural resources. The world's largest freshwater system 
provides millions of U.S. and Canadian residents water for 
consumption, transportation, power, recreation, and a number of 
other uses. I look forward to continuing to work with our 
sister agencies, such as EPA, and other partners and 
stakeholders, including Great Lakes United, on approaches for 
restoring and protecting the Great Lakes.
    My comments focus on Federal and non-Federal roles in 
addressing water issues on the Great Lakes and the importance 
of an integrated and collaborative process involving all 
affected parties to assure the protection of this vital 
resource. I will continue with an overview of the various 
Corps' civil works programs and other activities that are 
focused on addressing the Great Lakes water resources issues.
    Primacy for water resources management in the U.S. has been 
and must continue to be at the State and local level. While is 
it appropriate for the Federal Government to be involved in 
issues of international, national or multi-State significance, 
such as the management of the Great Lakes water resources, it 
is the States, and in particular the Governors, who should be 
establishing the priorities for management of these shared 
water resources.
    The scope and technical complexity of water issues and the 
extent of desired participation by stakeholders means that the 
Federal Government can facilitate State and local leadership by 
being responsive to their requests for effective coordination 
among Federal and non-Federal restoration programs and by 
bringing Federal analysis and program support to State and 
local efforts.
    The diversity of restoration challenges of the Great Lakes 
Basin has spawned a number of intergovernmental organizations 
and committees to coordinate one or more specific issues, 
whether it is invasive species, wetlands restoration, water 
management, non-point source pollution. A significant amount of 
planning and coordination has already been accomplished through 
the existing organizations and committees, including the U.S. 
Policy Committee, Great Lakes Commission, Council of Great 
Lakes Governors, and Great Lakes Fishery Commission.
    The restoration challenges facing the Great Lakes are 
numerous and complex. The Great Lakes restoration challenges 
include contaminated sediments, invasive species, non-point 
source pollution, habitat alteration and loss, fish and 
wildlife conservation, and water management within a framework 
of two countries, eight States and two provinces.
    We believe that continuing restoration of the Great Lakes 
would benefit from a watershed perspective, emphasizing 
collaborative and integration of all the stakeholders and their 
perspectives, such as Great Lakes United. Success requires the 
participation of all interested parties in the planning and 
decisionmaking process. This participation would foster an open 
dialog to integrate sometimes competing or conflicting water 
resource needs. Such integration and collaboration are 
indispensable to meeting water challenges.
    As you know, the Corps has a variety of Civil Works 
programs that are being utilized for the protection, 
enhancement and restoration of the Great Lakes ecosystem. The 
size and importance of this water resource and the complexity 
of the challenges before it necessitate a team approach to its 
management. The Corps has worked as a team member, as well as 
team leader, in different aspects of the collective 
environmental programs for the Great Lakes Basin.
    The Corps has been a member of the team that monitors, 
predicts and regulates water withdrawals, flows and diversions 
through our support to the International Joint Commission 
Boards of Control and reference studies. The Corps has been a 
member of the U.S. Policy Committee, and participated in the 
development of their Strategic Plan to facilitate the 
implementation of the Great Lakes Water Quality Agreement.
    The Corps has provided technical assistance to the U.S. 
Environmental Protection Agency in the development of the 
Lakewide Management Plans. The Corps has also provided 
technical assistance to States and local groups for the 
development and implementation of Remedial Action Plans at 16 
of the Great Lakes Areas of Concerns.
    The Corps has been a leader of team efforts to protect and 
restore the Great Lakes ecosystem from invasive species, 
including the dispersal barrier on the Chicago Sanitary and 
Ship Canal and sea lamprey barriers at various Great Lakes 
tributaries. The Corps is also leading the Great Lakes Fishery 
& Ecosystem Restoration Program and other programs to restore 
and enhance aquatic habitat in the Great Lakes Basin in 
partnership with the Great Lakes Fishery Commission, Great 
Lakes States and Tribes.
    Perhaps the most significant program the Corps has lead to 
date is the removal and confinement of contaminated sediments 
from Federal navigation channels in the Great Lakes. Although 
this program was conceived as a measure for environmental 
protection rather than restoration, the Corps, in partnership 
with State and local governments, has removed over 90 million 
cubic yards of contaminated sediments from the Great Lakes 
through this program. Over 70 million of that was from Great 
Lakes Areas of Concern.
    Using its expertise in management of contaminated 
sediments, the Corps has been working with other Federal 
agencies and Great Lakes States on sediment cleanup projects. 
The Corps continues to work in partnership with the EPA to 
evaluate and demonstrate new and improved technologies for 
managing contaminated sediments.
    Through a more recent program, the Corps is currently 
leading projects for environmental dredging at eight Great 
Lakes AOCs in partnership with State and local agencies.
    The Corps conducted one of the first ecosystem restoration 
plans for Lake Erie in cooperation with the EPA approximately 
30 years ago and is conducting watershed management planning 
for what some call the sixth Great Lake, Lake St. Clair, in 
partnership with Federal, State and local agencies.
    The Corps has four basinwide studies ongoing that are 
addressing specific or general water resource needs of the 
Great Lakes. The first of these is a U.S.-Canadian 
collaborative study of the existing navigation infrastructure 
in the Great Lakes and St. Lawrence Seaway. We are working with 
the U.S. Department of Transportation, Transport Canada, and 
the U.S. and Canadian Management organizations for the St. 
Lawrence Seaway to establish the baseline conditions of the 
existing infrastructure, commercial navigation uses, and the 
environmental conditions of the Lakes and St. Lawrence River 
that may be impacted by the navigation system. We are also 
developing a bi-national framework for collaboration and 
partnership among the States and Provinces, Federal agencies, 
local entities, and stakeholders.
    The second basinwide study is an inventory of biohydrologic 
information relevant to the Great Lakes water management and 
will include a gap analysis of water-related data. This study 
is closely integrated with the Annex 2001 activities of the 
Great Lakes.
    The third basinwide study we have initiated in partnership 
with the Great Lakes States is an evaluation of the economic 
benefits of recreational boating in the Great Lakes, in 
particular those utilizing the Federal navigation system.
    And our fourth Great Lakes study the Corps is helping to 
develop a strategic plan in collaboration with the Great Lakes 
Commission. As authorized in Section 455(a) of the Water 
Resources Development Act of 1999, this study will produce a 
report to Congress with an analysis of existing water resource 
needs identified by Great Lakes States and stakeholders and 
recommendations for new or modified authorities to address 
unmet needs.
    In conclusion, the Corps is pleased to have had the 
opportunity to appear before you and provide testimony on this 
important subject. We value highly the water resources of the 
Great Lakes, the partnerships we have formed with our sister 
Federal agencies, the Canadians, the Great Lakes State, Tribes, 
local governments and stakeholder groups in managing and 
protecting this unique resource.
    We look forward to continuing these partnerships. This 
concludes my remarks. Sir, I'll be happy to answer your 
questions.
    Senator Voinovich. Thank you very much. One thing I would 
like to do is I would like to introduce my staff person, Brian 
Mormino. Brian has done an outstanding job for me since he came 
to work for me in the U.S. Senate. And it's kind of a special 
day for his family, because his mom and brother are here today. 
We would want to welcome you. Brian's been telling you about 
all this hard work he's been doing. Now you're here to witness 
it.
    Mr. Skinner, we talked about at the end of last month's 
hearing about restoring the Great Lakes. And it seems to me 
that you as the manager of the Great Lakes National Program 
Office may have thought more about restoration than perhaps 
anyone else. So as you well know, there seems not to be an 
agreement on how this, you know, should be done. One of the 
things that I think that we need to do is to define 
restoration.
    And do you want to take a shot at defining restoration?
    Mr. Skinner. Did I mention earlier what an excellent job 
Brian does on your staff.
    Senator you're correct and well aware of the big issue. I 
think in terms of the Great Lakes Strategy 2002, we look at 
restoration largely through the context of cleanup within Areas 
of Concern. In part, because those are readily identifiable. In 
part because those areas alone are overwhelming in terms of the 
demands and effort and dollars. But it's also easy to do 
because they're readily identifiable.
    I think there are other issues characterized as restoration 
that are not as easily classified. An example is what we're 
seeing in Lake Erie right now with the so-called dead zone, the 
anoxia problem. There's been a dramatic reduction in phosphates 
over the course of the past 30 years. I think we all believe 
that we're at reasonable levels in the last 10 years. Yet 
nonetheless, there's seems to be a rise in phosphates and 
phosphorus within Lake Erie. This dead zone appears out of 
nowhere to some extent, and we're all struggling to determine 
what it is that's causing it and exactly how to deal with it.
    So restoration can be either very narrowly defined or very 
broadly defined.
    The consequent problem is coming up with the funding that's 
really necessary in order to do the amount of work that's 
there. The Great Lakes Legacy Act, which was introduced and 
approved by Congress last year and that the President funded to 
the tune of I think about $15 million in this year's budget, 
will be extremely helpful in getting us started on that 
process. But it is just a start. The $15 million is going to be 
a significant increase and will allow us to begin to clean up 
the areas of concern immediately.
    However, that's a down payment in terms of the overall cost 
of just cleaning up the AOCs. We believe that $15 million is 
adequate right now because it's going to take us some time to 
get these projects going. And if there had been an influx of a 
$100 million this year, it really wouldn't have increased the 
pace that we would be able to set here. But those demands are 
out there. In terms of defining restoration, again, I think it 
depends on what your goals are.
    The other thing we're struggling with, and we talked about 
this at your hearing last month, is the number of entities, 
organizations and individuals that are involved in this 
process. I sometimes think that it might be a lot easier for us 
all to rent a big bus and just travel from meeting to meeting 
and hearing to hearing together because it's largely the same 
people that appear at these various sessions of representatives 
working on Great Lakes issues. I'm concerned that we could 
never--we'd each have our own little bit different conception 
of what that bus should like. And, therefore, we'd never get to 
the point of where we actually rented the bus. And we'd all end 
up walking.
    There's an analogy there that I'm trying to draw to the 
overall Great Lakes issues. I think we're all trying to do the 
right thing, we're all trying to protect the Great Lakes. Many 
of us serve in different capacities in those different groups, 
but the risk is that each of those groups comes up with a 
slightly different view of what ought to be done, what 
restoration is. And as result, we don't have a single unified 
comprehensive vision of Great Lakes restoration, and it makes 
it very difficult then to complete the case to Congress, 
complete the case to the White House that that vision ought to 
be acted upon and that funding for that vision ought to be 
either provided or increased. And that's an ongoing struggle.
    I mentioned the Council of Great Lakes Governors and our 
desire to work closely with that group. I know Mayor Daley in 
Chicago, Mayor Campbell here in Cleveland, and others on the 
Great Lakes have formed their own organization. And Mayor Daley 
very much wants a voice in the discussion, a voice in the 
debate about what's going on in the Great Lakes. That's a 
positive thing because it's the cities that are doing a lot of 
the work along with the States. It makes it somewhat more 
complex though because it's another player----
    Senator Voinovich. But it's a really good thing because the 
fact is is that a lot of the Mayors have not paid attention to 
this and have not been as interested in this as they should be. 
So that to me, it's a good initiative on their part.
    Mr. Skinner. Absolutely. And they're very committed to it. 
I can tell you that Mayor Daley is a hundred percent personally 
behind it. In fact, they hired Dave Ullrich, who was the Deputy 
Regional Administrator for Region 5, to head up the Mayors' 
office on Great Lakes issues. So we know we have a colleague 
and an ally there. We know that the Mayor is going to continue 
to work hard. Yes. The challenge is coming up with a single 
restoration plan.
    Senator Voinovich. Well, the real question is that, you 
know, who should be the orchestra leader. But the challenge 
maybe for our committee is that let's get those players and 
develop a definition of what restoration is, which, you know, 
which--some compromise. And then who are the groups that can 
start to develop the overall planning. And then the issue then 
becomes who is the orchestra leader that convenes the group. 
And I know we've talked about that at the hearing with several 
people over there. And just as happened on this blackout thing 
that we had, it's very good that Canada and the U.S. are going 
to have a joint get-together. In terms of from my perspective.
    If you're looking at the international aspect of this, what 
group should that be? What is your opinion on that?
    Mr. Skinner. Well, we actually have a group now, the Bi-
National Executive Committee. It's made up of various 
representatives at both Federal Governments on the U.S. and 
Canadian side. Environment Canada coordinates it for our 
neighbors in the north and the EPA, my shop, coordinates it for 
the U.S. side. So in terms of the environmental issues, we have 
a pretty effective mechanism for dealing with that right now. 
We work very closely together. We meet formally twice a year 
but communicate regularly.
    Senator Voinovich. How does that deal with the IJC?
    Mr. Skinner. The IJC is--yes. Sometimes I still struggle to 
understand the relationship of all these organizations. The 
IJC, International Joint Commission, is actually a separate 
independent body that is charged with, among other things, 
overseeing the two governments' efforts in the Great Lakes 
under the Great Lakes Water Quality Agreement. They are, you 
know, in some way the watch dog group. So they sit separately 
from the Bi-National Executive Committee and other groups that 
get together.
    But the reality of it is we coordinate with the IJC on a 
regular basis as well. We work closely with Dennis Sharnack, 
the current U.S. Chair, and Herb Grag, the former Minister from 
Canada, who both had come on recently. Both had a great deal of 
enthusiasm for the Great Lakes issues because they're both from 
the Great Lakes areas. And I think that relationship continues 
to evolve.
    Senator Voinovich. Well, what I'd like to have from you in 
writing is a, would be your dream of--you know, you've been 
charged with the coordination. And just how would you relate to 
the international, so that we have an international flavor 
here, or just some of these other organizations. I think we 
need to really add that now. Who are the groups, and does this 
group that you're meeting, this bi-national group, include all 
of the groups in the U.S. that are involved in some way with 
the Great Lakes and its Canadian counterparts doing the same 
thing?
    Mr. Skinner. It includes all of the--on the U.S. side, it 
includes all of the governmental entities involved in the Great 
Lakes, but not the NGO's. And so it's really a government 
effort to coordinate the various activities that are going on. 
It's our way of beginning to get at your question of whether 
you have an orchestra leader or not. Is there a way to 
coordinate activities. We've had----
    Senator Voinovich. In addition to coordinate activities, 
how do you take and develop a plan and identify the roles of 
the various organizations and how do they fit in and, you know, 
identify if there's going to be any kind of duplication that 
may be taking place. But I think we really need to get going on 
this thing. We need to put some stuff down on a piece of paper.
    And I'd be interested in, Colonel Ryan, your familiarity 
with the Everglades. It was my understanding the, that South 
Water Management Group is kind of the governmental umbrella 
organization working with the Army Corps of Engineers. And then 
you have the Everglades Coalition Group. And I'm interested in 
what was--in developing the comprehensive plan, what was the 
relationship there. Non-governmental groups, were they 
observers, were they at the table? Tell us what happened.
    Colonel Ryan. Well, it kind of developed over time. 
Initially, you had the governmental agencies, the EPA, Tom. You 
had other types of Governors that were commissioned out there 
that were working on it. But it's very important that we bring 
in all those stakeholders as you're working to develop the 
plan. And that includes a variety of obviously Federal non-
governmental agencies, interest groups that need to be brought 
to the table at the beginning as you help to put together that 
overall comprehensive strategy, as you try to develop programs 
that address specific needs and then try to prioritize so to 
better serve the end quickly.
    Senator Voinovich. But who actually put the plan together? 
Was it--it was the Army Corps of Engineers, correct?
    Colonel Ryan. We worked extensively with the plan to 
develop it and used our planning expertise. But once again, you 
had all of these different agencies involved as we put back in. 
It was not a plan that the Federal Government----
    Senator Voinovich. You--so in other words, you wrote the 
plan in conjunction with the South Water Management District 
and got input from the Everglades Coalition at the same time 
and dealt with some of the special agribusinesses and so forth?
    Colonel Ryan. That's correct.
    Senator Voinovich. And the difference with the Great Lakes 
is you defined many of the things the Army--the Army Corps has 
got some pretty big studies that you're working on right now. 
So I have a hard time keeping track of them. So that's, you're 
very much involved in doing some studies right now of various 
things. The issue becomes and as part of what you are doing in 
the studies, how does that fit in with the overall--what would 
be the overall plan? This is a navigation study and you've got 
some of the other things----
    Colonel Ryan. That's correct.
    Senator Voinovich. When they're completed, those could be 
used as the basis of fitting into how they interface in terms 
of the restoration effort, correct?
    Colonel Ryan. That's correct.
    Senator Voinovich. And those studies right now that you're 
doing, are you touching base with EPA and with consequently 
Governors around the NGO's?
    Colonel Ryan. If I can give you an example. As you know, 
one of our authorities has to do with navigation. And we're now 
at the beginning of a study of the Great Lakes and St. Lawrence 
Seaway and looking at the navigational infrastructure. As part 
of that, you have to obviously look at the environmental 
impacts, the environmental impacts as based on the studies. And 
we're trying to form an actual bi-national organization to 
manage that, part of that project delivery team that will put 
its study together. You have environmental components that 
we're working on addressing right now with our sister that 
should be organized and who should be participants in that to 
open the final solution.
    Senator Voinovich. So the point is that this is a big area, 
and part of this may be defining pieces of it and then letting 
groups work on pieces of it in their respective area. St. 
Lawrence Seaway, certain States, Canada, fish and wildlife, 
environmental groups and so forth. That would be a piece of the 
restoration and making sure that the navigation problem--the 
use of navigation and making sure you're not destroying the 
ecology in the area. You've got to keep bumping and once in a 
while----
    Colonel Ryan. You have to have that comprehensive strategy, 
overall strategy.
    Senator Voinovich. So I think that just to getting 
everybody, identifying some key staff people to sit in a room 
and start to write this down, bridged on how it all fits in and 
what the--how everybody is, what everybody's doing and try to 
bridge this thing together would be, I think, the best thing 
for it. And the planning part, a lot of the stuff you're doing 
would be a piece of the overall strategy and how does that fit 
in with, you know, the strategy that you have. Is it--the Army 
Corps--the GAO in their report says that there was no strategy. 
There was a list of things, but there was no strategy about how 
to get this done.
    Mr. Skinner. Senator, with all due respect, the GAO, as you 
heard last month, we have some differences where we come out on 
those issues is the question. We believe that the Great Lakes 
Strategy 2002 does provide the framework. It could be 
characterized as a modest framework given the overall scope of 
problems with the Great Lakes, but the framework is there.
    I also wanted just to add that although the U.S. Policy 
Committee is made up of the State and Federal Governmental 
partners, we do have NGO's that are present as observers and 
present as participants in those meetings as well. So this is 
not an exclusive group in that sense. We are getting--we do 
work with those other folks, and we do get a good sense of 
where they're coming from on it.
    But if--again, the Everglades is a great example of a 
program that we've been successful in funding and creating a 
vision for. This is not an excuse. It's simply a reason. In 
there it's a little bit simpler because you have a similar 
State and similar Federal Government. It's a much more limited 
resource, as big as it is, than we have in the Great Lakes. 
It's somewhat more complex in that way.
    Senator Voinovich. Yes. But now, the U.S. side, if you have 
the Army Corps and the EPA, and then maybe you have 
representation from the Council of Great Lakes Governors, the 
NGO's, and maybe start with this, you collaborate with the 
Corps and get all this stuff down on a piece of paper, and 
then, you know, get out some information to the folks and have 
another meeting and have them come in and start to work on 
this. That might be--what I'm looking for is a way to get to 
this and as quickly as possible and making sure that we 
identify all the players. Because if you do it and you don't 
have everybody at the table or at least feel they're part of 
it, once you get done, you know, they'll grenade it. They end 
up trying to get--trying to get, redo our health bill. Every 
system in the United States is trying. You need to identify it, 
we need to get in a room to look at it and so forth.
    Mr. Skinner. If I may add one more thing, I'll be glad to 
submit the sort of mission that you're looking for. I can tell 
you what we've done in a month or month-and-a-half since we 
were last together. I've given a great deal of thought to this. 
My intent is to sit down with--I hope to sit down with Governor 
Taft, the Chair of the Council of Great Lakes Governors, in a 
very short order here, within the next month or so, and working 
with the Governor to put something together to come up with 
exactly that, a plan to reach agreement that will work 
together, and then come up with a plan to get everybody in the 
room together and really begin that process of identifying with 
the appropriate parties, and then getting to work on the vision 
that all of us share.
    Senator Voinovich. And from an international point of view, 
we have to identify, you know, on a Canadian side, who the 
groups are on the Canadian side that would be doing the same 
thing as the Army Corps and with, you know, the EPA.
    Mr. Skinner. Yes. I think John Mills from Environment 
Canada really has, as far as I know, really the lead on the 
Canadian side and would be able to coordinate on that side of 
the border. I talk to John regularly, our staffs meet regularly 
and deal with these issues on a daily basis. So that part of it 
is actually the easiest in my opinion because that framework is 
there.
    Senator Voinovich. And again, how do you fold in what--the 
studies that the Army Corps is doing?
    Mr. Skinner. I think we have to, we have to, before getting 
involved with the Corps, is the Corps moves along on its 
progress. And I fully expect that we'll participate in their 
studies, and they'll participate in ours.
    Senator Voinovich. And the other thing, too, is we've got 
to make sure we technicalize in terms of some of the stuff that 
we're doing now. Even some of the things the Corps is doing. 
You're not fully funded on some of this stuff. And the concept 
would be to look at where are you with what you're doing and, 
you know, could they be doing a little bit more in some of 
these areas. You could fill in some of the gaps that maybe we 
need to have filled in.
    Mr. Skinner. That's absolutely right. I don't know whether 
these numbers came out of the GAO report or whether we came up 
with these on our own. But the numbers you have in front of 
you, there are 148 Federal and 200 State programs working on 
restoration efforts in the Great Lakes today. That right there 
is indicative of: No. 1, there's a commitment to doing this 
work, but, No. 2, 200 different programs out there. There is a 
need to coordinate that work.
    Senator Voinovich. The other thing is this has been--if 
people understood the role that they were playing in the big 
picture, I think they'd be more enthusiastic about it. And I 
think so often many of these groups feel like they're out in 
the boonies by themselves and what they're doing, they just 
kind of lose--I mean, they're doing their thing, but they're 
looking around and how does this fit in with the big picture. 
We're doing our thing. But what about the people someplace--are 
they doing theirs. And then it's--I think you get that 
enthusiasm that you're part of a plan that's really going to 
result in some significant change and improvement.
    The money part of it is, of course, you know--we get back 
to it. In other words, we can talk about restoring the lakes, 
but if you don't--and I think this is really important that we 
mention the importance, the fundamentals. The fundamentals are 
we need to do a better job with providing money for sewage 
treatment in dealing with combined storm overflow. Fundamental 
stuff. Right?
    And then even on the Army Corps of Engineers, Colonel, 
what's the backlog like?
    We started at 400. It's probably up to be about--what is 
your operation management--what is it called? OMM.
    Colonel Ryan. Operation Maintenance.
    Senator Voinovich. Operation Maintenance, yes. How far are 
you now? What is the new number?
    Mr. Worthington. I think about 600 million.
    Colonel Ryan. 600 million.
    Senator Voinovich. It's got to be more than that.
    Senator Voinovich. But we've got--how much of that is 
attributable to the Great Lakes and then on--and many of the 
projects that have been authorized, the funding's way low. And 
talking about coming up--Rich, remember when we were talking 
about a new system where we'd get rid of the projects that 
weren't going anywhere and narrow it down?
    Mr. Worthington. Right.
    Senator Voinovich. We just really kind of need to get going 
on this issue. And, Tom, the administration, I think, should be 
looking at this, you know, in terms of a priority. I said, you 
know, the economy is not that good right now, but there are 
some Public Works programs--you know, you're spending money, 
but in return for the money, you're getting something back on 
it. You're getting--just like we did back in the early 1980's, 
early 1970's, with the 75/25 program on that.
    I don't have any other questions. I think the main thing 
I'm trying to get at today is where are we with some of these 
programs and how do we get going. What I would like to do would 
be to make it in a month's time, maybe the two of you guys--
I'll tell you one other idea I have is if maybe we could do a, 
kind of a strategic plan on what we want to get done, we might 
try to bring this to the attention of the President and to the 
Prime Minister and maybe that would be a wonderful way--you 
know, the relationships with Canada and U.S., we parliamentary, 
parliamentarians get along real well. And Bill Graham, your 
Foreign Minister is a good friend of mine.
    But there have been some things, a little bit of conflict 
or differences of opinion. This might be a wonderful way to get 
the Prime Minister and President to say that we're committed to 
this, and this would be something great for our countries to do 
on this wonderful resource that belongs to us.
    They might just run that up the flagpole with some of the 
folks in Washington. I know--I haven't done it yet, but I'll do 
the same thing and maybe we can make something happen.
    Mr. Skinner. And, Senator, just to close, I had some 
meetings in the last month-and-a-half with the White House, and 
I think they're amenable to considering a plan but I think they 
feel very strongly that there has to be significant State and 
local participation, consistent with the overall strategy. So 
that's what's leading me to the Council of Great Lakes 
Governors.
    Senator Voinovich. Well, let's see if we can work on that. 
I've got some other questions here, but I think they're more 
technical in nature and maybe I can just submit them into the 
record and maybe ask you to respond to them. But the flavor 
here is I want to--I don't know, let's get going.
    Mr. Skinner. We get the message. Absolutely.
    Senator Voinovich. OK. Thank you very much. One of the 
things I want to do is anybody here from the Great Lakes 
Science Center? I hope you have a chance, those of you not from 
Ohio, I hope you have a chance to see this place. This is one 
of our legacy projects when I was Governor for the bicentennial 
for the city of Cleveland. The State participated substantially 
in the construction of this facility, which has been a great 
success. But if it hadn't been for the Gund Foundation who put 
up a challenge, perhaps we wouldn't have this here today.
    So I want to acknowledge the taxpayers of Ohio and the Gund 
Foundation for this great facility. It's really one of those 
things that--it's working because my dream would be to know 
more about the Great Lakes and get them involved in science. 
And they've got a wonderful program going on with the school 
system here in the area, and it's achieving what I hoped would 
be achieved with this, is an educational opportunity for the 
kids, and get them excited about joining the Great Lakes United 
or going to work for the Department of Natural Resources and 
making a difference.
    We'll begin the testimony with you, Dr. Stein. Thank you 
for being here today.

   STATEMENT OF ROY A STEIN, VICE-CHAIR, GREAT LAKES FISHERY 
     COMMISSION, AQUATIC ECOLOGY LABORATORY, COLUMBUS, OHIO

    Mr. Stein. Happy to be here. Chairman, thank you for 
inviting me specifically to share our views on the Great Lakes 
Fishery. I am Roy Stein. I'm the Vice Chair of the Great Lakes 
Fishery Commission and I'm a professor at Ohio State 
University.
    As you know, the Great Lakes Fishery Commission was 
established by Canada and the United States in 1956 to control 
sea lampreys, to coordinate fishery management, which was when 
fish stocks was a common concern. Here today what I would like 
to talk about are three important fishery issues. First, sea 
lamprey control. Second, the National Aquatic Invasive Species 
Act. And the third, the Corps of Engineers' Great Lakes Fishery 
and Ecosystem Restoration Program. All of these items and 
somewhat more are extensively discussed in my written 
statement. The Great Lakes Fishery is incredibly important to 
our Nation, as you talked about in your opening remarks.
    Senator Voinovich. Are you going to talk about the corner 
of our State, too?
    Mr. Stein. We're going to wait for later for that. You can 
answer the questions maybe.
    Mr. Speck. We'll help on that.
    Mr. Stein. We're looking at $4 billion annually to attract 
new anglers this year to support a strong commercial fishery 
industry. However, as with most shared resources, the system 
and the fishery is stressed. And one major stressor is sea 
lampreys----
    Senator Voinovich. Could you slow down a little bit. I know 
you want to get it out, but I think if you just go a little bit 
slower, I can hear you better.
    Mr. Stein. Usually I'm 48 minutes. I'm a university 
professor. And I have to get all 48 minutes in five. It will be 
tough. Yes, I will slow down.
    Senator Voinovich. Thank you.
    Mr. Stein. You're welcome. Sea lampreys invaded the Great 
Lakes from the Atlantic Ocean in the early twentieth century. 
And I think it's really difficult in many ways to really 
exaggerate the impact that these critters--no, it's not a live 
one. That these critters have on the fishery and on the 
ecosystem. They attach to the fish with a suction cup mouth 
that they have right out front, at this end. They rasp a 
relatively gruesome hole in the fish and then suck out their 
body fluids. You can think of them as the vampire of the sea.
    The average sea lamprey will destroy up to 40 pounds of 
fish flesh in an annual cycle. Before sea lampreys, the lakes 
supported a thriving fishery. After lampreys, the ecosystem was 
thrown into chaos and harvest fell to a small fraction of what 
it had been. Of course, the Commission was formed in response 
to this path.
    And I believe that we've risen to the challenge of 
controlling it. Through the use of several techniques, like 
lampricides, barriers, and what I consider an extremely 
innovative sterilization technique, the Commission and its 
partners have reduced sea lamprey populations to 10 percent of 
their exorbitant abundance.
    The fishery depends on lamprey control because without it, 
we would have no fishery to speak of. Fishery management, such 
as stocking, would be futile in the face of large populations 
of this parasite. And also the rub is, sea lamprey control has 
to be ongoing. OK. The minute that we back off the least bit, 
they come running right back. So we have to be vigilant in our 
control of that particular species.
    Senator Voinovich. Can I ask you something? When did you 
come back and get it under control? You started out in 1956. 
And when did you get it to the point where you had it under 
control?
    Mr. Stein. I'd say late 1970's, early 1980's. Late 1970's.
    Senator Voinovich. Late 1970's.
    Mr. Stein. And they were really controlled very well.
    Senator Voinovich. So now it's an ongoing issue?
    Mr. Stein. It's ongoing in their--as we say, it's 10 
percent. They're down low in all others. Little bit higher in 
Huron than what we would like right now, but very low in Lake 
Erie, for example, low in Michigan, low in Ontario.
    Senator Voinovich. It's amazing you were able to find out 
how to control them.
    Mr. Stein. Yes. It's because of the life history. It's 
because those animals come back to streams to spawn, the adults 
do, and because the larvae are in those streams from on the 
order of four to 7 years. And because they're there, we've got 
a captive audience, and we can actually take the piscicide and 
drip it into those streams and kill these animals while they're 
there. If they had a life cycle in which their young were out 
in the open lake, we would not be able to control them like we 
do. So in some sense, it's a characteristic of the lifestyle. 
And they are indeed the only invasive species that we know how 
to control.
    At last count, 162 non-native species, such as zebra 
mussels, tiny plankton and round gobies, have become 
established since the late 1800's, many of which have been 
somewhat of a detrimental effect on the environment.
    The main vectors for invasive species include ship ballast 
water, canals, and the trade of live organisms. The Great Lakes 
cannot afford even one more unintentional introduction, as any 
one invader can play ecological havoc in the environment. And 
I'll repeat that. We cannot afford even one more invader. Even 
as we plan for them, as Mr. Speck talked about, we can't afford 
to have another one.
    We've been encouraged by the introduction of the National 
Aquatic Invasive Species Act in both the House and Senate. And 
among many things and as you know, the Act will address the 
ocean-going ship ballast water vector by mandating badly needed 
ballast standards. It will also authorize the invasive species 
barrier system on the Chicago Sanitary and Ship Canal, which we 
heard about already. And this by the way will stop the 
migration of Asian carp from coming from the Mississippi River 
into the basin space. And the Act provides for the development 
and funding of rapid responses in case we need to take swift 
action to stop an invader.
    I commend the authors of this legislation, and Senator 
Voinovich, you're an original cosponsor and we appreciate that 
very much, for addressing today's most significant invasive 
species problems. We can't wait another day for this 
legislation and urge its immediate passage.
    Finally, let me turn to fishery restoration, the subject of 
some conversation earlier in this hearing. Particularly an 
exciting new program on which the Corps of Engineers and the 
Great Lakes Fishery Commission have been working together to 
get off the ground. The Great Lakes Fishery remains stressed 
and we would benefit tremendously from a comprehensive 
restoration effort.
    One major restoration initiative is the Great Lakes Fishery 
and Ecosystem Restoration Program. A program authorized by the 
Water Resources Development Act of 2000. I know that you, 
Senator Voinovich, are principal author of this provision and 
commend you for your vigilance. The program authorizes the 
Corps of Engineer to partner Federal, State and local agencies 
in the commission to restore the fishery and the ecosystem.
    Examples of projects include removing unnecessary barriers, 
improving fish passage in streams, controlling invasive species 
and restoring wetland habitat. I'm pleased to report to you 
that the first step in implementing this program is nearly 
complete. And we are just about ready to solicit and fund on-
the-ground restoration projects.
    Folks in the Great Lakes region are quite enthused about 
this program and what it means for the future of the fishery 
and its sources. The Commission urges Congress to appropriate 
funds so that the Corps and the management agencies can partner 
on restoration efforts.
    In summary, the sea lamprey control remains successful and 
is critical to the fishery. The continuous influx of invasive 
species is extremely troubling and must stop. I urge Congress 
to pass immediately and fund the National Aquatic Invasive 
Species Act.
    And finally, I commend you, Senator Voinovich, for 
authorizing the Great Lakes Fishery and Ecosystem Restoration 
Program and reiterate just how excited we are about helping to 
implement this particular initiative. Thank you, Senator, for 
holding this hearing on the shores of the Great Lakes and for 
your interest in protecting the fishery.
    Senator Voinovich. Thanks very much.
    Mr. Speck?

  STATEMENT OF SAM SPECK, CHAIRMAN OF THE BOARD, GREAT LAKES 
   COMMISSION, EISENHOWER CORPORATE PARK, ANN ARBOR, MICHIGAN

    Mr. Speck. Thank you, Senator Voinovich. First I would like 
to say ditto to the testimony of Dr. Stein in that the Great 
Lakes Commission and the Council of Great Lakes Governors for 
the hope and concern about supporting the passage of and 
reauthorization of the National Invasive Species Act. Mr. 
Chairman, we thank you for the opportunity to testify before 
the Senate Committee on environment and Public Works. This 
morning, I would like to share with you what the Great Lakes 
Governors and Premiers are doing collectively to develop a 
management regimen to protect the waters of the Great Lakes and 
keep management of those waters in the Great Lakes Basin.
    As you are aware, Ohio's Governor Bob Taft is the current 
Chair of the Council of Great Lakes Governors. I am here this 
morning in my role as Chair of the Councils's Water Management 
Working Group and as Director of the ohio Department of Natural 
Resources. I also served as the Chair of the Great Lakes 
Commission. But this morning I'm going to be focusing on the 
work of the Water Management Working Group in developing the 
management for the Great Lakes.
    I believe you already heard from our EPA, who is the Chair 
of the Great Lakes Priorities Working Group for the Council of 
Great Lakes Governors, in mid July when he testified, and also 
the President of the Great Lakes Commission also provided 
testimony in Washington in a community hearing, and we can 
provide that for this committee as well.
    The Council's Water Management Working Group is at a 
critical stage in the efforts of the eight Great Lakes States 
and the two Canadian provinces to strengthen our collective 
needs for protecting the waters of the Great Lakes Basins. The 
Working Group is developing a new resource-based decisionmaking 
standard for diversions and consumptive uses of water in the 
Basin, and in regard to diversions in accordance with the 
provisions of the Great Lakes Charter Annex.
    The region's Governors are pleased with the leadership that 
Congress has shown in recognizing the critical importance of 
the Great Lakes and the pressing need to restore and safeguard 
them for generations to come. We particularly commend you, 
Senators DeWine and Levin for the introduction of Senate Bill 
1398. The Council of Great Lakes Governors believes that the 
bills now pending in the House and Senate offer a really 
wonderful financial resources to implement a restoration plan 
for the Great Lakes.
    Nearly two decades ago our States jointly formed the 
Council of Great Lakes Governors, in part to fulfill our lead 
responsibilities as stewards of the Great Lakes Water Basin 
resources, and in recognition of the tremendous ecological, 
economic and social benefits they provide. The Great Lakes 
Governors and Premiers have continued to provide leadership on 
Great Lakes issues, including creation of the Great Lakes 
Charter in 1985 to provide a framework for managing the Basin 
waters.
    The use of the Water Resources Development Act of 1986 as a 
tool to protect the Basin water resources. Formation of the 
Council's Great Lakes Priorities Task Force chaired by Ohio 
Environmental Protection Agency Director, Chris Jones.
    In addition to these actions, at their annual meeting here 
in Cleveland in October 1999 of the Governors and Premiers 
committed to developing a new agreement which would bind, and I 
emphasize bind, the Great Lakes States and Provinces more 
closely to collectively plan, manage and make decisions 
regarding the waters of the Great Lakes Basin. They laid out 
the principles and they--to be carried forth and created a 
working group to work to develop an annex for the Great Lakes 
Charter at that time.
    That group labored and developed a product, and on June 
18th, 2001, the Governors and Premiers adopted the annex for 
the Great Lakes Charter. In the annex, they committed 
themselves to move forward on a new resource-based 
decisionmaking standard and basinwide binding agreements, such 
as an interstate compact and a State-Provincial agreement. The 
Governors and Premiers extended the Council's Water Management 
Working Group to develop the agreements called for in the 
annex, and that's now the focus of my testimony.
    A decisionmaking framework is being developed by the 
Governors and Premiers which includes a two-tier review 
structure. Under the framework being discussed, new or 
increased diversions for consumptive uses exceeding the 
original review threshold level of at this point it looks like 
about 3 million gallons per day would be reviewed by all ten 
jurisdictions. Proposals that do not exceed the regional review 
threshold levels would be reviewed using a common resource-
based standard by the individual State or Province in which the 
diversion or consumptive use is proposed.
    Draft decisionmaking criteria being discussed are 
consistent with the annex principles of minimizing Basin water 
loss, no significant adverse impact, and improvement to the 
waters of the Great Lakes Basin. The Governors and Premiers 
agree to create the necessary agreements within 3 years of the 
effective date of the annex. In other words, to create those 
agreements by June of 2004. It's to be a compact, and it would 
obviously have to go into the State legislatures and ultimately 
to Congress.
    The Water Management Working Group----
    Senator Voinovich. Excuse me, Mr. Speck. You're saying that 
when you get done, that it would then have to be passed by the 
respective legislature and the Provinces in Canada; is that it?
    Mr. Speck. Assuming that it has the form of an interstate 
compact that the others would take out for hearings in the 
States and the Prime Ministers of the respective Provinces 
would presume to do the same, then that would have to 
ultimately go through the legislatures and through Congress. 
And that's, you know, that's to get a truly binding agreement 
that is binding the States.
    There are other alternatives, such as uniform legislation. 
But that doesn't have the binding character to it, and it's 
more of a moral commitment because each State would change that 
at a later date. And there are other options, too. But this is 
where the focus had been pretty much up to date.
    We do expect to release documents for public review later 
this year or early next year. Regardless of the timetable, a 
flexible agreement must be drafted that will allow for the 
incorporation of new scientific information into the 
decisionmaking process. For example, we do not currently know 
where the Basin groundwater divides are relative to the surface 
water divides in a number of areas of the Great Lakes Basin.
    And so on a temporary basis, I believe we're probably going 
to simply assume that they're coterminous until science gives 
us better answers to that.
    The annex will be attempting to do something that has never 
been done before. And we're trying to protect 20 percent of the 
world's fresh surface water, not on the basis of economic 
protection, on the basis of protection of the resource. In 
reality, there are so many competing and conflicting interests, 
that the only way it will be accomplished is through 
partnerships. It will not be enough to simply have State-
Provincial partnerships, but Federal Governments, local 
communities, NGO's, and the private sector will all have to be 
included. The water management regimen we developed will show 
how an effective partnership would protect one of the world's 
great natural resources and may be used by others as a 
successful model for elsewhere.
    I'm glad to answer any questions, Senator.
    Senator Voinovich. Mr. Reutter?

  STATEMENT OF JEFF REUTTER, DIRECTOR, OHIO SEA GRANT COLLEGE 
   PROGRAM, F.T. STONE LABORATORY, CENTER FOR LAKE ERIE AREA 
 RESEARCH, GREAT LAKES AQUATIC ECOSYSTEM RESEARCH CONSORTIUM, 
           THE OHIO STATE UNIVERSITY, COLUMBUS, OHIO

    Mr. Reutter. Thank you very much, Senator, for the 
invitation to participate. I've really enjoyed all that I've 
heard in this meeting so far from all four previous speakers 
and also all of your comments to begin this. I'm a strong 
supporter of your stance on those issues.
    I want to begin with a poster that we prepared, and I want 
to thank Marc Gaden from the Great Lakes Fishery Commission. 
He's going to hold this for us over here at the side. Senator, 
this poster is for you and for your staff. We've tried to 
depict the problem in Lake Erie, and this should help you in 
explaining this situation to non-scientists and the general 
public. I also want to thank Brian Mormino, who has been great 
to work with and very helpful.
    When we look at Lake Erie, you can see that it's the 
southernmost of the Great Lakes and the shallowest. If it's the 
southernmost and shallowest, it has to be the warmest. It also 
receives the most nutrients. We get more sediment coming into 
Lake Erie than the other four Great Lakes combined.
    The other Great Lakes are all in excess of 750 feet deep. 
The deepest point in Lake Erie is east of Long Point there in 
the Eastern Basin--210 feet deep. So this is a very different 
system: southernmost, shallowest, warmest, and most nutrient-
enriched. In fact, we get more sediment and more nutrients 
coming from the Maumee River in Toledo than all the tributaries 
put into Lake Superior, and Lake Superior is 20 times larger in 
volume than Lake Erie.
    So this is an important resource. Because it is the 
southernmost, shallowest, warmest, nutrient-enriched, you 
should be thinking that biologically Lake Erie should be 
producing more fish than the other Great Lakes. And, in fact, 
we do. In a typical year, we will produce more fish for human 
consumption from Lake Erie than from the other four Great Lakes 
combined.
    However, it is possible to have too much of a good thing, 
and that's really what has happened with the Central Basin of 
Lake Erie. We've put in too much phosphorus. Phosphorus is the 
limiting nutrient. It's an essential nutrient for algae growth. 
But if you put in too much, you can get too much algae. And the 
problem area becomes the Central Basin.
    We divide the lake into three basins--the Western Basin has 
an average depth of only 24 feet. The Central Basin has an 
average depth of about 60 feet. The thermocline forms at about 
50 feet, which means that the cold bottom layer beneath the 
thermocline is very thin in the Central Basin of Lake Erie. 
That's the area that becomes anoxic. On the chart, it is this 
dark layer here right underneath the thermocline this very thin 
line.
    If the lake were deeper, as it is in the Eastern Basin, we 
wouldn't have this problem. If we put in less phosphorus, we 
wouldn't have this problem. We're not going to make the lake 
deeper, but we can put in less phosphorus.
    The rest of this chart goes on to describe the problem. 
It's not entirely new. If I go back to the period in 1930, in 
fact, my pointer here, we've seen areas of anoxia in the 
Sandusky Sub-Basin as early as 1930. These charts show that 
this anoxic area or hypoxic area--hypoxic meaning dissolved 
oxygen levels below two parts per million--is not always level 
or flat. The thermocline is not always 50 feet from the 
surface. It tends to flow back and forth. If we have a strong 
north wind, it blows the warm surface layer to the Cleveland 
area and the cold bottom layer squirts out toward Canada. And 
the reverse is also true when we have as strong south wind. So 
we can have what is called ``upwelling'' as the thermocline 
rises to the surface, and this allows that cold bottom layer to 
flow over top of our water intakes here in Cleveland. This 
creates taste and odor problems when it happens, along with 
some bacteria problems.
    Marc, thank you very much.
    The Great Lakes National Program office recently 
completed----
    Senator Voinovich. Do you have any smaller ones than that?
    Mr. Reutter. We can break that down for you to a power-
point presentation. But at the same time, we felt that was 
something you could stand in front of and explain.
    Senator Voinovich. Thank you. I bet Mrs. Voinovich wants 
that on the wall of our basement.
    Mr. Reutter. Well, I like her taste. EPA's Great Lakes 
National Program office recently completed a science cruise in 
Lake Erie with the Lake Guardian from the 14th to the 19th of 
August. So what I'm going to tell you right now are the 
preliminary results the most current information we have on 
Lake Erie.
    The results from that cruise indicate that hypoxia was 
evident at half the stations and only 20 percent of the 
stations showed dissolved oxygen levels above four parts per 
million, the minimum level for most fish species. In June of 
this year, Ohio Sea Grant and Stone Laboratory placed a 
monitoring instrument one foot above the bottom at a station 
approximately seven miles north of Huron, Ohio in an area 
called the Sandusky Sub Basin. This instrument, a YSI 6600, 
makes hourly readings of dissolved oxygen and five other 
parameters. This site was chosen because it's among the most 
productive sites in the entire lake and it was the first area 
to exhibit anoxia as early as 1930.
    This year hypoxia was first observed at this site on the 
4th of August and a low value of .2 parts per million was 
observed on the 8th of August. Oxygen is not likely to return 
to any of these stations until the lake turns over during a 
storm this fall.
    It's also important to note that Microcystis sp., a harmful 
form of blue-green algae that produces the toxin microcystin, 
has been increasing in density in the western Basin for the 
past 2 weeks and is nearing bloom levels.
    I believe the oxygen problem is real and that it's growing. 
There are clearly a number of exacerbating conditions that are 
causing this. It now appears clear that Lake Erie has been 
gradually warming for the past 100 years. Phosphorus 
concentrations have been increasing since 1995.
    Together these conditions reduce the amount of oxygen 
available in the hypolimnion of the Central Basin and 
accelerate the use of the oxygen that is available. It also 
appears likely that the zebra mussel and a close relative, the 
quagga mussel that is now replacing zebra mussels, are 
exacerbating the problem by releasing phosphorus and allowing 
it to cycle more frequently through the system.
    It's also important to note that a large reason that we're 
having this harmful algal bloom of Microcystis is because of 
the feeding habits of the blue-green algae. They tend to remove 
everything that competes with microcystis and spit out the 
Microcystis when they suck it in, so pretty soon you're left 
with only Microcystis.
    What can we due to solve this problem? Well, probably the 
best thing is to reduce the amount of phosphorus entering the 
lake. This will be very difficult, but it's possible. And 
before we he can get into that--and, Senator, you know very 
well how expensive that can be--we need better loading 
estimates of what's coming into the lake right now.
    We can eliminate the zebra mussel and the quagga mussel. 
That would be difficult and probably not possible. We can 
eliminate global warming? That's difficult, and right now most 
people don't even realize it is a very serious problem. We can 
increase the water level of Lake Erie? Currently Mother Nature 
holds all the cards. Furthermore, our models show that with the 
global warming, if anything is going to occur, we're going to 
see a reduction in water levels. We badly need an influx of 
Federal funding on the scale of that used for the Florida 
Everglades to address the recovery of the Great Lakes 
ecosystem, including dissolved oxygen problems, contaminated 
sediment and harmful algal blooms.
    We should all support the efforts of Senator Voinovich to 
sponsor the Great Lakes Environmental Restoration Act and an 
amendment to include the Great Lakes in the Harmful Algal Bloom 
and Hypoxia Act. Senator Voinovich has led efforts in the past 
to improve sewage treatment capabilities. We must get behind 
him again to eliminate combined sewers and problems like those 
that arose here in Cleveland at the sewage treatment plants 
during the August 14th blackout.
    We badly need a coordinated plan that includes and 
coordinates the activities of all agencies. Some of us will be 
leaders and some of us must accept roles at team players. 
Currently, there are too many cooks in the kitchen when it 
comes to managing the Great Lakes ecosystem. We need better 
coordination. We should all support the recent funding from 
NOAA Sea Grant to the Great Lakes Commission and the Northeast-
Midwest Institute to develop the Great Lakes Restoration Plan.
    And finally, on a somewhat different issue, I've also 
recently been appointed to the Steering Committee for the 
Global Ocean Observing System and strongly encourage everyone 
to support the development of an Integrated Ocean Observing 
System that includes the Great Lakes. We need a string of 
monitoring buoys around all of the Great Lakes so that we're 
not caught off guard. Thank you.
    Senator Voinovich. Thank you. The last thing you said, you 
called it----
    Mr. Reutter. GOOS, Global Ocean Observing System.
    Senator Voinovich. The one before that?
    Mr. Reutter. The Steering Committee before that one and 
before that was talking about--oh, NOAA Sea Grant is funding 
the Great Lakes Commission and the Northeast-Midwest Institute 
to develop a Great Lakes Restoration Plan.
    The Northeast-Midwest Institute is trying to--their portion 
of the proposal is to look at what was done at Chesapeake Bay, 
the Everglades, several other sites around the country, and see 
how we can duplicate those efforts in the Great Lakes. And the 
Great Lakes Commission is trying to be the group that brings 
everyone to the table. Right now, I'm supporting any group that 
is trying to do that. Because that's really what is needed.
    Senator Voinovich. The fact is that no matter what--how 
much have they given to the Northeast-Midwest.
    Mr. Reutter. The Great Lakes Commission.
    Senator Voinovich. The Great Lakes Commission, to get 
started with what we're talking about right here.
    Mr. Reutter. Right.
    Senator Voinovich. So it's really important that they're 
brought into the room. We're just talking to----
    Mr. Reutter. Right.
    Senator Voinovich. To Tom and to the Army Corps. And so 
that should be--we should move----
    Mr. Reutter. The EPA's, the Great Lakes Environmental 
Research Laboratory, the Sea Grant Program. There are just a 
number of groups that are really doing lots of research in this 
system.
    Senator Voinovich. Does the Sea Grant Program go throughout 
all the Great Lakes?
    Mr. Reutter. Yes. There's a separate Sea Grant Program in 
all the Great Lakes States.
    Senator Voinovich. Thank you.
    We're very happy to have you with us again. You're getting 
to be a regular here.

  STATEMENT OF ELAINE MARSH, LAKE ERIE DIRECTOR, GREAT LAKES 
                    UNITED, PENINSULA, OHIO

    Ms. Marsh. Well, I'm very happy be here, Senator. I would 
like to preface my remarks by saying how very important this 
work is. How very important it is to support the Great Lakes by 
policy measures, by dollars and by interest of the public and 
by all of our government agencies. Because that's what it will 
take to get this important job done.
    I'm Elaine Marsh, project director of Ohio Greenways. And 
for the past 6 years I have served as a volunteer for the Lake 
Erie director on the board of trustees for Great Lakes United. 
And as you mentioned, Great Lakes United is a bi-national 
organization. It has about 170 members--member organizations 
and they represent hundreds of thousands of citizens from the 
eight Great Lakes States, two Canadian Provinces and Tribal 
territories within the Great Lakes region. We work at the 
local, regional and international level on projects, programs 
and policies to protect and restore the Great Lakes-St. 
Lawrence River ecosystem.
    And to that end, we have recently developed a citizens 
action agenda for restoring the Great Lakes-St. Lawrence 
ecosystem. And that's specifically what I want to talk about 
and mainly the process that we went through to arrive at that 
agenda. Two years ago, there was a discussion during the annual 
spring get-together organized separately by the Northeast-
Midwest Institute and the Great Lakes Commission. And members 
of the Great Lakes staff and their volunteer directors we're 
talking with people, and it was evident that there was a 
growing frustration and a belief that things had become 
piecemeal and separated. And this was good news to us. We had 
felt that for some time as well. And so we got together 
thinking that there might be an opportunity for a real 
restoration plan and a real move and the possibility of some 
funding. We said well, if this is going to happen, we want to 
be ready. We have worked on these issues for a long time.
    That spring at our annual meeting we broke into working 
groups based on seven general areas. And those seven areas are 
toxic cleanup, clean production, green energy, sustaining and 
restoring water quantity and flows, protecting and restoring 
species, protecting and restoring habitat and water and air 
quality standards.
    Once we set up these working groups, we involved Great 
Lakes United members and non-members alike. We did not want to 
have an elitist document that represented a Great Lakes insider 
view of what some of the problems and solutions might be. So we 
encouraged people who worked on these issues to get involved in 
this process and they did.
    Over a period of 2 years, we had over 50 organizations 
review and work on this document. As a consequence, it is a 
very collective and comprehensive look at what the 
environmental and civic organizations working on Great Lakes 
issues have as a view of what the priorities are.
    The other thing that we did is look at both policy and 
program and project issues. Each working group drafted and had 
authors, and there were over 30 authors of the seven working 
groups. And the authors drafted the first draft, sent it out to 
all the people they thought might be interested. There were 
suggestions from interested parties. We rewrote from the 
suggestions and put the whole plan together. Then we sent the 
whole plan out again. There were rewrites from that as well.
    The result is a 70-page document that you have a copy of. 
It covers all of the seven topic areas. It's very specific; 
there are timetables, as I believe Mr. Skinner mentioned. EPA 
has a goal of cleaning up ten areas of concern by 2010. And our 
goal is to clean up all areas of concern by 2015. We'll be 
delighted to see ten areas cleaned up, as there are only two 
right now that are listed.
    So we tried to be very specific, we tried to break things 
down. We released the plan this year at our annual meeting. 
This book, which is the Great Lakes Green Book, is the 
executive summary. We further broke that down. We have a one-
page summary of 12 key recommendations that we feel are very 
important. So I can speak to those issues, if you would like. I 
thought I would talk more about the process that we went 
through and----
    Senator Voinovich. That's really--because that might give 
us--you've heard the previous testimony from him. So I might be 
interested if you want to continue on that vein.
    Ms. Marsh. OK. Great. I also wanted to talk about another 
initiative I was involved in, because I do believe that it is 
possible to create a consensus view from the general public or 
the interested public on these issues. It is difficult and time 
consuming, but it is possible to do if partnerships are set up.
    I want to talk just for a minute about another process I 
was involved in. As project director of Ohio Greenways, I 
worked with the Ohio Conservation and Environmental Forum to 
inform the legislative process and support the Clean Ohio Fund, 
which was a $400 million initiative, initiated by Governor 
Taft, coordinated by the Ohio League of Conservation Voters, of 
the more than 30 organizations put their resources and 
expertise together and over a 12-month period drafted the 
blueprints for the Clean Ohio Fund, which is this book here. It 
took us a total of about 12 months of work.
    The document was released to the public and distributed to 
the legislature. It was the central focus of our educational 
efforts with the public. It served as a point and counterpoint 
to the treatises produced by members of the administration and 
other interested parties. And it had a very positive effect 
both on the process and the outcome of the legislation.
    So I would like to conclude by examining the remarkable 
capacity of the Great Lakes public as demonstrated by the 
citizens action agenda. And in addition to that, everyone in 
this room who has worked on these issues knows that when we do 
have processes that involve the Great Lakes, the public comes 
out. Particularly in the early and middle 1990's, we had 
literally thousands of citizens that came to the bi-annual 
meetings of the IJC. And I think the main reason that the 
public participation has recently fallen off at these meetings 
is that the government progress has slowed down as well.
    So what is needed is the invigoration that a restoration 
plan and funding will provide. And I believe with the 
invigoration from the point of view of government, we will see 
reinvigorated the interest of the public.
    This particular agenda, the Green Book, is comprehensive in 
scope and specific in recommendation. It demonstrates that the 
public and non-profit organizations can focus on the issues. 
But the main power of the document is its broad support that is 
derived from the inclusive process that we used in its 
production. Likewise, we think extensive public involvement in 
any comprehensive restoration effort will greatly strengthen 
that effort.
    The production of the Green Book clearly demonstrated that 
the Great Lakes public has the capacity to play a constructive 
role in any comprehensive restoration plan. We encourage you to 
engage the public early and often and we offer our assistance 
in that effort. And while we're not really prepared to say 
right now what we think the priorities ought to be in that 
plan, we could use the Green Book as a basis and come to 
consensus in prioritizing Great Lakes Restoration Projects as 
they might relate to the legislated funding.
    So we are really excited and ready to assist in this 
process of bringing people together to prioritize those issues 
which we see and those policies and programs which we believe 
ought to move forward. Thank you very much.
    Senator Voinovich. Thank you. The thing that is interesting 
to me, Ms. Marsh, is that you say 50 organizations came 
together and developed your recommendations and your plan. If 
the Great Lakes United were invited to be part of this effort 
we're talking about, do you believe that these 50 organizations 
would feel comfortable?
    Ms. Marsh. I believe they would. And I think we have tried 
to be very sensitive to----
    Senator Voinovich. How long did it take--how much dialog 
did you have? You said a lot of it before you came out with the 
Green Book and recommendations. How long did that process take?
    Ms. Marsh. It was a total of 2 years from the time----
    Senator Voinovich. Two years.
    Ms. Marsh.--from the time we started talking about it. But 
now that we have identified those things on which there is a 
consensus, the process will be efficient. I should note that 
not every environmental organization agrees with every 
statement in this book, but it's pretty close to consensus.
    I think we have done that work up front. Nobody has called 
and said, ``We're going to pull out of this movement because of 
recommendation H on page 15.''
    Senator Voinovich. Sure.
    Ms. Marsh. So I think there is agreement that we're moving 
in the right direction and that people would support our 
efforts. Senator Voinovich. I know I went through the list with 
you, asked the--you're going to be asked a question about the 
issue of how do we define restoration. And I think you have 
defined restoration.
    Do you have a written definition of what restoration is 
somewhere in your Green Book?
    Ms. Marsh. We have many vision statements in here. I would 
have to look, Senator, and see if I could find that.
    Senator Voinovich. Yes. What I'm getting at is what is the 
definition of restoration. And then the other issue is who 
should be at the table. And after the hearing last time in 
Washington, to talk about that. But I would be very, very 
interested in getting the perspective of Great Lakes United 
about who you think should be at the table as we start to 
develop this overall strategic plan.
    Ms. Marsh. Well, we would be happy to look at that and with 
our partners to make that recommendation.
    Senator Voinovich. Great. Because it would be wonderful if 
we could get kind of a consensus that you would be the 
spokesman for all the groups. Because one of the problems I 
found in these instances is it's very difficult to get through 
it and then one or two groups say it doesn't reflect us. And 
that would be a real important issue, is to gather them 
together and get some kind of consensus and say hey, this is 
good. OK, you guys do it, and we'll keep you informed about 
what's going on.
    Ms. Marsh. And I don't know that it's possible to avoid 
having conflict or having people who may be opposed to it. But 
if the process is sensitive and it's inclusive and everyone has 
a voice and there is an attempt to work toward holding firm on 
those policies which we believe we have to hold firm on and 
compromise when compromise can be applied, then I think we will 
be able to continue along the course we're going.
    Senator Voinovich. And I again compliment you and your 
organization on the good work that you've done. I think it's a 
good--it's really good.
    Ms. Marsh. Well, Great Lakes United has a magnificent staff 
and tremendous number of volunteers who put unpaid hours into 
it. Senator Voinovich. Are you a membership dues organization?
    Ms. Marsh. Yes, we are.
    Senator Voinovich. Dr. Stein, you mentioned the Great Lakes 
Fishery. When do you expect to actually be ready to fund some 
of those projects?
    Mr. Stein. Well, the support plan that has been written is 
nearly done. It's out for review right now.
    Senator Voinovich. Did you send a copy of that to us?
    Mr. Stein. I think we did.
    Senator Voinovich. Brian, did you see it?
    Mr. Mormino. I will check.
    Mr. Stein. Given that's not in place, then the opportunity 
for funds to come to bear and begin Restoration Projects--I 
mean, we could conceivably, if something would happen in this 
year's budget. We're a little behind the eight ball in terms of 
2004 budget. But 2005 for sure. I don't know if there's any 
funding to do it in 2004. But if there is, we'll certainly take 
advantage of it. Because we're just in a spot where we can make 
that happen.
    Senator Voinovich. Maybe you just ought to try to move it 
along and see where we're at. See if there may be some way. 
Some of the questions I ask my people in Washington is what 
amendments can we submit for the various appropriations bills. 
It never hurts to ask. Surprising to me how often we get things 
done.
    That's one of the things I've learned in the Senate. In the 
first couple years I didn't do very much of that. So I said 
everybody else is doing it, and so I started doing and it 
really helps.
    Mr. Stein. All they can say is no.
    Senator Voinovich. Just going to the Congress committee and 
getting an amendment to include the Great Lakes and it's done. 
That's the way it is. So often we think about a bill. But 
amendments are really a way to get things. This may be the kind 
of provincial, but the--we still have the problem on the 
walleye and the perch problem in terms of who gets what.
    Mr. Stein. Allocation issues.
    Senator Voinovich. Yes.
    Mr. Stein. Allocations for this issue have not been 
decided. There's a meeting of the Lake Erie Committee which 
takes all the five States and the provinces into account. They 
will be meeting again at the end of this month to talk about 
allocation issues.
    This has been a tough one in terms of where we are relative 
to the walleye fisheries. We had in the mid-1980's probably 15 
million fish. Out there now, probably 20 million walleye. The 
question is, is that what can the lake support and can we come 
to the consensus with the people around the table to make the 
appropriate allocations between the U.S. and Canada. And I 
think the process is in place. It's just a question of--and the 
people that come to that table--I must say I participated in 
the last few meetings, and I will participate in the one at the 
end of this year. Mostly as an observer. Because we in the 
Commission will serve as arbiter or at least oversee the 
process of arbitration if it comes to that. We are not there 
yet.
    And the people that are around that table have the 
resource, the good of the resource in mind, and the question is 
that can we come to agreement. So it's a bit sticky right now. 
But I think--I've watched that process and have been a 
participant in that process for the last 15 years. I have 
extremely high hopes.
    Senator Voinovich. Good. I know there is more commercial 
fisheries as opposed to sport----
    Mr. Stein. There is a bit of that, too. Commercial 
fisheries and sport fisheries.
    Senator Voinovich. It's simply reared its ugly head again. 
And this has been around now for two or 3 years. We've talked 
about this with our Canadian counterparts and everybody says 
it's a problem and we should do something about it. But nothing 
is happening. I've been out there and it's unbelievable. It's 
almost like an armada. They just move, they come in there and 
just suck up all the bait fish and just move along. And I think 
most of us believe that it's hurting our fishery. And is 
anything going to be done about that?
    Mr. Stein. Well, I don't know. The U.S. Fish and Wildlife 
has jurisdiction. And so those are the folks that are going to 
be making decisions about those things. Michigan has proposed 
that we in the Great Lakes Fishery Commission take charge and 
control of the species' habitat.
    That legislation was introduced last year in the previous 
Congress. It has not been reintroduced. I'm not sure that 
that's what we should be doing. But there are those kinds of 
proposals that are out there.
    Senator Voinovich. OK. It's got to get done. So maybe, 
Brian, we ought to talk to our colleagues and see if we can get 
something worked out then and get it done. You've done a good 
job on the issue of the lamprey.
    Mr. Stein. And the question is whether cormorants are 
really harming the fish population. There's been some work done 
in New York that suggests that they have an impact on smaller 
bass populations with some very carefully done interject models 
and some very good work. The work done around the west Basin, 
which does not have similar consequences, and the questions is 
what impact are they really having. I think they're having a 
very negative impact, but the question is will they have the 
same kind of negative impacts on the fish population.
    Senator Voinovich. Well, I can tell there's been a negative 
impact on the--because you're determining with the bird 
population. Because they're destroying the habitat for the 
herons and for other birds and that's important. I means, it's 
like it's out of balance. So this may be a two footer, to the 
deal with the problem not only would help the fishery but--we 
got to get on this right away. I don't think we can--I think 
that our people stand to know more about it than I do. But I 
think the folks that we have out at the Wildlife Refuge are 
really concerned about this.
    Mr. Speck. The EPA and Fish and Wildlife appreciates the 
problems, and we'll be coming forth with options that give the 
State new authority to take action in reducing population. And 
you're absolutely right, Senator, it's critical.
    Senator Voinovich. Yes. I, the last one we should move on, 
the other one is the National Aquatic Invasive Species Act. The 
thing is they're just not being enforced by the Army Corps of 
Engineers. There's no muscle in this thing right now. Anybody 
want to comment on that?
    Mr. Speck. Go ahead. No. I speak from a different 
perspective, Senator. And certainly you've got two problems. 
One is the possibility of additional invasive species coming 
in, and the other is dealing with the invasive species that we 
already have here. But it hasn't necessarily impacted all areas 
of the Great Lake to the degree that they will. And the first 
is to get our arms around control over ballast water. And we 
still don't have that. And that's a part of what the Coast 
Guard now is trying to do and it's in part by its own order 
that we authorize these.
    You've got to deal with ballast water management 
effectively if you're going to be able to deal with invasive 
species.
    Senator Voinovich. The problem we have is that the Coast 
Guard claims they don't have the wherewithal to do it. I think 
that's where we are falling down right now. And it hasn't 
arisen to a big enough priority. And you almost have to, you 
know--it's economic interest. They don't want to be bothered 
with this. It's expensive.
    But I think what we need to do, and that's the only reason 
I'm having this hearing, is that this is a real economic 
problem for the United States. You know, I mean, it's an 
ecological problem. It's also having a dramatic impact on the 
economy of the Great Lakes region.
    If we destroy our fishery, I mean, it will have 
unbelievable rippling effects across the board. I look 
sometimes and you've watched the development that's going on. 
And if it wasn't for the fact that the Great Lakes have come 
back and it's the fishery that it is and so forth, all that 
stuff would be gone. Just that fast. So everybody agrees that 
we need to move on this thing to get it to a higher priority. 
Right?
    Mr. Speck. Absolutely.
    Mr. Stein. And just to reinforce what Sam was saying. I 
mean, the standard now in that legislation is eliminate the 
risk of introduction, and there's money in there and--there 
would be money in there to make all that sort of stuff happen.
    Senator Voinovich. I hear 162 and we can't afford----
    Mr. Stein. One more.
    Senator Voinovich. One more. Now, we can put that money 
into the budget for that screen to keep the carp out.
    Mr. Stein. That's right. That's in there, too. If those 
carp get in there----
    Senator Voinovich. Say that slowly. It's immediately. I 
want them to understand.
    Mr. Stein. Yes. Asian carp have reached proportions of 
density in the Mississippi River of 80 to 90 percent of the 
biomass of fishes that are in some of the pools in the 
Mississippi River. 80 to 90 percent of the biomass in the short 
time that they've been in the Mississippi River. They are 
planktivores. They are eating the small critters in the water 
columns that essentially allow our sport fish to reproduce. 
That plankton provides the food for the yellow perch. It 
provides the food a lot of the walleye. And if these Asian carp 
come in there at 80 percent of the biomass competing for this 
plankton, what is going to happen to those species. So keeping 
those species----
    Senator Voinovich. I still don't understand why the 
people--doesn't that destroy the fishing--maybe they don't have 
any kind of a fishery on the Mississippi. They don't seem to be 
bothered. There's no mention of it, right? I mean, have you 
seen anything about it? What is it again? How much is the 
biomass?
    Mr. Stein. 80 to 90 percent of the biomass in some of the 
pools in the Mississippi River.
    Mr. Reutter. At those times, the pools don't support the 
world class walleye population you get in Lake Erie.
    Senator Voinovich. Mr. Speck, I'm pleased that the annex is 
moving forward. I have to tell you there's a little bit of 
anxiety in the Senate. We have some eager beavers. And I'm not 
as eager as some of the beavers, but we're getting more eager. 
And they're wondering when is this going to get done.
    And one of the things I'm concerned about is you were 
saying that the States would have to go ahead and pass this. 
It's our concept that maybe I'm not understanding as well as I 
should. I thought it was that when you folks got done with 
that, that we would introduce legislation and get it passed.
    Mr. Speck. Senator, there are probably several ways that 
deal with it. If you want something that is binding on the 
States----
    Senator Voinovich. But I'm just saying, doesn't that 
require a treaty with Canada?
    Mr. Speck. A treaty would be another way to go. Our 
discussions with the State Department, our discussions with the 
great--the Great Lakes Task Force have not indicated a very big 
interest in following the treaty route. There are challenges in 
that we can make an agreement binding on the States through an 
interstate compact. There is no comparable legal structure in 
Canada in terms of an interprovincial contract. And it would 
require the Provinces to pass legislation. It would be a 
commitment, but theoretically it leads--it could be changed 
later on.
    We believe that we can probably, before a State compact 
would be passed, are take steps under WRDA and take steps in 
terms of the States and Provinces agreeing to act collectively 
and above the threshold. But ultimately a compact is what would 
give you a binding contract over time in terms of an agreement 
or the standard and the process to make certain that it was 
carried out.
    Senator Voinovich. Well, that's something that I think--Mr. 
Speck. Let me say that we've had a number of groups including 
Great Lakes United as advisors. We have some 26 advisory 
groups. And, Senator, let me also comment--and I don't want to 
get into detail, because I don't have that detail with respect 
to the Great Lakes Priorities Task Force that Chris Jones is 
heading. But I think you can expect that within weeks rather 
than months you will be hearing from the Great Lakes Governors 
in terms of a set of priorities and that they will be following 
that up with a set of recommendations for intermediate action 
between when that is performed and when a complete plan is 
completed.
    Senator Voinovich. I think that specifically some of my 
colleagues, whose names I'm not going to mention, are very much 
wanting to get involved with this. They're very frustrated and 
they say the State isn't moving fast enough, if we're going to 
do anything, it has to be done on the Federal level.
    And so I think that what needs to be done is you need to 
move as rapidly as possible, familiarizing them about the 
schedule which it is. Contemplate some role that the Federal 
Government would play. I think if we did by legislation 
authorize the States in terms of this issue of withdrawal----
    Mr. Speck. Under WRDA the Governors are required to act in 
terms of the removal of water outside of the Basin, i.e., a 
diversion. WRDA does not cover in-basin withdrawals. And we 
believe over the long haul, you've got to both address out-of-
basin diversion and in-basin withdrawals.
    Senator Voinovich. We ought to try to get some dialog going 
on that pretty rapidly. And then in compact, how do you--if you 
all agree on it--and the Premiers will be involved as well, 
correct?
    Mr. Speck. Yes, they're very much involved.
    Senator Voinovich. And then the issue is what--how do you 
get this done. I just, it's a subject that I think we need to 
get some lawyers to look at, to figure out where we're going. 
OK.
    Mr. Speck. We have them. And let me make one other 
clarification or explanation that may be helpful. The Sea 
Grant, as you were mentioning, and the Great Lakes Commission 
is indeed going to be here--holding some hearings, I think 
probably in each State with respect to a restoration plan. What 
we anticipate they will be doing will be, is using the 
Governors' priorities as one of the things that we'll be 
talking about and holding hearings on beginning this summer 
with the first hearings being in Michigan.
    And so there is a linkage between the work of that Task 
Force, with the Great Lakes Governors and the Great Lakes 
Commission, which also have been playing a critical role 
through a grant they received from the Great Lakes Protection 
Fund, which you put together. The grant sponsored a quarter of 
a million dollars toward development of a port system for what 
the Governors are proposing to do----
    Senator Voinovich. Are you familiar with that, with what 
he's talking about?
    Ms. Marsh. I'm familiar with some of it. I certainly know 
about the work on the annex, but I'm not really familiar with--
--
    Senator Voinovich. With the plan.
    Ms. Marsh. No. I've heard about the plan. I didn't know 
hearings were forthcoming.
    Senator Voinovich. Well, you know it might be very 
worthwhile for this committee to--I mean, it looks to me like 
we're moving in a lot of directions and maybe you ought to get 
the people who are moving in all directions to get in the room 
before two are off over here and another group is over here and 
saying we're all trying to accomplish the same thing. Is it 
possible that we can coordinate our efforts and not just have a 
lot of redundancy out there.
    Mr. Speck. Senator, the bill which you cosponsored provides 
a pretty good template for doing a lot of that. And it 
specifically asks the Governors to come forward with 
priorities. It links that in and it creates an advisory group 
with each Governor to represent it, it's chaired by one of the 
Governors. So that legislation, if it were to pass, and I'm not 
here to endorse every, you know, every aspect of it, but if it 
were to pass, it sets a way to bring these groups together. I 
think it provides for five of the groups.
    Senator Voinovich. Is the Army Corps of Engineers involved 
in that?
    Mr. Speck. Yes.
    Senator Voinovich. Is Skinner involved in that?
    Mr. Speck. Yes.
    Senator Voinovich. They are?
    Mr. Speck. Yes.
    Senator Voinovich. Let's just see if we can----
    Mr. Speck. I don't want to speak for them, but they're 
involved in it.
    Senator Voinovich. I think we need to talk about that to 
see exactly where everyone is at so we don't end up having 
different--and the other issue, again, is back to, as Dennis 
Schroeder was talking, let's see, last month, the Chairman of 
the United States section of the Commission suggests that we 
revise and update the Great Lakes water quality to form the 
basis for a major bi-national Great Lakes initiative.
    What is your opinion of using this as a vehicle for an 
economy restoration plan?
    Mr. Speck. I'm for one not ready to comment on this. Get 
back to me on that.
    Senator Voinovich. Dennis felt pretty strong about this. 
And the IJC is a joint Canadian-U.S. thing. So if we're doing--
if we have the Great Council of Great Lakes Governors put this 
thing together--are the Premiers of Canada involved in this, 
too, or not?
    Mr. Speck. They would, yes, under the IJC.
    Senator Voinovich. I know that. But in terms of the--what 
we just talked about 2 minutes ago. How do you get the 
international----
    Mr. Speck. We're going to be having a meeting with them, 
Senator, I think it's September 6th. So we'll be meeting with 
them shortly.
    Senator Voinovich. I think it's really important that we 
identify who is there and maybe just kind of see if we can 
either through a conference call or something see if we can 
bring people--so the left hand knows what the right hand is 
doing.
    Mr. Speck. We met with them not long ago in Chicago 
regarding----
    Ms. Marsh. Two years ago at the bi-annual meeting for the 
IJC there was some discussion about opening up negotiations. 
And it was Great Lakes United's position that the International 
Joint Commission should fulfill the agenda it already had on 
the table rather than negotiating more things to do. I don't 
know what our opinion would be related to that at this time. 
Things have changed. But that was our opinion at that time.
    Senator Voinovich. Dr. Reutter, as you know, we were able 
to through the committee get amended and include the Great 
Lakes. Are you familiar with that?
    Mr. Reutter. Yes.
    Senator Voinovich. The issue now is how do we get some 
money. And we'd like to talk to you about that.
    Mr. Reutter. It's very important because the same kinds of 
harmful bloom issues that they have in the Gulf occur, and 
they're tied to aquatic nuisance species. The passage of that 
bill are tied to public health issues. They're tied to the 
health of the fishery. Tied to the health of waterfowl. We know 
that this particular toxin is toxic to waterfowl.
    Senator Voinovich. Is that why we're seeing more dead 
birds?
    Mr. Reutter. That's some of it. But wes also have a 
Botulism problem that is occurring in the eastern end of the 
lake and the eastern end of the Central Basin, and that problem 
appears to be being exacerbated by zebra mussels and round 
gobies. But we have a lot more research to do in that area.
    And then getting back to phosphorus reduction. Blue-green 
algae require high phosphorus levels. If we had lower 
phosphorus levels, and we didn't have the nuisance species, we 
wouldn't have this harmful algae bloom.
    Senator Voinovich. I know at the last meeting we had we 
talked a little bit about research from Case Western Reserve. 
If I remember correctly, they were saying something about we 
don't know whether we can do anything about the phosphorus 
that's being contributed by the zebra and quagga, but he was 
saying something about the fact that we need to punch up or 
improve what we're doing with our own--what we can control. And 
that gets back to this whole sewage thing.
    Mr. Reutter. Well, there are efforts underway to reduce 
agricultural runoff--efforts, such as buffer strips, that hold 
the phosphorus on agricultural land and prevent it from 
entering the lake.
    Senator Voinovich. If you do all of those things, how much 
of an impact do you think that would have?
    Mr. Reutter. Well, it would have a very significant impact.
    Senator Voinovich. Do you think if we were able to improve 
that substantially, take that runoff, we would improve----
    Mr. Reutter. Combined sewers. Yes. An important thing to 
keep in mind, is that if you wanted to put your finger on the 
pulse of the Great Lakes, the best place to do that is the 
Central Basin of Lake Erie. If you wanted to say what is really 
happening in the Great Lakes right now, are we headed in the 
right direction or wrong direction, because of the shape of 
that Basin, the depth, that's the best place to look. It's the 
first place that is going to show problems.
    Senator Voinovich. Now, in terms of the water levels, we've 
had periods where it's been horrible and now they're lower. And 
if you follow the trend, it goes down and then before you know 
it, it comes back again. So the issue is--that's an issue of, 
you know, can you control that and not control that.
    Mr. Reutter. In Lake Erie, we really have very little 
control over the water level. There are over 20 diversions in 
and out of the Great Lakes with canals as well as a variety of 
different things. If you put all of the impacts of all of those 
water diversions together, they tend to raise the level of Lake 
Erie by about four inches. So there's very little impact as a 
result of those.
    The biggest thing that we're seeing, we had warmer 
temperatures, which means we're going to see more evaporation. 
As we move further into global warming, all the models say that 
we're likely to have higher levels of precipitation, but 
they're going to come less frequently. So we'll have severe 
storms, greater precipitation, greater evaporation between 
those periods, and the water levels in the lakes will actually 
go down. So we're very concerned about that.
    Mr. Speck. There's only two places you know where the water 
levels--one is coming out Lake Superior and the other is coming 
out of Lake Erie--I mean, Lake Ontario. And those are very 
mild.
    Senator Voinovich. Because I know we had the lake froze 
over this year and everybody thought that we'd have a lot more 
water. And then what, the other ones didn't freeze? Is that it?
    Mr. Reutter. Well, they did. But the upper lakes are down 
about 40 percent in precipitation--just about at all time lows. 
90 percent of the water that comes into Lake Erie comes in out 
of the Detroit River. It was very good when Lake Erie froze 
over. Because when it's frozen, we get much less evaporation. 
So in that respect, things could have been far worse this 
summer than they are right now.
    Senator Voinovich. And we flow into Lake Ontario?
    Mr. Reutter. Yes.
    Senator Voinovich. One of the really wonderful things that 
happened this year is I finally got to visualize what is going 
on because we had our Canadian interparliament meeting at 
Niagara on the Lake. And we went over to see the power plants 
and to--I mean, I never understood how they control the water 
flow coming out of Lake Erie and that we benefit from it in the 
U.S. And we almost mimic these hydroelectric facilities in that 
they--during the day, the flow is larger so that they can give 
the tourists the benefit of the flow coming over, and then in 
the evening, they divert it into ponds on both sides of the 
U.S. and Canadian side. And then when they reduce the--or limit 
the diversion, then they use these ponds to continue to provide 
the power for the hydroelectric. It's just really interesting 
how that was all put together.
    I suggested, Ms. Marsh, that probably would never happen 
again because the environmental condition--and then god only 
knows where we'll be hit with some of that power.
    Anyhow, I would be very interested in--maybe the last 
question I'd ask all of you is you--we've all heard this 
discussion about how do we get this, all these players together 
to get the comprehensive plan put in place. Maybe you can give 
me your final thoughts on that. How do we get that done?
    Mr. Reutter. I think we have some of the right plans in 
place right now. We need to support those actions. I think--
quite frankly, I think that the pressure from the Federal level 
requesting that we speak with one voice has been very 
effective. We've heard a number of different groups say that 
they are--they have actions underway to plan for more 
collaboration and cooperation. I think we need to support all 
of those actions, because that is what is required.
    We have, you know, we're very fortunate that the EPA's 
Great Lakes National Program does a great job. Great Lakes 
Fishery Commission does a great job. We have strong agencies, 
and trying to coordinate those agencies and enhance cooperation 
between them is a challenge. And I think it appears that the 
groups are ready to grab that challenge.
    Senator Voinovich. I guess the thing that troubles me is 
that you have the Council of Great Lakes Governors, and I 
chaired that group for a couple of years. And you get turnovers 
to the Governors' offices and they're so busy trying to get 
themselves organized and their staff set up and everything 
else, that the priority I think this should be given is not 
given. And that's where I have some concern about the 
government involved in this issue. Because you can have people 
working there and then the new administration comes in, you get 
a turnover of staff, and then you lose your momentum. And it 
seems to me that there ought to be an ongoing way to continue 
to get the Governors input.
    But I'd hate like the devil to have them in the driving 
leadership role because I--I mean, I know. I came in in Ohio 
and I restored the Great Lakes--the Lake Erie Commission, gave 
it high priority because this was something I was really 
interested in. But a lot of my colleagues could 't care less 
about it. The Governor of New York, that's way up there, you 
know. And if you don't have the right staff person, it just--
Sam, you know what I'm talking about.
    So that's what concerns me, is that we got to make sure 
that you've got some continuity here and that the thing keeps 
moving down the road and that it doesn't, you know, stop 
because of change in the administration and so on.
    Mr. Reutter. Keep saying that. Keep the pressure on. We 
need that.
    Mr. Speck. You need a couple of things. And one is you may 
call it pressure or you may call it encouragement. Whatever. 
But, you know, behind that is an indication that Feds might do 
something that the States might not like so well if the States 
don't have their act together. We all understand how that 
operates, Governor.
    And the second, Senator, is the dollars. And I think with 
the legislations you cosponsored, there's an indication that 
Congress is serious. And I'm not only saying come up with a 
plan, but if you do, we'll be there to be good partners with 
you. I think both those elements have to be there. There has to 
be a belief that there will be resources as well as a belief 
that there will be consequences if the States don't show some 
leadership here.
    And the legislation you put together gives the Governors an 
opportunity to move forward, and I see them as really doing 
this now. And as I indicated, you're probably going to see it 
in terms of weeks. And I have the authority to say that, weeks 
instead of months. They're recommended priorities for 
discussion.
    So that, I think that we're on the cusp of really 
accomplishing something. But it's going to be tough. You know, 
we've been working on this annex, and the Governors set 
themselves up every year. We're trying to get Provinces and 
States and national governments to set up a standard for 
removal of water. Most of the States have not had any 
regulation over removal of the water to speak of or regulation 
of how water is used in their respective States.
    So we're asking them to move a tremendous distance from 
where they have been. And, you know, this is that's never been 
tried anywhere else in the world. And if we can come up with an 
agreement, the Governors all endorse it in a 3-year period, it 
would truly be a remarkable exercise.
    Mr. Reutter. The scientific community has not helped with 
it as much as I'm sure you would have liked.
    Mr. Speck. Well, now even the IJC--I will be sorry for 
saying this--had a report that was prepared for them that says, 
you know, there's no way to take the water very soon and 
export, and we don't have all the science we need, so we 
shouldn't hurry this agreement along. I don't know if the IJC 
is going to figure out what to do with that report they 
commissioned. But, at least----
    Senator Voinovich. Well, I can tell you this. And I'm not 
kidding you. There are people in Congress that have a little 
different perspective on things than I do, because I'm a former 
Governor and former mayor. It's like when we were always 
wanting to try to find something to do. We've got to every day 
get up early in the morning and try to figure out something we 
can do. Grab a hold of this and start running with it and say 
got to get it done. Instead of dragging their feet. We need to 
move on this thing and get it done. It's going to happen. 
That's one thing.
    Mr. Speck. The other thing, Senator, I would state, too, is 
that, you know, I have to acknowledge with five new Governors 
coming in, it's been a real effort to bring them and their 
staff up to speed. And we're making progress on that, but it's 
tough.
    Senator Voinovich. Maybe what we ought to do is a get a 
letter from our committee to the Governors talking about how 
Congress is interested in this and how we would like them, the 
new Governors--this is something that we need to--let's do 
that. Let's send a letter out and maybe that will give it a 
little higher profile for maybe some that are trying to grapple 
with it.
    Go ahead.
    Mr. Stein. I could think of one issue, too. I think the 
restoration act is really a nice example, I think, of how to do 
it. Because it's authorized under the Joint Strategic Plan. And 
that Joint Strategic Plan has--all the management agencies are 
signatory to that. So we've brought under one umbrella all of 
those organizations. And I think we're making progress with 
these people.
    So I think in some sense, even though it's a small area 
that we're looking at, the fact is that we have management 
agencies operating under that. The system has already been in 
place----
    Senator Voinovich. Yes. I think one of the other things 
that we really need to do is, just the last thing I ever want 
to get involved in is to have some cockamamie massive plan and 
then have it----
    Mr. Stein. Derailed.
    Senator Voinovich. You go to go see Charlie Brown to see if 
you can go forward with what you're doing. We've got to make 
sure that all this stuff that's out there is ongoing, they're 
moving with it, and we're not, you know, standing in the way of 
that.
    Again, I want to thank you for being here, and I'm hoping 
before the end of the year we can get a couple other things 
done and get folks together. And maybe by this time next year, 
maybe we can be somewhat on the way to moving on this. I know 
it's not going to happen overnight, and I really want to make 
sure that we touch base with everybody.
    Because I'll never forget, Sam and--we were talking about 
the coastal, you know, that we were going to put in about 
requiring people to when they sold their property to notify the 
purchaser when they live along the coastal----
    Mr. Speck. Coastal erosion.
    Senator Voinovich. The coastal erosion thing. Well, what we 
did is--they move very fast, and I'll never forget, they came 
in the office and said we got this. And I said you really 
talked to everybody. Oh, yes, we talked to everybody. The fact 
is they hadn't talked to everybody. And we wrote them, told 
them to go back and, you know, do it over again.
    And even with--this is the Transportation Research 
Allocation Track Program, which is now in Ohio we have where we 
prioritize the highways. And the real issue was developing 
standards that were objective so that somebody couldn't say 
that, you know, something got on the list because it was fixed. 
And I'll never forget this as long as I've been--I'm sure 
Governor Taft has them, these regional Cabinet meetings. So I'm 
over in Lima, Ohio and there's a bunch of county engineers. And 
I said, and we're moving forward with track proposal, and I've 
been assured by Jerry Ray that you all had input, da, da, da, 
da. So will you stand up if any of you feel that you haven't 
been involved. Everyone stood up. So, you know, they took that 
one back and worked on that some more. The point is you've got 
to make sure that you touch base with everybody. Because if you 
don't do your homework and touch bases, then you're going to 
fall right on your face. Because there's somewhere along you're 
going to hit a land mine that's going to blow the whole thing 
up.
    I think the real issue right now is let's really try to get 
the best brains on who the players are that should be at the 
table. And I'd like you to check back with some of your groups 
to see if they feel comfortable. Let's say you guys are 
representing them----
    Ms. Marsh. Well, we certainly will talk to the departments.
    Senator Voinovich. Thank you very much and please return. I 
would also like to thank the Great Lakes Science Center.
    [Whereupon, at 12 o'clock noon, the committee was 
adjourned, to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio

    The hearing will come to order. Good morning and thank you for 
coming. First and foremost, thank you all for taking the time out of 
your busy schedules to participate in today's field hearing of the 
Senate Environment and Public Works Committee to examine the current 
and future efforts to restore and protect the Great Lakes.
    Second, I thank Chairman Jim Inhofe for calling this hearing at my 
request. I look forward to continuing to work with my colleagues in the 
Committee and the House and Senate in advancing legislation to address 
what I believe is one of the most pressing environmental issues facing 
our nation restoration of the Great Lakes. Thank you also to the staff 
of Senator Inhofe and Senator Jeffords that made the trip up here from 
Washington. I appreciate your assistance in putting this hearing 
together.
    While restoration is important to the plants and animals that call 
it home and to the 40 million people in the U.S. and Canada that depend 
on it for drinking water, it is also important to the economy and 
people's jobs. The Great Lakes region maintains the largest bilateral 
trade relationship in the world with the primary economic activities in 
recreation and tourism, shipping, agriculture, and manufacturing.
    In terms of tourism, the eight Great Lakes States have about 3.7 
million registered recreational boats, or about a third of the nation's 
total. Retail expenditures for recreational boating in the Great Lakes 
region is over $2.6 billion annually, slightly less than one-third of 
national expenditures in this category. The Great Lakes commercial and 
sport fishery alone is valued at more than $4 billion annually. It has 
been estimated that tourism in the Lake Erie area accounts for an 
estimated $1.5 billion in retail sales and more than 50,000 jobs. While 
I was Governor, Ohio moved from sixth to seventh in travel and tourism 
and Lake Erie was a major reason for this improvement.
    Businesses also rely on the Great Lakes because, among other 
things, they provide an inexpensive and environmentally friendly means 
of transportation. In 2000, this system provided an estimated $1.2 
billion in transportation cost savings to steel mills, utilities, grain 
terminals, and other key industries located near the 16 major U.S. 
ports in the system. These industries provide more than 37,000 direct 
jobs and are able to compete in the world economy because they can keep 
transportation costs low.
    About one-third of the land in the Great Lakes basin is used for 
agriculture, supporting about 7 percent of U.S. agricultural 
production. One-fifth of U.S. manufacturing activity is based on the 
Great Lakes, and the region, combined with Canada, accounts for about 
60 percent of steel production in North America.
    Over the last century, these activities have been both a detriment 
to this resource and a blessing for the people in the region. 
Regardless of the past, restoration of the Great Lakes benefits both.
    Today's hearing may seem like deja vu to some of you. One year ago, 
I held another field hearing in Cleveland at the Coast Guard station, 
which is about a stone's throw away from here also on the beautiful 
shores of Lake Erie. The purpose of that hearing was to look into the 
re-occurrence of dead zones or low oxygen areas in Lake Erie.
    I am pleased that Dr. Jeff Reutter of the Ohio Sea Grant Program, 
who I have been out to see at Stone Lab on Gibralter Island, was able 
to testify at that hearing and is here today to provide an update on 
this situation and the water quality of Lake Erie. He is one of the 
premier scientists working on Ohio's Great Lake, and I welcome him to 
today's hearing.
    Also on the second panel is Ms. Elaine Marsh from Great Lakes 
United, who testified at last year's field hearing as well. Great Lakes 
United is a U.S. and Canadian coalition dedicated to preserving and 
restoring the Great Lakes. Last month, the organization testified at a 
hearing that I held as Chairman of the Subcommittee on Oversight of 
Government Management in the Governmental Affairs Committee on the 
management of Great Lakes programs.
    I met with Ms. Marsh and several of her colleagues before the 
hearing on a report they released earlier this year on how to clean up 
the Great Lakes. I look forward to hearing from her this morning on the 
coalition's recommendations on how to move forward in restoring the 
Great Lakes.
    I also welcome on our second panel Mr. Sam Speck, who is Director 
of the Ohio Department of Natural Resources and Chair of the Great 
Lakes Commission. Mr. Speck will be providing the Committee with an 
update on his work to implement a binding agreement between Canada and 
the U.S. on a standard for making decisions on proposals to export 
water out of the Great Lakes. Sam and I have been long time friends 
since we were in the legislature together. We worked together to create 
the Ohio EPA and Ohio's model reclamation law.
    Dr. Roy Stein, who is Vice-Chair of the Great Lakes Fishery 
Commission and is also Director of the Aquatic Ecology Laboratory at 
the Ohio State University, will also testify on the second panel about 
invasive species and the State of the fisheries in the Great Lakes.
    Lastly, I welcome the two witnesses we have for our first panel, 
Mr. Tom Skinner and Colonel William Ryan, who both testified at the 
hearing that I chaired last month on Great Lakes programs. Mr. Skinner 
is the U.S. EPA's Great Lakes National Program Office Manager and 
Colonel Ryan is the Deputy Commander of the Great Lakes Ohio River 
Division of the U.S. Army Corps of Engineers. They will both be 
providing information on our current restoration efforts and their 
thoughts on where we need to go from here to restore the Great Lakes.
    While today is in many ways a follow-up to the hearings I held last 
year here in Cleveland and last month in the Governmental Affairs 
Committee, I think of it as just one more step toward my lifetime goal 
of restoring the Great Lakes.
    Thirty-seven years ago, when I saw firsthand the effects of 
pollution on Lake Erie and the surrounding region, I knew we had to do 
more to protect our environment. At the time, Lake Erie was suffering 
from eutrophication and was known worldwide as a dying lake. Lake 
Erie's decline was heavily covered by the media and became an 
international symbol of pollution and environmental degradation. I 
remember the British Broadcasting Company the BBC even sent a film crew 
to make a documentary about it.
    I made a commitment then, as a State legislator, to do everything 
possible to stop the deterioration of the Lake and to wage what I refer 
to as the ``Second Battle of Lake Erie'' to reclaim and restore Ohio's 
Great Lake.
    I have continued this fight throughout my career as State 
Legislator, County Commissioner, Lieutenant Governor, Mayor of 
Cleveland, Governor of Ohio, and now United States Senator. I consider 
my efforts to preserve and protect Lake Erie and all of the Great Lakes 
to be among the most significant of my career and of my life.
    One of my first actions as a State legislator was to introduce a 
resolution calling for a $360 million bond issue for municipal sewage 
treatment plant construction along Lake Erie. I also cosponsored the 
creation of the Ohio Water Development Commission to help industries 
eliminate pollution from our rivers and lakes, formed a legislature 
committee on Lake Erie that was responsible for stopping four States 
from going forward with exploratory drilling in Lake Erie, and chaired 
a subcommittee that wrote amendments to Ohio's air and water laws.
    In addition, I was the vice-chairman of a seven-State Legislature 
Committee on the Environment that culminated in legislation to create 
State agencies of environmental protection in each of those States. 
Since I sponsored the legislation to create the Ohio Environmental 
Protection Agency, I am known as the ``House Father'' of the Ohio EPA.
    Moreover, because of concern that the environment was not getting 
the attention it deserved, I worked to convince the Speaker of the Ohio 
House to create an Environment Committee, of which I was the first 
vice-chairman.
    When I became a County Commissioner for Cuyahoga County in 1977, I 
helped stop the Energy Department from considering using the salt mines 
under Lake Erie as a storage area for nuclear waste.
    As Mayor of Cleveland, I was alarmed about the introduction of 
zebra mussels into the Great Lakes and conducted the first national 
meeting to discuss the problem.
    As Governor, I had another opportunity to continue the fight for 
Lake Erie's future. I made sure Ohio paid its fair share of the Great 
Lakes Protection Fund, a $100 million endowment to fund research on the 
Great Lakes. In addition, we breathed new life into the Ohio Lake Erie 
Commission Office, locating it in Toledo, and creating the Lake Erie 
Protection Fund, which is funded by proceeds from the sale of the Lake 
Erie license plates.
    Due to my concern that baseline information had not been 
established to document where we started or to track the progress we 
had made, in 1998, we released the Lake Erie Water Quality Index to 
quantify the results of our efforts to clean up Lake Erie. Ten 
indicators were developed to provide a baseline on which to measure our 
progress and identify challenges for the future.
    As a U.S. Senator, I am pleased to serve on the Environment and 
Public Works Committee and to work on many issues that impact our 
nation's ecosystem. It is comforting to me that 37 years since I 
started my career in public service, I am still involved, as a member 
of the U.S. Senate, in the battle to save and restore Lake Erie.
    As a freshman Senator in 1999, I was fortunate to be selected as 
the Chairman of the Subcommittee on Transportation and Infrastructure. 
As the Chairman, I was the sponsor of the Water Resources Development 
Act of 2000. Through my involvement in WRDA 2000 and WRDA 1999, I 
supported environmental restoration programs for the Great Lakes under 
the U.S. Army Corps of Engineers.
    One of the initiatives I authored is the Great Lakes Fishery and 
Ecosystem Restoration Program, which authorized the Corps of Engineers 
to plan, design, and implement projects that support the restoration of 
the fishery, ecosystem, and beneficial uses of the Great Lakes. WRDA 
authorizes $100 million specifically for projects to restore the Great 
Lakes fishery and ecosystem.
    Last year, I cosponsored the Great Lakes Legacy Act, which was 
signed into law in 2002, to authorize $50 million per year for 5 years 
for the cleanup of contaminated sediments at Areas of Concern, such as 
the Maumee, Black, Cuyahoga, and Ashtabula Rivers in Ohio. While I was 
pleased that the President provided $15 million in his fiscal year 2004 
budget for this program, I recently wrote the Appropriations Committee 
requesting that the program be fully funded so that we can make real 
progress toward cleaning up these persistent problem areas in the Great 
Lakes.
    Through the years, I have also worked long and hard on addressing 
our nation's critical wastewater infrastructure needs. We have made 
great strides and spent billions of dollars to improve our nation's 
wastewater collection and treatment systems. In fact, since 1965, the 
amount of phosphorus entering Lake Erie has been reduced by about 50 
percent, with most of the reductions achieved through better treatment 
of municipal sewage sources and eliminating phosphates in detergents.
    Unfortunately, billions of dollars more are needed to upgrade aging 
systems and bring communities into compliance with the Clean Water Act. 
That is why I introduced legislation in the 106TH, 107TH, and 108TH 
Congresses to reauthorize the highly successful, but undercapitalized, 
Clean Water State Revolving Loan Fund program at a level of $3 billion 
per year for 5 years.
    Just last week, on Thursday, I was honored by the Association of 
Metropolitan Sewerage Agencies with the National Environmental Public 
Service Award for 2003. Let me quote from the nomination and 
introduction that I received for the award:
    ``Over the last 3 years, Senator Voinovich has been an active 
member of the Senate Environment and Public Works Committee and has 
used this role to bring attention to the nation's wastewater 
infrastructure needs Senator Voinovich believes that preserving the 
quality of our streams, rivers, and lakes from wastewater pollutants 
comes down to a question of our commitment to funding. Senator 
Voinovich should be honored for his ongoing support of and commitment 
to wastewater infrastructure funding Clean water is ever in the 
forefront of his efforts for Ohioans and Americans.''
    During this Congress, I have been working hard with my colleagues 
on several initiatives. Continuing my efforts as a State legislator, I 
sponsored an amendment that was included in the fiscal year 2003 
Omnibus Appropriations Act to extend the current moratorium on oil and 
gas drilling in the Great Lakes for 2 years until the end of fiscal 
year 2005.
    Additionally, I am pleased that the President signed a bill earlier 
this year that I introduced to expand the Ottawa National Wildlife 
Refuge Complex in Ohio and the Detroit River International Wildlife 
Refuge in Michigan along the coast of Lake Erie.
    Responding to the hearing last August on dead zones, I introduced a 
bill to reauthorize the Harmful Algal Bloom and Hypoxia Research and 
Control Act and expand it to include the Great Lakes, not just coastal 
marine waters. I then worked with the members of the Commerce Committee 
to include my provisions to create a Great Lakes research program in a 
bill they recently passed.
    I have also cosponsored the Great Lakes Water Quality Indicators 
and Monitoring Act (S. 116) to expand the Index that I created as 
Governor to measure water quality in Lake Erie to cover all of the 
Great Lakes.
    Furthermore, I am continuing to fight against the aquatic invasive 
species that are wreaking havoc in the Great Lakes. These aquatic 
terrorists are entering this great natural resource in the ballast 
water of boats from all over the world, and they must be stopped. That 
is why I have cosponsored the National Aquatic Invasive Species Act (S. 
525) to help protect the Great Lakes from these species. In June of 
this year, I participated in a hearing on this bill, and I will 
continue to work with my colleagues to take action on this costly 
problem.
    Still, there is much more that needs to be done to improve and 
protect the Great Lakes. I emphasize that this is an urgent need that 
deserves and demands a well-coordinated effort, one that cannot be met 
by simply adding individual programs to those that already exist.
    The GAO made it clear in its report released earlier this year 
entitled: ``An Overall Strategy and Indicators for Measuring Progress 
Are Needed to Better Achieve Restoration Goals'' that the number of 
programs is not the problem. Rather, the report states that while there 
are many Federal, State, and local programs, restoration of the Great 
Lakes is being hindered because there is little coordination and no 
unified strategy for these activities.
    Responding to the GAO report and to my long held concerns about 
Great Lakes restoration, I recently cosponsored the Great Lakes 
Environmental Restoration, Protection, and Recovery Act (S. 1398). In 
short, this bill moves us closer toward our goal of restoring the Great 
Lakes by providing funding and promoting coordination.
    As some of you may know, I was intimately involved in the creation 
of the Comprehensive Everglades Restoration Plan. As Chairman of the 
Transportation and Infrastructure Subcommittee, I was proud to sponsor 
WRDA 2000, which approved this ambitious Plan. Earlier this year, I 
spoke at the 11TH Annual Everglades Coalition Conference in Florida, 
and I told them: ``What I would love to do as Senator is to be able to 
put the same kind of coalition together that you've been able to do for 
the Everglades for the Great Lakes.'' This is my dream.
    Right now, we have many groups Governors, mayors, environmental 
groups, Congress, and others that are all working separately on 
proposals and priorities to restore the Great Lakes. However, the fact 
of the matter is that if we are going to get something done, we need to 
create a symbiotic relationship with all of the public and private 
players in the U.S. and Canada in order to develop a comprehensive 
restoration plan for the Great Lakes.
    This Plan is absolutely essential if we expect to continue to 
restore and improve one of the world's great treasures. From a selfish 
point of view, this plan would be the capstone of my legacy to Lake 
Erie and more importantly to my children and grandchildren and yours.
    Again, my sincere appreciation to all of you for participating in 
this morning's hearing. I look forward to hearing about some of our 
current efforts and to having an informative discussion with you on the 
very important issue of restoring the Great Lakes.
    Thank you.

                               __________
   Statement of Thomas V. Skinner, Region V Administrator, National 
  Program Manager for the Great Lakes, U.S. Environmental Protection 
                                 Agency

    Good Morning, Senator. I am Tom Skinner, the U.S. Environmental 
Protection Agency's (EPA's) Region V Administrator and the National 
Program Manager for the Great Lakes. I am pleased to be here today to 
discuss our efforts to restore and protect the Great Lakes, the largest 
freshwater system on earth.

                              INTRODUCTION

    I want to first take this opportunity to highlight mechanisms that 
EPA has developed to carry out Great Lakes priority setting and 
planning. Over the past few years, we have built a sound structure for 
achieving a collective vision of comprehensive ecosystem management for 
the Great Lakes.
    We have a good understanding of the major environmental problems 
facing the Great Lakes today. In recognition of these problems, the 
fiscal year 2004 President's Budget increased EPA's Great Lakes funding 
by $15 million, nearly doubling fiscal year 2003 levels. These 
additional funds will support the contaminated sediment projects newly 
authorized by the Great Lakes Legacy Act.
    Efforts to develop the Great Lakes Strategy 2002, combined with 
information from the State of the Lakes Ecosystem reports have provided 
much valuable information and experience. EPA continues to gather more 
information on the condition of the Great Lakes, as part of the 
Agency's scientific research program. For example, we are working to 
develop integrated methods of detecting and predicting the spread of 
new invasive species introduced into the Great Lakes. We are also 
developing more rapid methods for measuring beach water quality (to get 
results in 1-2 hours, rather than the current 24 to 48 hours) and 
improving our protocols for monitoring, our goal being to better 
understand the relationship between water quality and its health 
impacts on beach goers.
    What we do know is that:

    <bullet>  Invasive species in the Great Lakes, now in excess of 
160, are causing serious economic and ecosystem health impacts. It is 
virtually certain more invasives will enter the system in future years.
    <bullet>  Toxic contamination has triggered more than 1,500 current 
fish advisories in the Great Lakes Basin. Cleaning up contaminated 
sediments and addressing inputs of toxic chemicals to the Lakes are key 
to solving this problem.
    <bullet>  Record numbers of beach closings have occurred in the 
Great Lakes in recent years due to nonpoint source runoff and sewage 
problems.
    <bullet>  A ``dead zone'' of water lacking oxygen has appeared in 
Lake Erie, impacting aquatic life, and indicating the health of the 
lake may be compromised.

    The Great Lakes Strategy 2002, working along with Lakewide 
Management Plans and Remedial Action Plans, identifies these problems 
and form a complementary framework for current and future efforts to 
address them. A suite of goals and measures in the Strategy are guiding 
governmental partners toward solving these problems. Some of the most 
important goals are:

    <bullet>   By 2005, clean-up and de-list 3 Areas of Concern, with a 
cumulative total of 10 by 2010.
    <bullet>  By 2007, reduce concentrations of PCBs in lake trout and 
walleye by 25 percent.
    <bullet>  By 2007, establish 300,000 acres of buffer strips in 
agricultural lands using non-regulatory Federal and State programs.
    <bullet>  By 2010, 90 percent of Great Lakes beaches will be open 
95 percent of the season.
    <bullet>  By 2010, restore or enhance 100,000 acres of wetlands in 
the Basin.
    <bullet>  By 2010, substantially reduce the further introduction of 
invasive species, both aquatic and terrestrial, to the Great Lakes 
Basin Ecosystem.
    <bullet>  Accelerate the pace of sediment remediation, leading to 
the clean-up of all designated sites by 2025.

                CHALLENGES IN RESTORING THE GREAT LAKES

    Some of the challenges in restoring the Great Lakes are:
    The sheer geographic size of the system, and the range of problems 
present in
    <bullet>  the Great Lakes. The Great Lakes also require binational 
cooperation to achieve results.
    <bullet>  Coordination with numerous partners and jurisdictions--
Eight Great Lakes States, over ten Federal agencies and over 30 Indian 
Tribes are responsible for carrying out environmental and natural 
resource management programs to protect and restore the Great Lakes. 
Many other key organizations such as the Council of Great Lakes 
Governors, the Great Lakes Commission, the Great Lakes Fishery 
Commission, and the International Joint Commission (IJC) also have 
extremely important roles.
    <bullet>  Public involvement--the very nature and value of the 
Great Lakes as a natural resource means many non-governmental partners 
and individuals from all sectors of society are interested in the 
Lakes' health.
    <bullet>  Potential for duplication of efforts. There are currently 
a number of plans and planning efforts for the Great Lakes that address 
different geographic scales. It is important to coordinate to ensure 
efforts do not cause unnecessary confusion, wasted resources, or lead 
to ``reinventing the wheel.''

                       WHERE DO WE GO FROM HERE?

    It will be important as we move forward to continue to work with 
the Council of Great Lakes Governors to ensure that the Governors' 
priorities are emphasized and that duplication of effort is avoided. 
The Great Lakes Strategy 2002, Lakewide Management Plans, and Remedial 
Action Plans, can serve as the starting point for this work.
    In closing, I would like to thank you for the opportunity to speak 
today. I look forward to playing a key role working with our partners 
to continue progress on Great Lakes restoration efforts.

                               __________
Statement of Colonel William E. Ryan III, Deputy Commander, Great Lakes 
         and Ohio River Division, U.S. Army Corps of Engineers

Introduction
    Senator Voinovich, I am pleased to testify before you on the 
restoration and protection of the Great Lakes.
    The Great Lakes system is one of our nation's most vital natural 
resources. The world's largest freshwater system provides millions of 
U.S. and Canadian residents water for consumption, transportation, 
power, recreation, and a number of other uses. I look forward to 
continuing to work with our sister agencies, such as EPA, and other 
partners and stakeholders on approaches for restoring and protecting 
the Great Lakes.
    My comments focus on Federal and non-Federal roles in addressing 
water issues on the Great Lakes and the importance of an integrated and 
collaborative process involving all affected parties to assure the 
protection of this vital resource. I will conclude with an overview of 
the various Army Corps of Engineers Civil Works programs and other 
activities that are focused on addressing Great Lakes water resources 
issues.

Federal and Non-Federal Roles
    Primacy for water resources management in the U. S. has been and 
must continue to be at the State and local level. While it is 
appropriate for the Federal Government to be involved in issues of 
international, national or multi-State significance, such as the 
management of the Great Lakes water resources, it is the States, and in 
particular the Governors, who should be establishing the priorities for 
management of these shared water resources. The scope and technical 
complexity of water issues and the extent of desired participation by 
stakeholders mean that the Federal Government can facilitate State and 
local leadership by being responsive to their requests for effective 
coordination among Federal and non-Federal restoration programs and by 
bringing Federal analysis and program support to State and local 
efforts.
    The diversity of restoration challenges of the Great Lakes Basin 
has spawned a number of intergovernmental organizations and committees 
to coordinate one or more specific issue, whether it is invasive 
species, wetlands restoration, water management, non-point source 
pollution, or contaminated sediments. A significant amount of planning 
and coordination has already been accomplished through these existing 
organizations and committees, including the U.S. Policy Committee, 
Great Lakes Commission, Council of Great Lakes Governors, and Great 
Lakes Fishery Commission.

Integrated and Collaborative Watershed Approach
    The restoration challenges facing the Great Lakes are numerous and 
complex. The Great Lakes restoration challenges include contaminated 
sediments, invasive species, non-point source pollution, habitat 
alteration and loss, fish and wildlife conservation, and water 
management within a framework of two countries, eight States and two 
Provinces.
    We believe that continuing restoration of the Great Lakes benefits 
from a watershed perspective, emphasizing collaboration and 
integration. Success requires the participation of all interested 
parties in the planning and decisionmaking process. This participation 
would foster an open dialog to integrate sometimes competing or 
conflicting water resource needs. Such integration and collaboration 
are indispensable to meeting water challenges.

Overview of Corps Great Lakes Programs
    The Corps has a variety of Civil Works programs that are being 
utilized for the protection, enhancement and restoration of the Great 
Lakes ecosystem. The size and importance of this water resource and the 
complexity of the challenges before it necessitate a team approach to 
its management. The Corps has worked as a team member, as well as team 
leader, in different aspects of the collective environmental programs 
for the Great Lakes Basin.
    The Corps has been a member of the team that monitors, predicts and 
regulates water withdrawals, flows and diversions through our support 
to the International Joint Commission (IJC) Boards of Control and 
reference studies. The Corps has been a member of the U.S. Policy 
Committee, and participated in the development of their Strategic Plan 
to facilitate the implementation of the Great Lakes Water Quality 
Agreement. The Corps has provided technical assistance to the U.S. 
Environmental Protection Agency (EPA) in the development of Lakewide 
Management Plans. The Corps has also provided technical assistance to 
States and local groups for the development and implementation of 
Remedial Action Plans (RAPs) at 16 of the Great Lakes Areas of Concern 
(AOCs).
    The Corps has been a leader of team efforts to protect and restore 
the Great Lakes ecosystem from invasive species, including the 
dispersal barrier on the Chicago Sanitary and Ship Canal and sea 
lamprey barriers at various Great Lakes tributaries. The Corps is also 
leading the Great Lakes Fishery & Ecosystem Restoration program and 
other programs to restore and enhance aquatic habitat in the Great 
Lakes Basin in partnership with the Great Lakes Fishery Commission, 
Great Lakes States and Tribes.
    Perhaps the most significant program the Corps has led to date is 
the removal and confinement of contaminated sediments from Federal 
navigation channels in the Great Lakes. Although this program was 
conceived as a measure for environmental protection rather than 
restoration, the Corps, in partnership with State and local governments 
has removed over 90 million cubic yards of contaminated sediments from 
the Great Lakes through this program. Over 70 million of that was from 
Great Lakes AOCs. Using its expertise in management of contaminated 
sediments, the Corps has been working with other Federal agencies and 
Great Lakes States on sediment cleanup projects. The Corps continues to 
work in partnership with the EPA to evaluate and demonstrate new and 
improved technologies for managing contaminated sediments.
    Through a more recent program, the Corps is currently leading 
projects for environmental dredging at eight Great Lakes AOCs in 
partnership with State and local agencies.
    The Corps conducted one the first ecosystem restoration plans for 
Lake Erie in cooperation with the EPA approximately 30 years ago and is 
conducting watershed management planning for what some call the sixth 
Great Lake, Lake St. Clair, in partnership with Federal, State and 
local agencies.
    The Corps has four basinwide studies ongoing that are addressing 
specific or general water resource needs of the Great Lakes. The first 
of these is a U.S.-Canadian collaborative study of the existing 
navigation infrastructure in the Great Lakes and St. Lawrence Seaway. 
We are working with the U.S. Department of Transportation, Transport 
Canada, and the U.S. and Canadian Management organizations for the St. 
Lawrence Seaway to establish the baseline conditions of the existing 
infrastructure, commercial navigation use, and the environmental 
conditions of the Lakes and St. Lawrence River that may be impacted by 
the navigation system. We are also developing a bi-national framework 
for collaboration and partnership among the States and Provinces, 
Federal agencies, local entities, and stakeholders.
    The second basinwide study is an inventory of biohydrologic 
information relevant to Great Lakes water management and will include a 
gap analysis of water-related data. This study is closely integrated 
with the Annex 2001 activities of the Great Lakes Governors.
    The third basinwide study we have initiated in partnership with the 
Great Lakes States is an evaluation of the economic benefits of 
recreational boating in the Great Lakes, in particular those utilizing 
the Federal navigation system.
    The fourth Great Lakes study the Corps is helping to develop a 
strategic plan in collaboration with the Great Lakes Commission. As 
authorized in Section 455(a) of the Water Resources Development Act of 
1999, this study will produce a report to Congress with an analysis of 
existing water resource needs identified by Great Lakes States and 
stakeholders and recommendations for new or modified authorities to 
address unmet needs.

Conclusion
    The Corps is pleased to have had the opportunity to appear before 
you and provide testimony on this important subject. We value highly 
the water resources of the Great Lakes, the partnerships we have formed 
with our sister Federal agencies, the Canadians, the Great Lakes 
States, Tribes, local governments and stakeholder groups in managing 
and protecting this unique resource.
    The Corps looks forward to continuing these partnerships. Mr. 
Chairman, this concludes my remarks. I would be happy to answer any 
questions.

                                 ______
                                 
Responses of Colonel William Ryan to Additional Questions from Senator 
                                 Inhofe

    Question 1. According to the GAO report, $3.7 billion was spent on 
the Great Lakes Restoration from 1992 through 2001 but because there 
are so many different programs and groups, actual progress is hard to 
measure. Can you please describe what successes have been accomplished 
and provide any data you may have to show that progress has been made?
    Response. The most significant accomplishment by the Corps of 
Engineers toward the restoration of the Great Lakes has been the 
removal of over 90 million cubic yards of contaminated sediments from 
Great Lakes harbors and channels through dredging of Federal navigation 
projects and management of these contaminated sediments at confined 
disposal facilities (CDFs). More than three-quarters of these 
contaminated sediments were removed from areas of concern designated by 
the Great Lakes Water Quality Agreement. A summary report on this 
program has been developed jointly by the Corps and Environmental 
Protection Agency (EPA) and will be delivered to Congress following 
review by the Office of Management and Budget (OMB).
    Other accomplishments of significance have been the technical 
support provided by the Corps to States and local groups with the 
development and implementation of Remedial Action Plans (RAPs) and 
watershed management plans for Great Lakes areas of concern and 
tributaries. There are over 40 individual projects for habitat 
restoration in the Great Lakes Basin under planning or design by the 
Corps in partnership with State and local partners. At the same time, 
the Corps is working in collaboration with the Great Lakes Fishery 
Commission to develop an implementation plan for the Great Lakes 
Fishery and Ecosystem Restoration Program, authorized by Section 506 of 
the Water Resources Development Act (WRDA) of 2000.
    The Corps has also provided technical support to the EPA at 
Superfund cleanups within the Great Lakes Basin, demonstrations of 
innovative technologies for contaminated sediment remediation under the 
Assessment and Remediation of Contaminated Sediments (ARCS) program, 
and support to the development of Lakewide Management Plans (LaMPs). 
Appendices III and IV of the GAO Report contains a summary of the 
expenditures on Corps programs that have contributed to the restoration 
of the Great Lakes.

    Question 2. You speak a great deal about the Everglades and 
Chesapeake Bay in your testimony.
    Given the level of local involvement as detailed by Ms. Elaine 
Marsh in her testimony, can you envision a means to develop a 
comprehensive plan without a Federal agency taking the lead? With so 
many citizen groups involved as well as State and local organizations, 
could one of these organizations coordinate the broader effort with 
Federal guidance but not necessarily Federal leadership, which has thus 
far failed to result in a comprehensive approach?
    Response. What the Corps has learned from the Everglades and 
similar studies, such as Coastal Louisiana, is that development of a 
comprehensive restoration plan needs to address water challenges from a 
watershed view, emphasizing collaboration and integration among all 
stakeholders to ensure both environmental and economic prosperity. 
Since the primacy for water resources management resides at the State 
and local level, we found that the role of the Federal Government was 
to facilitate State and local leadership; to coordinate State, local 
and stakeholder involvement; and, to work with State and local 
interests to develop a framework for partnership and collaboration. Our 
success with the Everglades project resulted from developing a 
collaborative framework for actively communicating with and promoting 
participation of all interested parties in the planning and 
decisionmaking process. This participation fostered an open dialog on 
sometimes competing or conflicting water resource needs that had to be 
integrated into a comprehensive plan. We believe that this concept of 
integration is the key to meeting the water challenges that we 
collectively face. Based on what our State and local partners told us, 
we adopted nine watershed principles to guide our water resources 
management.
    These watershed principles are:

    1. Seeking sustainable water resources management;
    2. Integrating water and related land management;
    3. Considering future water demands;
    4. Coordinating planning and management;
    5. Promoting cooperation among government agencies at all levels;
    6. Encouraging public participation;
    7. Evaluating monetary and non-monetary tradeoffs;
    8. Establishing interdisciplinary teams; and,
    9. Applying adaptive management as changing conditions or 
objectives warrant.

    Within this broad context, watershed partners must collaborate to 
simultaneously address multiple objectives--environmental quality, 
social effects, and national and regional economic development.
    A comprehensive plan for Great Lakes restoration will require a 
Federal-State partnership that is inclusive of the diverse interests of 
multiple stakeholder groups and capable of balancing restoration goals 
with the needs for water resource use and economic development. 
Regionally within the Great Lakes Basin, this approach has been applied 
by the Corps of Engineers in the development of a watershed management 
plan for Lake St. Clair. For this study, the Corps worked in 
partnership with the Great Lakes Commission and with participation by 
Federal, State, Provincial, Tribal and local interests. The Corps has 
also employed this kind of partnership locally for environmental 
restoration at the Ashtabula River, Ohio and Onondaga Lake, New York. 
In these projects, the development of a restoration plan was directed 
by partnerships of Federal, State and local agencies through a 
committee structure. Elements of the planning process were then 
executed by the Corps, other partners, or private contractors. Although 
Federal funding for these restoration plans flowed through the Energy & 
Water Appropriations, the restoration plans were a product of the 
partnership.
    Development of a comprehensive Great Lakes restoration plan by a 
Federal-State partnership would be most effective if private and 
nongovernmental stakeholder participation were coordinated by a single 
partner. The Great Lakes Commission, an interstate compact of the eight 
Great Lakes States with associate membership of the Provinces of 
Ontario and Quebec has demonstrated its ability to fill this role.

    Question 3. Mr. Skinner testified that the region is not ready for 
a significant financial investment because research is still being 
conducted to show where things need to be changed and where to 
prioritize the funds. When will the four studies the Corps is working 
on the completed? Are there preliminary results you can share with the 
Committee?
    Response. The Corps is currently developing the following studies 
that should each provide information relevant to the balancing of 
restoration goals with needs for economic development and use of water 
resources:

    <bullet>  Implementation plan for Great Lakes Fishery & Ecosystem 
Restoration;
    <bullet>  Inventory of biohydrologic information and report on gaps 
and inconsistencies;
    <bullet>  Strategic plan on Corps programs in Great Lakes Basin;
    <bullet>  Economic study on recreational boating in Great Lakes, 
and;
    <bullet>  Great Lakes/St. Lawrence Seaway navigational review.

    The effort for the Great Lakes Fishery & Ecosystem Restoration 
Program (authorized by Section 506 of WRDA 2000) is preparing a plan 
for implementing the existing Joint Strategic Plan for Management of 
Great Lakes Fishery developed by Great Lakes States, Provinces and 
tribes. The plan will outline a process for the identification and 
prioritization of projects to restore aquatic habitat and restore 
beneficial uses. The draft plan is scheduled to be submitted to my 
office for review in November 2003.
    The Biohydrologic Information effort (authorized by Section 455(b) 
of WRDA 1999) has inventoried available physical, chemical and 
biological data relevant to the management of water in the Great Lakes 
Basin. This study, conducted in collaboration with the Great Lakes 
Commission has included an analysis of data gaps and inconsistencies, 
and will make recommendations to Congress on new or modified data 
systems needed by States to manage Great Lakes water withdrawals, 
diversions and consumptive uses in accordance with the Annex to the 
Great Lakes Charter signed by the Governors and Premiers in 2001. The 
draft report is scheduled to be submitted to my office for review in 
November 2003 and will be submitted to Congress following subsequent 
review at the Washington level.
    The Corps is developing a strategic plan for the development and 
management of Great Lakes water resources, as directed by Section 
455(a) of WRDA 1999. This plan, being developed in collaboration with 
the Great Lakes Commission, has summarized existing Corps projects and 
programs in the Basin, evaluated regional water resource needs, 
identified unmet needs, and will include recommendations to Congress 
for new or modified Corps authorities to address critical, unmet water 
resources needs. The draft report is scheduled to be submitted to my 
office for review in November 2003 and will be submitted to Congress 
following subsequent review at the Washington level.
    A study of the economic benefits of recreational boating in the 
Great Lakes Basin (authorized by Section 455(c) of WRDA 1999) is under 
development by the Corps in partnership with the Great Lakes 
Commission. This study is focusing on the benefits of recreational 
boating in and around Federal navigation projects. This study was 
requested by Great Lakes States because of concerns about the impacts 
of deferred maintenance of Federal navigation projects on shallowdraft 
navigation users. The draft report is scheduled to be submitted to my 
office for review in June 2004 and will be submitted to Congress 
following subsequent review at the Washington level.
    The Corps completed a report of a Reconnaissance Study on Great 
Lakes-St. Lawrence Seaway navigation improvements in December 2002. 
Based on review of this report, the Corps has initiated efforts to 
supplement the Reconnaissance Study in collaboration with Transport 
Canada, U.S. Department of Transportation, and the U.S. and Canadian 
St. Lawrence Seaway organizations. This study will provide baseline 
information about economic and environmental conditions in the Basin 
that might impact or be impacted by the binational navigation system. 
This baseline environmental information should be of particular value 
for comprehensive planning of Great Lakes restoration. The draft of 
this supplement to the Reconnaissance Study is expected to be completed 
in September 2005.

                                 ______
                                 
Responses of Colonel William Ryan to Additional Questions from Senator 
                               Voinovich

    Question 1. Based on the Corps' experience with other restoration 
projects, please estimate how long it would take to develop a 
comprehensive plan for the Great Lakes.
    Response. Depending on the level of funding provided, a 
comprehensive plan for Great Lakes restoration might require 3-5 years 
to be completed. The establishment of a coordinating Federal-State 
steering committee would be essential to completing this study in a 
timely manner.

    Question 2. I stated in my statement and at last month's hearing 
that we need to get everyone together if we are going to make progress 
on putting together a comprehensive restoration plan for the Great 
Lakes. Please assume that one of the Federal agencies, not necessarily 
the Corps, is asked to lead the development of a comprehensive plan. 
How do you think a project of this scope should be addressed and how 
can we get everyone together?
    Response. A comprehensive plan for Great Lakes restoration will 
require the establishment of a cooperative Federal-State partnership 
that is inclusive of the diverse interests of multiple stakeholder 
groups and capable of balancing restoration goals with the needs for 
water resource use and economic development. There are several 
challenges and opportunities facing this task.
    One of the challenges is the number of existing plans or strategies 
that have been developed to address one or more aspects of Great Lakes 
restoration. While it is important to recognize and utilize the content 
of these efforts, these plans were not developed with a common set of 
goals and objectives,. contain limited information on the costs and 
benefits of specific actions, and do not form an adequate basis for 
integrating and prioritizing multi-issue restoration activities. A 
significant effort will be required to inventory these plans and 
strategies, extract valuable information from them in alignment with a 
consensus-based set of restoration goals and objectives. Then, a 
decisionmaking framework should be developed to identify specific 
actions with estimates of costs and benefits, priorities and measures 
for monitoring progress.
    One of the opportunities is the existing network of organizations 
for interagency coordination and stakeholder participation. The Great 
Lakes are blessed with a diverse and well-seasoned network of 
organizations representing the interests of Federal, State, Provincial, 
Tribal, municipal, industry, commerce, civic and environmental agencies 
and groups. The development of a comprehensive Great Lakes restoration 
plan could be expedited and enhanced by establishing a cooperative 
framework among existing interagency organizations to facilitate 
Federal-State oversight and broad stakeholder input.

    Question 3. Please identify the construction backlog for the Great 
Lakes region.
    Response. A table that outlines the backlog of Corps of Engineers 
construction projects in the Great Lakes region is attached. The 
balance to complete these projects is based on working estimates for 
specific projects or authorized funding limits for programs, and 
presumes a fiscal year 2004 funding level equal to the Administration's 
budget request. This table does not include future funding that may be 
required to construct small projects under the Continuing Authorities 
Programs (CAP). There are currently over 200 CAP projects in stages of 
planning, design or construction in the Great Lakes region.

    Question 4. How do you recommend we develop a comprehensive 
restoration plan while continuing the programs that are currently 
successful and not delaying progress?
    Response. There are a variety of restoration activities in the 
Great Lakes Basin that have been ongoing or in preparation for an 
extended period. Sediment cleanup projects, pollution prevention, soil 
conservation, habitat restoration, invasive species prevention and 
mitigation activities are being conducted or planned through a variety 
of Federal and State programs, including Superfund, Natural Resource 
Damage Recovery, other enforcement programs, Great Lakes Legacy Act, 
and several Corps programs for ecosystem restoration. The development 
of a comprehensive plan for Great Lakes restoration should not delay or 
impede these activities.
    To avoid adverse impacts on existing restoration activities, the 
Federal-State partnership overseeing the development of a comprehensive 
Great Lakes restoration plan should recognize and celebrate the 
accomplishments of these ongoing efforts and provide interim results 
from the planning process to highlight the importance of these 
projects.

    Question 5. Including the bill that I cosponsored (S. 1398, the 
Great Lakes Environmental Restoration Act), I have seen different 
mechanisms proposed to coordinate Great Lakes programs, such as a task 
force. What do you think would work best?
    Response. The restoration of the Great Lakes requires a 
comprehensive plan that can serve as the basis for balancing 
restoration goals with the needs for water resource use and economic 
development. If a Federal-State partnership were formed or adapted from 
an existing interagency organization to develop this comprehensive 
plan, it would be most appropriate for that same partnership to 
continue to coordinate the implementation of that plan.

                                 ______
                                 
Responses of Colonel William Ryan to Additional Questions from Senator 
                                Jeffords

    Question 1. Please provide an updated copy of the construction 
backlog, divided by project, by State. Identify the portion of the 
backlog attributable to the Great Lakes Region.
    Response. The attached table and information provided in response 
to question 3 from Senator Voinovich provide a response to this 
question.

    Question 2. Please provide a flow chart or other appropriate 
graphic description of the roles and responsibilities of each of the 
Federal agencies and the Canadian agencies involved in Great Lakes 
restoration. Identify what are the guiding strategic plans or other 
similar documents for the efforts of each agency. Describe the 
coordination process between the agencies.
    Response. The diversity of environmental issues facing the Great 
Lakes cross multiple agency boundaries in a manner that does not lend 
itself to graphical representation. However, provided here is a 
simplified explanation of the binational agreements and institutions 
established to manage Great Lakes resources, and the general role of 
Federal agencies in this process.
    The physical, chemical and biological resources of the Great Lakes 
are managed through three binational agreements between the United 
States (U.S.) and Canada: the Boundary Waters Treaty of 1909, the Great 
Lakes Water Quality Agreement of 1972, and the Convention on Great 
Lakes Fisheries of 1955. While these agreements do not explicitly 
address all issues related to the restoration of the Great Lakes, they 
serve as a platform for addressing most.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Two binational organizations were established to administer the 
implementation of these agreements: the International Joint Commission 
(IJC) and the Great Lakes Fishery Commission (GLFC). The IJC 
administers facets of the Boundary Waters Treaty and Water Quality 
Agreement while the Fishery Commission administers the Fishery 
Convention. In general, the implementation of the agreements is ??the 
responsibility of the U.S. and Canadian Governments, while the role of 
the binational organizations is to provide coordination, resolution of 
disputes, and review progress.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A number of advisory boards, councils and committees have been 
established by the IJC and GLFC to support their administrative 
responsibilities. The members on these advisory boards include 
technical experts from government, academia, and interest groups.
    The Governments manage the resources of the Great Lakes in 
accordance with the terms of the agreements through the actions of 
Federal, State and Provincial agencies. These actions are coordinated 
through a number of committees and working groups established by the 
Governments.
    A chart depicting the binational organizations, governments, 
advisory boards and coordinating committees is provided below. The 
relationships between the binational organizations and the governmental 
agencies are not always as simple as this graphic might suggest. 
Participation in coordinating committees by Federal and State agencies 
is dependant on the committee's purpose. For example, the Corps is the 
U.S. lead on the Coordinating Committee on Great Lakes Hydrology and 
Hydraulics Data and EPA is the U.S. lead on the Binational Executive 
Committee.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 3. Please provide your recommendations on how to measure 
progress in restoring the Great Lakes and how to define restoration.
    Response. The goals for restoration of the Great Lakes as well as 
the measures of progress must be defined in the context of 
sustainability. As the Corps has learned from other large watershed 
studies, the restoration of natural resources must be balanced with 
sustainable economic development and use of the water resources. A 
comprehensive restoration plan should focus on reinstatement of 
beneficial uses of the natural resources of the ecosystem while 
balancing existing and future needs for water resource use and economic 
development. Sustainable balance is the key to defining restoration for 
the Great Lakes, and this balance is best developed through a process 
that emphasizes collaboration and integration.
    Question 4. Please provide an inventory of all of the strategic 
plans for the restoration of the Great Lakes that you are aware of that 
are completed, underway, or planned. Identify which, from your 
perspective, provide the most comprehensive approach to restoration.
    Response. The GAO Report identified several strategic plans for 
Great Lakes restoration. The Corps has participated in the development 
of the Great Lakes Strategic Plan through the U.S. Policy Committee and 
has supported the development of Lakewide Management Plans and Remedial 
Action Plans directed by the Great Lakes Water Quality Agreement. The 
Corps has worked with the Great Lakes Fishery Commission to develop a 
plan for implementing the Joint Strategic Plan for Management of Great 
Lakes Fishery and has also worked with the Great Lakes Commission on 
its Program for Restoration of the Great Lakes.
    Each of these plans has served to identify the issues facing the 
Great Lakes resources, raise public awareness of these issues and 
contribute information about the types of actions and level of 
resources required to address these issues. However, none of these 
plans has attempted to integrate the resolution of diverse resource 
issues in a sustainable context. None have identified restoration goals 
with consideration of existing and future water resource uses and 
economic development needs for the region. Without consideration of 
regional needs for water resource use and development, plans for 
restoration cannot be verified as feasible or justifiable.
    For these reasons, we do not believe any of the existing plans 
provide a basis for comprehensive restoration of the Great Lakes in a 
sustainable fashion.

    Question 5. What coordination takes place between the Great Lakes 
sea lamprey control program and sea lamprey control programs throughout 
the nation?
    Response. The Great Lakes Fishery Commission (GLFC) has the lead 
for the sea lamprey program in the Great Lakes. Since 1955 the GLFC has 
implemented a sea lamprey control program in the Great Lakes using 
lampricides, barriers, traps and a lamprey sterilization technique. The 
Corps and the GLFC as partners constructed sea lamprey traps at the Soo 
Lock Complex in Saulte Ste. Marie, Michigan. The traps have helped in 
the management of the sea lamprey populations in the St. Mary's River 
and Lake Huron. In addition, the Corps has an active sea lamprey 
barrier program as authorized by the 1999 amendments to Section 1135, 
WRDA 1986. The Corps with our partner, the GLFC, is currently planning 
and designing sea lamprey barrier projects in Great Lakes States. The 
Corps has and will continue to work closely with the GLFC to help 
manage sea lamprey and restore the fishery of the Great Lakes.
    The Corps is aware of the extensive cooperation between the GLFC 
and the Lake Champlain Fish and Wildlife Management Cooperative (LCC) 
in the suppression of sea lamprey in Lake Champlain. We recommend 
contacting Dr. Roy A. Stein, Vice-Chairman, Great Lakes Fishery 
Commission for a complete understanding of the coordination between the 
GLFC and LCC.

                        Summary of Backlog of Construction Projects in Great Lake Region
----------------------------------------------------------------------------------------------------------------
                                                                              Total
                                                                             Federal     Allocated    Balance to
                   State                             Project Name            Cost\2\      to Date      Complete
                                                                              ($000)       ($000)       ($000)
----------------------------------------------------------------------------------------------------------------
IL........................................  Aurora (environmental                8,000            0        8,000
                                             infrastructure)\1\.
IL........................................  Casino Beach.................        4,115        2,525        1,590
IL........................................  Chicago Sanitary & Ship Canal        3,238        3,122          116
                                             Dispersal Barrier.
IL........................................  Cook County (environmental          35,000          406       34,594
                                             infrastructure).
IL........................................  Chicago Harbor (major               18,410            0       18,410
                                             rehabilitation).
IL........................................  Chicago Shoreline............      174,000      138,490       35,510
IL........................................  Des Plaines River............       38,900        1,285       37,615
IL........................................  Des Plaines River Wetland            2,200        1,036        1,164
                                             Demonstration.
IL........................................  McCook & Thornton Reservoirs.      600,000       75,114      524,886
IL........................................  North Branch Chicago River...       23,829       23,829            0
IL........................................  Waukegan Harbor..............       12,242            0       12,242
IN........................................  Calumet Region (environmental       10,000        5,462        4,538
                                             infrastructure).
IN........................................  Indiana Harbor Confined             64,000       20,527       43,473
                                             Disposal Facility.
IN........................................  Indiana Shoreline Erosion....      184,000       10,257      173,743
IN........................................  Little Calumet River.........      144,000       91,892       52,108
IN........................................  Little Calumet River Basin,         18,975        2,837       16,138
                                             Cady Marsh Ditch.
MI........................................  Genesee (environmental               6,700          373        6,327
                                             infrastructure).
MI........................................  Great Lakes Fishery &              100,000            0      100,000
                                             Ecosystem Restoration.
MI........................................  Negaunee (environmental             10,000          595        9,405
                                             infrastructure).
MI........................................  Oakland County (environmental       20,000          454       19,546
                                             infrastructure).
MI........................................  Sault Ste Marie (Replacement       166,750        6,956      159,794
                                             Lock).
MN........................................  Northeast Minnesota                 40,000        5,171       34,829
                                             (environmental
                                             infrastructure)\1\.
NY........................................  New York State Canal System..       22,370        7,563       14,807
NY........................................  Onondaga Lake................      180,750       14,214      166,536
OH........................................  Ashtabula River Environmental       33,265        1,245       32,020
                                             Dredging.
OH........................................  Ottawa River.................        2,347          455        1,892
OH........................................  Ohio (environmental                 60,000        2,415       57,585
                                             infrastructure) '.
PA........................................  Presque Isle Peninsula.......       56,310       19,630       36,680
WI........................................  Northern Wisconsin                  40,000          141       39,859
                                             (environmental
                                             infrastructure)\1\.
                                            Total........................    2,079,401      435,994    1,643,407
----------------------------------------------------------------------------------------------------------------
\1\part of this project/program is outside the Great Lakes Basin
\2\total Federal cost based on project estimate or funding ceiling in program authority

                               __________
    Statement of Dr. Roy A. Stein, Vice-Chair, Great Lakes Fishery 
    Commission and Professor, Department of Evolution, Ecology, and 
               Organismal Biology, Ohio State University

    Mr. Chairman and members of the committee, my name is Roy Stein. I 
am the Vice-Chair of the Great Lakes Fishery Commission. I am also a 
professor in the Department of Evolution, Ecology, and Organismal 
Biology at The Ohio State University. On behalf of my Great Lakes 
Fishery Commission colleagues, I am pleased to be here today to discuss 
the Great Lakes fishery and to outline some challenges ahead for 
restoration of this invaluable resource. I commend Senator Voinovich 
for holding this hearing on the shores of the Great Lakes. The lakes 
require care and attention and we appreciate all you have done to help 
protect them for today and for future generations.

                    THE VALUABLE GREAT LAKES FISHERY

    The Great Lakes fishery is a treasure shared by Canada and the 
United States. The lakes contain 20 percent of the world's supply of 
fresh water. The fishery draws millions of anglers to the shores of the 
lakes each year, supports tribal fishing, and creates tens of thousands 
jobs in the commercial fishing industry. The fishery generates up to $4 
billion in economic revenue to the people of the region each year. 
Moreover, healthy fish communities are an integral part of a healthy 
Great Lakes environment. Without the fish communities and a healthy 
fishery, the Great Lakes lose their luster.
    Nevertheless, today, like many shared natural resources, the Great 
Lakes fishery is stressed. Fish stocks require careful management to 
prevent depletion, native fish stocks require rehabilitation to levels 
of self-sustainability, the influx of invasive species that disrupt the 
ecosystem must stop, and sea lamprey control-the backbone of a healthy 
environment-must improve. Fishery managers at all levels of government 
must work together closely to coordinate their activities. The lakes 
are indeed shared resources and cooperation among managers is the key 
to ensuring a sustained fishery.
    The Great Lakes is a complex system that spans a large geographical 
area. As such, it is very difficult to answer a seemingly simple 
question like ``What is the state of the fishery?'' The answer to such 
a question depends on where you are in the basin and in what species 
you are interested. The following are brief snapshots of the state of 
the fishery, on a lake-by-lake basis, based on reports from Federal, 
provincial, State, and tribal management agencies.

Lake Superior
    Lake Superior supports a significant recreational fishery 
throughout the basin, and being more sparsely populated than the other 
Great Lakes, has the fewest recreational anglers. Lake trout comprise 
the lion's share of the recreational harvest in Lake Superior, though 
other species, including chinook and coho salmon, rainbow trout, and 
brown trout are also popular. The lake also supports important tribal 
and commercial fisheries, mainly of herring, whitefish, and lake trout. 
Commercial fishing peaked in the 1940's and today, is about one-fifth 
of what it once was.
    Walleye was once an important species in Lake Superior, providing a 
harvest of thousands of pounds each year. Today, walleye harvest is 
negligible due to degraded habitat, poor water quality in the walleye's 
habitat, hydroelectric dams, and disruptions in recruitment. The 
management agencies on Lake Superior have established a goal to 
maintain, enhance, and rehabilitate self-sustaining populations of 
walleye and their habitat throughout their historical range.
    The Lake Superior fish community has been permanently altered by 
invasive species and remains at risk from future introductions. 
Disruptions in the lower food web are implicated in the poor condition 
of lake whitefish. Lake Superior, despite its relatively pristine 
state, remains quite vulnerable to human-induced alterations in habitat 
and water quality.
    Despite these and other problems, Lake Superior has seen some 
spectacular successes in fishery management. The fish community is 
reverting to a more natural state, resembling historical conditions and 
requiring less management intervention. Lake whitefish, a staple of the 
Lake Superior fishery, remain at high abundances, though concern exists 
about the overall condition of whitefish. Moreover, the decades-long 
effort to rehabilitate lake trout in Lake Superior has paid off. Thanks 
to careful stocking, limited harvest, and sea lamprey control, lake 
trout are now self sustaining in most of the lake to the degree that 
stocking is no longer necessary

Lake Michigan
    Lake Michigan supports commercial, recreational, and tribal 
fishing. Whitefish is the primary commercial species, though at one 
time, the lake supported smelt, yellow perch, bloater, and alewife 
fisheries as well. Salmon, trout, yellow perch, and walleye are the 
most popular sport species and lake trout and whitefish comprise the 
tribal fisheries.
    Total harvest from Lake Michigan peaked in 1985 at 56.6 million 
pounds. Today, harvest averages 21.6 million pounds, illustrating a 
downward trend since the late 1980's. One major reason for this 
downward trend has been a significant imbalance between predators 
(e.g., salmon, lake trout) and prey (e.g., alewives, sculpins). Since 
the mid1990's, management agencies have been working successfully with 
their stakeholders to strike a balance between salmon stocking and the 
lake's ability to sustain these predators.
    Despite these trends, sport anglers today are relatively pleased 
with the state of the Lake Michigan fishery. The balance between 
predators and prey have resulted in more salmon and generally bigger 
fish. The lake supports a thriving charter boat industry.
    The lake does have some significant problems, however. Like the 
other Great Lakes, disruptions in the lower food web threaten to 
undermine the success of the fishery. For instance, the sharp declines 
in Diporeia-a native organism that serves as food for larger fish-are 
linked to invasive species and might be the cause of declines in 
whitefish abundances and condition. Yellow perch remain at troublingly 
low levels, thus prohibiting a resumption of commercial yellow perch 
fishing in Lake Michigan. And lake trout rehabilitation is experiencing 
extremely slow progress. Sea lamprey abundances (discussed below) 
remain higher than desired in Lake Michigan, which limits the success 
of the fishery are impairing rehabilitation.
    Overall, the Lake Michigan fishery remains strong and popular. 
Management agencies work hard to balance salmon predators with their 
prey. Large-scale changes in the ecosystem, however, threaten to 
further disrupt an already fragile fish community.

Lake Huron
    The Lake Huron fishery is dominated by chinook salmon, lake trout, 
brown trout, whitefish, and burbot. Alewives and smelt are the main 
prey fish. Predators and prey in Lake Huron seem balanced, though 
agencies are monitoring the fish community closely to ensure that the 
prey abundances are able to support the stocked trout and salmon. 
Agencies are working to bolster the mix of species in the lake by 
establishing diverse salmon and trout communities, improving walleye 
and yellow perch abundances, managing whitefish at sustainable levels, 
and rehabilitating sturgeon.
    Habitat loss in Lake Huron remains a major concern. Agencies are 
working to protect and enhance fish habitat and to rehabilitate 
degraded areas with a goal of no net loss of habitat. Agencies also are 
concerned about the poor condition of whitefish and the high abundances 
of sea lampreys (discussed below) in Lake Huron, as sea lampreys are 
having a significant impact on the Lake Huron fish communities. The 
Great Lakes Fishery Commission has reduced the number of sea lampreys 
in Lake Huron, and agencies remain confident that the commission's 
recent treatments on the St. Marys River will further reduce sea 
lamprey populations. Disruptions in the lower food web, likely caused 
by invasive species, continues to threaten the fishery. Encouragingly, 
natural reproduction of lake trout is increasing.

Lake Erie
    The Lake Erie fishery is best known for its walleye and yellow 
perch. Indeed, these popular fish species attract millions of anglers 
to the lake each year and support a lucrative commercial fishery. 
Strong year classes of yellow perch in the years 1996, 1998, and 1999 
have helped sustain the yellow perch fishery in the lake. Yellow perch 
fishing--both sport and commercial--in 2002 was very good in all 
jurisdictions and the management agencies on the lake expect the good 
fishing to continue through 2003. However, a long, cold spring in 2002 
resulted in poor yellow perch spawning success. Agencies anticipate 
reductions in yellow perch catch limits in 2004 in response to these 
poor spawning results.
    The management agencies on Lake Erie reported that walleye spawning 
had been poor in 2000 and 2002 and recommended reducing the walleye 
catch limit in 2004. All agencies will be closely monitoring the 
success of walleye spawning in 2003 (early indications are that this 
will be a successful year for reproduction), though agencies anticipate 
significant reductions in the 2004 and 2005 allowable harvest.
    A major issue affecting the Lake Erie fishery is a recent outbreak 
of botulism. Tens of thousands of primarily near shore, bottom-feeding 
fishes (including smallmouth bass, sheepshead, rock bass, stonecats, 
round gobies, sturgeon, and channel catfish) apparently succumbed to 
botulism. Gobies and dreissenid mussels appear to have played a role in 
recent mortalities attributed to botulism. Current thinking is that 
dreissenid mussels concentrate the toxin. Round gobies feed on the 
mussels, which are then eaten by fish and migratory birds. Though this 
is a plausible hypothesis, research is needed to identify the etiology 
for Type E botulism. There have been no human fatalities in recent 
years, but the possibility exists. (Indeed, type E botulism from 
improperly prepared Great Lakes fish caused several fatalities in the 
1960's.) The botulism outbreak in Lake Erie is indicative of serious 
problems in the lake; problems relating to anoxia and the impact of 
invasive species such as zebra mussels.
    The five jurisdictions along the lake have worked together in a 
highly successful and cooperative manner. The jurisdictions have 
expressed a great deal of concern about the recent major changes 
occurring within the ecosystem of Lake Erie, particularly changes 
driven by disruptions to the lower food web, probably caused by 
invasive species like zebra mussels. These changes have a profound 
influence on both the composition and productivity of the fish 
communities within the lake.

Lake Ontario
    Lake Ontario supports a sport fishery comprised mainly of chinook 
salmon, coho salmon, lake trout, brown trout, and rainbow trout. Other 
popular species-fished primarily in shallow water-include yellow perch, 
walleye, smallmouth bass, and northern pike. Lake Ontario also supports 
some commercial fishing, though primarily in Ontario waters. Commercial 
species include lake whitefish and yellow perch, though harvest today 
is a fraction of its historical high in the early 20th century. Fishing 
in Lake Ontario is dominated by recreational anglers.
    The recruitment of American eel, is a major concern in Lake 
Ontario. America eels have been reduced to 1 percent of historic 
recruitment levels. The rehabilitation of this important top predator 
will require an immediate and coordinated international effort, as 
American ells are highly migratory (they swim thousands of miles from 
the Great Lakes during their lives) and are extremely vulnerable during 
many of their life stages.
    Charter fishing on Lake Ontario is extremely popular and the number 
of charter trips (nearly 8000 per year) remains steady. Although 
harvest of coho and chinook salmon and brown trout is currently lower 
than it was in the 1980's, harvest has remained steady for most of the 
1990's to today, indicating a relatively stable fishery. Lake trout 
harvest is a fraction of its peak in the mid-1980's and efforts to 
rehabilitate the species have yet to be realized. Other popular 
species, such as smallmouth bass, yellow perch, and walleye, fluctuate 
in abundance from year to year, but harvest has remained relatively 
strong and stable. Sea lamprey abundances in Lake Ontario remain 
extremely low, indicating a successful control program.

           COORDINATED FISHERY MANAGEMENT ON THE GREAT LAKES

    Like any resource that is shared and stressed, careful management 
helps ensure equitable use for today and sustainability for the future. 
The Great Lakes present a management challenge as the lakes are shared 
by two nations, eight States, the Province of Ontario, and tribal 
authorities. An international border runs through the center of four of 
the five Great Lakes. The challenge all agencies face is managing a 
biologically connected fishery through a politically fragmented regime.

State, provincial, and tribal authority
    Primary fishery management on the Great Lakes rests with the 
States, the province of Ontario, and two U.S. intertribal agencies. 
Each of these sub-national entities has an independent right to manage 
its portion of the fishery in the manner it chooses. This sub-national 
management authority has been long established, through common law and 
court cases. For instance, although the British North America Act gives 
the Canadian Federal Government control over inland fisheries, the 
provinces retain ownership of lake and river beds and, it has been 
ruled, the riparian rights to the fish. Through the Federal Fisheries 
Act, the Canadian government maintains the right to make and enforce 
fisheries regulations and policies pertaining to the conservation of 
fish stocks within Canadian waters. Much of the authority to implement 
these policies and to enforce these regulations has been granted to 
Ontario. In the United States, early Supreme Court decisions have 
upheld the States' ownership of lake and riverbeds and, thus, the fish 
in those waters.
    In the U.S., tribes have management authority on their reservations 
and in waters ceded through treaties. In Canada, there are still many 
unresolved and emerging issues with First Nations' fishery management 
and, thus, the rights of First Nations to manage their own fishing 
activities is less developed than in the United States.

Great Lakes Fishery Commission
    Because the lakes are shared by the United States and Canada, 
binational governance is required. As such, in 1955, the two nations 
created the Great Lakes Fishery Commission by treaty. The commission 
has management authority for sea lampreys but limited authority over 
the Great Lakes fisheries, largely because, for decades, the States and 
the province were reluctant to cede management authority to a bi-
national body. The commission is made up of 4 Canadians appointed by 
the Privy Council and 4 American (plus one alternate) appointed by the 
President of the United States.
    It was largely the destructive power of the sea lamprey (described 
below) in the mid 20th Century that prompted the governments to seek a 
binational fishery management treaty. The Great Lakes Fishery 
Commission is charged with several responsibilities including: 
coordinating fisheries research on the Great Lakes; carrying out sea 
lamprey control; making recommendations to governments about fish 
stocks of common concern; and, at the request of the sub-national 
governments, facilitating the implementation of A Joint Strategic Plan 
for Management of Great Lakes Fisheries (Joint Strategic Plan), 
discussed below.

Federal Authority
    The Federal Governments of Canada and the United States also have a 
management authority on the Great Lakes. Several Federal agencies in 
both nations work with the sub-national agencies to support the 
management of the fishery.
    The commission conducts sea lamprey control by contract with 
Federal agencies. Under State approval, the Federal agencies carry out 
rehabilitation initiatives, most notably, lake trout stocking. The 
Federal agencies contribute to the generation of information through 
scientific research. They also negotiate bi-national agreements, 
support the common good through budget and other initiatives, and have 
the trust responsibility toward tribes.

Cooperative management
    Through the Joint Strategic Plan, the Great Lakes Fishery 
Commission has the responsibility to facilitate cooperative management 
on the Great Lakes. Indeed, the commission is keenly interested in 
helping all management agencies on the Great Lakes develop shared 
fishery objectives and manage the lakes as an ecosystem.
    Together, the bi-national, national, and sub-national management 
agencies approach the Great Lakes from the same general perspective and 
with the same goals in mind. These perspectives and goals include:

    <bullet>  Working to sustain the Great Lakes fish stocks;
    <bullet>  Protecting diversity;
    <bullet>  Understanding and maintaining the balance between 
predators and prey;
    <bullet>  Adhering to science-based management; and
    <bullet>  Balancing the interests of stakeholders, including sport 
anglers, commercial fishers, tribal fishers, the environmental 
community, and many others.

    Despite a generally common approach to Great Lakes fishery 
management, the various agencies had managed the Great Lakes fishery 
with little or no formal cooperation for decades. With the States, the 
province, the tribes, and the Federal Governments often doing their own 
thing, it is not difficult to envision a situation where consultation 
was minimal, common objectives non-existent, and agencies working at 
cross purposes, even, at times, on the same lake.
    By the late 1970's, the agencies realized that some mechanism was 
needed to facilitate cooperation among the jurisdictions. In 1978, the 
eight States and the province of Ontario joined with the Great Lakes 
Fishery Commission to develop the Joint Strategic Plan. The plan was 
adopted in 1981 and has been updated regularly, most recently in 1997.
    In recent decades, particularly under the Joint Strategic Plan's 
direction, fishery agencies have been successful in resolving-or 
partially resolving-many fisheries management problems. Even so, many 
issues remain unresolved and new issues continually emerge. To assist 
fishery and environmental agencies in dealing with these problems, 
agencies, through the Joint Strategic Plan, have identified broad 
procedures that foster cooperation. The procedures suggested in the 
Joint Strategic Plan are:

    <bullet>  Consensus
    <bullet>  Accountability
    <bullet>  Information Sharing
    <bullet>  and Ecosystem Management.

    Consensus: Agencies agree to reach consensus on management 
practices before they implement major initiatives. To help achieve 
consensus, agencies have developed common fish community objectives 
accompanied by operational plans, plans against which management 
decisions can be weighed. These objectives outline the goals for the 
fishery and how to achieve those goals. Agencies also agree that any 
change in fishery management practice that affects other jurisdictions 
must be agreed to by the other jurisdictions. In the rare instance 
where consensus cannot be achieved, the Joint Strategic Plan contains 
provisions for conflict resolution through the Great Lakes Fishery 
Commission or third parties.
    Accountability: Fishery managers are accountable for implementing 
the decisions made under the Joint Strategic Plan. They implement the 
decisions through their own agencies. To promote accountability, the 
Joint Strategic Plan calls for the production of a decision record-
primarily through the publication of meeting minutes. The Joint 
Strategic Plan also highlights the need for agencies to submit periodic 
reports about initiatives on each lake and the need for regular reports 
on progress toward reaching agency objectives.
    Information Sharing: Information useful to management is something 
all agencies need. Information sharing has been difficult at times 
because the jurisdictions have a history of generating a variety of 
data in a variety of formats. To maximize information sharing, the 
Joint Strategic Plan calls for the development and implementation of 
standards for recording and maintaining fishery management and 
assessment data. Access to information is critical to the management 
agencies and to the public. The Joint Strategic Plan calls for agencies 
and the Great Lakes Fishery Commission to take the steps necessary to 
publish information and make it available through convenient means, 
such as the internet. Finally, under the Joint Strategic Plan, agencies 
pledge to share their data with other agencies.
    Ecosystem Management: A guiding principle on the Great Lakes is 
that managers must look at the Great Lakes as a whole. This means that 
fishery mangers need to look beyond fishery management activities and 
respond to all issues that affect the Great Lakes. In particular, the 
Joint Strategic Plan calls for a heightened interest in environmental 
issues-such as Lakewide Management Plans or the Great Lakes Water 
Quality Agreement-in developing, achieving, and assessing the progress 
on fish community objectives. The Joint Strategic Plan also recognizes 
the incredible problem the entire ecosystem faces with exotic species 
and calls upon the agencies to promote procedures to protect the 
resource.
    With these four procedures for cooperative fishery management in 
mind, how, exactly, does the Joint Strategic Plan function? Long before 
the Joint Strategic Plan, each lake had its own ``Lake Committee,'' a 
loose set of Great Lakes Fishery Commission committees designed 
informally to help the commission and agencies focus on particular 
issues on each lake. When the agencies produced the Joint Strategic 
Plan in 1981, they decided to expand the use of the lake committees and 
use them as more formal means to carry out the Joint Strategic Plan.
    Under the Joint Strategic Plan, high-ranking managers from agencies 
on each lake meet as a committee to address the issues of importance to 
that lake. For example, managers from jurisdictions on Lake Huron-which 
include Ontario, Michigan, and the Chippewa-Ottawa Resource Authority-
meet as the Lake Huron Committee. A Council of Lake Committees-
comprising all members of the lake committees-looks at Great Lakes 
fishery issues from a basin wide perspective.
    The Joint Strategic Plan is designed to be a bottom-up process, 
where management decisions are driven by science generated by field 
researchers. To foster that design, each lake committee has a technical 
subcommittee to conduct and digest research and to report those 
findings to lake committee members. This structure allows the field 
researchers and assessment biologists to come to a common understanding 
of the science, free from policy issues considered by the lake 
committees. Lake committee members then use that bottom-up-produced 
science as the basis for their management decisions.
    The Joint Strategic Plan also provides for a coordinated approach 
to law enforcement. While each national and subnational jurisdiction 
maintains its own law enforcement capabilities and responsibilities, 
there is considerable need on the Great Lakes for law enforcement 
agencies to work together. Indeed, because the Great Lakes is an 
ecosystem, it would make little sense for agencies to stop their 
pursuit of lawbreakers at a political line. To facilitate coordinated 
law enforcement, a Law Enforcement Committee develops and works to 
implement common law enforcement initiatives. This committee reports to 
the Council of Lake Committees.

    <bullet>  Lake Erie Committee
    <bullet>  G.L. Fish Health Comm.
    <bullet>  Technical Committee
    <bullet>  Lake Huron Committee
    <bullet>  Technical Committee
    <bullet>  Lake Ontario Committee
    <bullet>  Technical Committee

    Finally, to facilitate interagency cooperation, the Great Lakes 
Fishery Commission also supports the Great Lakes Fish Health Committee 
and the Fish Habitat Conservation Committee. The Fish Health Committee 
studies issues relating to fish disease spread, prevention, and 
mitigation. The Fish Habitat Conservation Committee-whose members are 
appointed by the commission-comprises government and non-government 
habitat experts to study and recommend measures for ensuring fish 
habitat protection.
    Lake committee meetings are held annually, in public. They serve as 
a forum to develop common objectives for the lake, to share scientific 
information, and to allow agencies a place to make decisions on such 
things as stocking, harvest, law enforcement, and environmental 
management. It is important to note that all decisions made through the 
lake committee process must still be implemented by the individual 
agencies. That is, managers agree to take lake committee actions back 
to their own jurisdictions for implementation. Thus, the consensus-
based lake committee process is non-binding and only as successful as 
the willingness of the individual agencies to adhere to the collective 
decisions. Even so, this process is highly effective as it serves to 
maximize cooperative management and minimize conflict. Figure 1 
illustrates the lake committee structure.
    Council of Lake Committees Law Enforcement

    <bullet>  Lake Michigan Committee
    <bullet>  Technical Committee
    <bullet>  Lake Superior Committee
    <bullet>  Technical Committee
    <bullet>  Habitat Conservation Comm.
    (Members appointed by GLFC)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The Great Lakes are widely viewed as the best example of 
cooperative fishery management anywhere on earth. Lake committees are 
clearly the strength of the Joint Strategic Plan. As expected with any 
shared resource, issues about fairness of the allocation of the 
fishery, management responsibilities, and transparency arise on the 
Great Lakes. The Joint Strategic Plan and the lake committee process 
are capable of handling these challenges. In the absence of this 
process, agencies would retreat to parochialism, with management chaos 
ensuing.

    INVASIVE SPECIES: THE PRIMARY THREAT TO THE GREAT LAKES FISHERY

    One particularly important issue facing the Great Lakes Fishery 
Commission and the lake committees is invasive species. Invasive 
species-undesirable plants and animals not native to a system-have been 
increasing steadily in numbers, particularly as commerce in the Great 
Lakes region has become more global and dynamic. Invasive species cause 
enormous ecological and economic damage to the region. Invasive species 
such as sea lampreys, zebra mussels, Eurasian ruffe, Bythotrephes, and 
round gobies have changed the very nature of the Great Lakes forever.
    According to published reports, 162 non-native species have become 
established in the Great Lakes region since the late 1800's. Twelve of 
these species have entered the Great Lakes since 1990, around the time 
ballast water exchange-designed to protect the lakes against invasion-
went into effect. Once a species invades and takes hold, the species 
becomes a permanent fixture of the ecosystem.
    Since the 1950's, when the St. Lawrence Seaway opened the lakes to 
direct foreign shipping, ballast water has become a dominant means by 
which new species enter the system. Today, the vast majority of 
invasive species in the Great Lakes originate from Eurasia and arrive 
in ship ballast. Invasive species have the potential to enter the lakes 
through other channels as well, including the Chicago Sanitary and Ship 
Canal and through the commerce of live food, bait, and aquarium fish.
    Concurrent reports from the United States General Accounting Office 
and the Auditor General of Canada, released in October, 2002, brought 
major attention to the invasive species problem. The reports provide 
little reason for optimism. Among the findings of both reports:

    <bullet>  The Federal Governments of Canada and the United States 
have not responded effectively to the invasive species threat;
    <bullet>  Invasive species are a leading cause of biodiversity loss 
and economic loss, costing billions of dollars each year;
    <bullet>  Measures put into place to prevent aquatic introductions 
(such as ballast water monitoring and
    ballast water exchange) have not prevented new introductions;
    <bullet>  Canada and the U.S. have neither a binational approach to 
invasive species nor do they have a
    single agency in charge of managing the problem; and
    <bullet>  Effective ballast water management techniques may require 
at least 10 years to develop and implement.

    The Great Lakes remain extremely vulnerable to new invaders, 
underscoring the critical need to (1) prevent the introduction of new 
organisms, (2) address the ballast water vector, (3) stop 
transmigration of species through the Chicago Sanitary and Ship Canal, 
and (4) address the trade of live organisms from outside and within the 
region. As one view of the importance of this problem, most scientists 
and stakeholders working in the Great Lakes today will list invasive 
species as the most pressing issue the region faces.
    The Great Lakes Fishery Commission is deeply encouraged by the 
introduction of the National Aquatic Invasive Species Act (NAISA-S. 
525, H.R. 1080 and H.R 1081). I join with my fellow commissioners in 
commending Senator Levin and Congressmen Ehlers and Gilchrest for 
introducing these important bills and thanking Senator Voinovich for 
being an original co-sponsor of the Senate legislation.
    These bills, if passed as written, will be a major step forward in 
efforts to address the invasive species problem. In particular, the 
commission believes NAISA includes important safeguards for the Great 
Lakes, establishes clear deadlines for action, and addresses vital 
needs such as strong ballast standards for ocean-going vessels, 
investigation of invasion pathways, rapid response, the construction of 
a dispersal barrier system near Chicago, and research, just to name a 
few.
    The commission strongly urges Congress to pass this legislation. 
The sooner the bills are passed, the sooner we will be addressing these 
pressing problems. We cannot afford to wait a day longer: The next 
oceanic vessel entering the Great Lakes could have the next ``zebra 
mussel'' on board. Asian carp are swimming their way steadily toward 
the Great Lakes. Millions of potentially harmful fish are sold live in 
the Great Lakes basin. This legislation will address these and other 
problems, but we must act now.
    The commission also notes that the International Joint Commission 
(IJC), in its previous two biennial reports, has requested a reference 
from governments to address the invasive species problem. The 
commission believes the IJC is an appropriate body to investigate this 
issue on a binational level and, therefore, urges the governments of 
Canada and the United States to grant this reference to the IJC.

                   SEA LAMPREYS AND THEIR DEVASTATION

    Let us focus, now, on one particular invasive species: the sea 
lamprey. Among the more than 162 exotic species that have become 
established in the Great Lakes basin, the most detrimental to the 
basin's fisheries has been the sea lamprey, a parasitic fish native to 
the Atlantic Ocean. Sea lampreys entered the Great Lakes in the early 
part of the
    20th century through federally constructed shipping canals and by 
1937 had infested waters of all of the Great Lakes. Unlike the other 
invasive species we contend with, sea lampreys can be controlled.
    During its lifetime, each sea lamprey, by attaching to fish and 
feeding on their body fluids, can kill and consume 40 or more pounds of 
fish. By the mid-1940's, sea lamprey predation, combined with 
overfishing and other problems, destroyed many extremely valuable 
fisheries in the Great Lakes. Losing predators such as lake trout and 
burbot and subsequent sea lamprey predation on other species, has led 
to catastrophic declines in the economic value of Great Lakes 
fisheries.
    The declines in the Great Lakes fishery can hardly be exaggerated. 
Before sea lamprey control began in the 1950's, nearly 85 percent of 
the fish in the Great Lakes exhibited sea lamprey wounds and the 
harvest, which had been about 20 million pounds of fish annually before 
the sea lamprey invasion, collapsed.
    The sea lamprey literally destroyed a way of life for the people of 
the Great Lakes region and threw the environment into chaos. Even with 
sea lamprey control measures in place, the lampreys continue to pose a 
significant threat to the fish. In some areas, sea lampreys still kill 
more fish than are harvested by humans. We also know that if sea 
lamprey control were to be relaxed-even briefly the species would 
spring back quickly and in deadly fashion.
Sea Lamprey Control
    By the early 1950's, the governments of Canada and the United 
States, in addition to the province of Ontario and the States, agreed 
that the sea lamprey problem must be addressed at the highest level if 
the Great Lakes fishery were to survive. To that end, the Federal 
Governments negotiated and ratified the 1955 Convention on Great Lakes 
Fisheries, which created the Great Lakes Fishery Commission. The 
commission was charged with developing and implementing a sea lamprey 
control program and with coordinating fisheries research, duties the 
commission maintains to this day.
    The commission actively manages the program and works in 
partnership with Fisheries and Oceans Canada, the U.S. Fish and 
Wildlife Service, and the U.S. Army Corps of Engineers to deliver sea 
lamprey control. The commission continues to insure that fishery 
management on the Great Lakes is carried out on an ecosystem basis and 
in the spirit of binational cooperation. The Convention remains a 
highly successful blueprint for cooperative fishery management. Canada 
and the United States each consider the working relationship on the 
Great Lakes to be a model of successful binational resource management.
    Sea lampreys are controlled on the Great Lakes using a number of 
innovative, effective techniques. The primary management tool is a 
lampricide, called TFM. TFM is applied in Great Lakes streams where sea 
lampreys live as larvae. The lampricide is selective to lampreys, 
meaning it kills lampreys with little to no impact on non-target 
species. TFM has been applied to Great Lakes streams since 1958 and is 
fully registered with the Environmental Protection Agency. Streams with 
sea lampreys present require TFM treatments every 3-6 years, depending 
on the stream's productivity. Between 60 and 70 streams are treated 
annually with TFM.
    The commission also relies on other alternative, non-chemical 
techniques to control sea lampreys. Sea lamprey barriers are used to 
prevent sea lampreys from reaching their spawning grounds. Once a 
barrier is constructed in a stream, the stream generally does not 
require lampricide treatments above the barrier. Sea lamprey traps are 
used to remove lampreys from the system before they spawn. The lampreys 
caught in traps are used in the innovative sterile-male-release-
technique, a technique where spawning male sea lampreys (which are past 
their feeding stage and, therefore, are not actively destroying fish) 
are sterilized and released back into the system. The sterilized males 
compete with fertile males to spawn, thus wasting the female's spawning 
potential.
    Together, these sea lamprey control techniques comprise the tools 
in the commission's arsenal to combat this destructive pest.
The Success of Sea Lamprey Control
    The commission's sea lamprey control program has been a tremendous 
success-probably successful beyond the expectations of those who 
negotiated the Convention on Great Lakes Fisheries, and stands as one 
outstanding example of environmental damage mitigation.
    In the Great Lakes, sea lamprey abundances are near or below target 
levels in Lakes Ontario and Erie. Sea lamprey abundances are slightly 
above targets in Lakes Superior and Michigan and significantly above 
target in Lake Huron. The high abundances of sea lampreys in Lakes 
Michigan and Huron are because of high sea lamprey production in the 
St. Marys River. The commission began an aggressive, on-going sea 
lamprey suppression program for the St. Marys River in 1999 and expects 
the sea lamprey abundances in Lakes Michigan and Huron to approach 
acceptable levels. Sea lamprey abundances in Lake Superior are a bit 
higher than we find acceptable and, therefore, the commission will be 
stepping up its treatment work in that lake.
    Overall, the sea lamprey control program has been a phenomenal 
success. The Great Lakes Fishery Commission and its partners have 
reduced sea lamprey populations by about 90 percent from their 
historical abundance. Because sea lamprey eradication is impossible, 
the control effort is ongoing.
    The successful sea lamprey control program is the cornerstone of a 
healthy and vibrant fishery. Sea lamprey control allows provincial, 
State, Federal, and tribal fishery management agencies to stock fish 
and implement other restoration activities with confidence, knowing 
that their fish will likely survive to reproduce or be caught by 
humans.
    Sea lamprey control allows agencies to make substantial progress in 
their efforts to re-establish self-sustaining populations of our rare, 
valuable, native species.
    Sea lamprey control promotes a healthier Great Lakes fishery, 
creates a more stable environment, and provides significant economic 
and recreational benefits to the people of the region.
    Sea lamprey control has increased the popularity of sportfishing in 
the Great Lakes since the early 1960's, protects tribal fishing, and 
supports thousands of commercial fishing jobs.
    Sea lamprey control is indeed the foundation of a fishery that has 
rebounded from the most dire conditions of the 1940's. Today, the 
fishery again is a highly valued resource to the people of North 
America. The millions of people who fish the Great Lakes 
recreationally, tribally, and commercially demand the delivery of an 
effective sea lamprey control program. Investments in sea lamprey 
control are investments not only in today's fishery, but also are 
investments in the fishery that future generations will enjoy.
Alternative Sea Lamprey Control And The Lampricide Reduction Goal
    Despite the importance of the lampricide TFM in the sea lamprey 
control effort, the commission set a goal to reduce lampricide use by 
50 percent by the year 2010. Lampricides are costly and the commission 
is sensitive to concerns about the use of pesticides, even safe and 
proven pesticides like TFM. Furthermore, successful pest management 
programs rely on several techniques working together to achieve target 
levels of suppression.
    To reach its lampricide reduction goal, the commission has invested 
in alternative, non-chemical means to control lampreys including the 
aforementioned barriers, traps, and the sterile-male-release technique. 
Already, the commission has reduced lampricide use by more than 35 
percent from the peak use of the 1980's.
    Achieving the lampricide reduction goal is possible, but only 
through continued investment in alternative controls. The commission 
has been committed to making that investment by devoting greater 
percentages of the lamprey control budget to alternative techniques. In 
2003, the commission will apply approximately 25 percent of its sea 
lamprey budget to alternative controls. This is an increase from only 
about 15 percent devoted to alternative controls just a few years ago.
    Reductions in lampricides through the research into and the 
development of alternative techniques is providing real program savings 
today. Lampricide reductions since the late 1980's are now saving the 
commission more than $1 million per year in lampricide and treatment 
costs, while still allowing for the same level of sea lamprey control. 
Furthermore, sea lamprey control on the St. Marys River depends on 
alternative controls. Continued reductions in the amount of lampricides 
used will take place and the commission will remain vigilant that these 
reductions do not compromise the effectiveness of sea lamprey 
suppression.
    The commission also has a vision to develop and implement at least 
one new sea lamprey control technique by the end of the decade. The 
commission is highly encouraged by the success of alternative control 
techniques (e.g., the sterile-malerelease-technique) and believes it is 
imperative to research and develop new techniques.
    New research into sea lamprey pheromones-another major initiative-
will help the commission reach its goal. Pheromones are natural 
attractants sea lampreys use to indicate to spawning lampreys which 
streams are suitable for spawning or to attract mates once in the 
spawning stream. By understanding how sea lampreys use pheromones, 
scientists seek to direct lampreys into traps or disrupt sea lamprey 
spawning behavior in some fashion. The commission believes pheromones 
have much promise to transform sea lamprey control in the Great Lakes 
basin and, therefore, views enhancing its development and application 
as a high priority. The commission will undertake major field trials 
for pheromones as soon as spring 2004.
    Sea lamprey control is only as successful as the governments' 
willingness to fund the effort. Currently, the program receives 
enormous support in both Canada and the United States, though the 
control effort is still underfunded. The commission received $12.2 
million in fiscal 2003, nearly $1 million less than the fiscal 2002 
level and a full $4 million less than was requested by the commission 
to deliver a full program. The commission requires adequate funding if 
it is to maintain the successful sea lamprey control effort and devote 
full attention to lampricide reduction.

                   ASIAN CARP: AN IMPENDING INVASION

    Sea lampreys have been the bane of the Great Lakes for more than 80 
years. Asian carp, which are at our doorstep, threaten to be the next 
``sea lamprey.'' Two species of Asian carp are making their way toward 
the Great Lakes-the silver and bighead carp. A third species of 
concern-the black carp-escaped into the Mississippi River in 1994, but 
to date, only one has been detected in the wild. Biologists are 
monitoring the resource carefully for occurrences of the black carp.
    The silver and bighead carps were imported, in the early 1970's 
from Asia by fish farmers in southern States, to control plankton 
blooms in channel catfish production ponds. Both species escaped into 
the Mississippi River in the 1980's. Biologists believe that major 
floods in the early and mid-1990's allowed the carp to significantly 
expand their range. Currently, bighead and silver carp are found near 
the Chicago Sanitary and Ship Canal, which connects the Mississippi 
River to the Great Lakes. The carp are now within 50 miles of Lake 
Michigan. The silver and bighead carp have a remarkable ability to 
spread and proliferate. In some areas of the Mississippi, Asian carp 
now already comprise 95 percent of the biomass.
    In addition to the Chicago canal system as a vector, fish are 
routinely imported live into the region for sale as food and are a 
popular fish at live-fish markets in the Great Lakes basin. For 
instance, more than 900,000 pounds of live Asian carp are trucked each 
year into Ontario from the United States, to be sold at fish markets on 
the shores of the Great Lakes. Fish markets exist, for instance, in 
Toronto, Chicago, and New York.
    Moreover, millions of juvenile fish are sold as baitfish or as 
aquarium fish in the Great Lakes basin. Like the carp sold in fish 
markets, aquarium and baitfish are trucked into the basin (and in some 
cases reared in the basin) and sold live. Once these live fish are 
sold, they are out of the control of the sellers. For example, there is 
a serious risk that once an angler is finished fishing for the day, the 
angler might release invasive fish (such as Asian carp) that are mixed 
in with the rest of his or her unused bait.
    If the Asian carp are allowed into the lakes, they will likely 
become a permanent, noxious feature of the Great Lakes environment. 
They have several characteristics that make them ``invasive.'' They are 
fecund and they grow rapidly. They are well suited to the climate of 
the Great Lakes; their native range in Asia is similar to the 
conditions in the
    Great Lakes region. There is little doubt that the carp will 
survive in the Great Lakes and compete directly with the lakes' native 
fish for zooplankton (small animals in the water column that form the 
base of the food web).
    Tremendous efforts are underway to prevent an Asian carp invasion. 
To date, these efforts have centered on blocking the migration of carp 
from the Mississippi River system into Lake Michigan. An experimental 
electric barrier constructed by the U.S. Army Corps of Engineers to 
control invasive species migration began operation on April 9, 2002. 
This electrical barrier serves as the only line of defense against the 
Asian carp. A second barrier is currently being built through a 
partnership with the Great Lakes Fishery Commission, the International 
Joint Commission, the U.S. Army Corps of Engineers, and the State of 
Illinois.
    In addition to work on the Chicago canal system, there is also 
significant work to prevent entry via the trade of live organisms. The 
Council of Lake Committees (composed of provincial, State, and tribal 
management authorities), and the Great Lakes Law Enforcement Committee 
(provincial, State, Federal, and tribal law enforcement officials, have 
been working with governments to encourage sub-national laws banning 
the possession of live Asian carp (and other potentially injurious 
exotic species). Already, several States have banned the possession.
    The U.S. Federal Government, along with State and local 
governments, have spent millions of dollars to help prevent the Asian 
carp invasion. These investments in the Chicago Sanitary and Ship 
Canal, while costly, are necessary to the protection of the entire 
Great Lakes basin and are a fraction of the economic harm these carp 
could cause to both nations if they are allowed into the system. The 
commission has several specific recommendations to address the Asian 
carp problem:
    1. Support an annual appropriation (from the U.S. Army Corps of 
Engineers' budget) for operations and maintenance of the existing 
invasive species barrier on the Chicago Sanitary and Ship Canal.
    2. Support the construction of a second dispersal barrier by 
supporting section 107 of the National Aquatic Invasive Species Act, by 
inserting language into the Water Resources Development Act, or by 
supporting language in the Energy and Water appropriations bill that 
authorizes the second barrier at full Federal cost. (This authorization 
should appear in the legislative vehicle most likely to move quickly 
through Congress.)
    3. Support research into a permanent and innovative biological 
separation of the Great Lakes and Mississippi River watersheds.
    4. Support the provision in the National Aquatic Invasive Species 
Act that calls upon the Corps of Engineers to investigate the 
effectiveness of dispersal barriers in preventing the spread of 
invasive species via canals.
    5. Support the provision in the National Aquatic Invasive Species 
Act that establishes a screening process for the importation of new 
organisms.
    6. Support applying the Lacey Act to list as injurious the three 
species of Asian carp-the black, silver, and bighead carps-in order to 
ban the importation and transportation of these species.
    7. Support the development of a ``clean list'' (as opposed to a 
``black list'') of species acceptable for live trade. This puts the 
onus on the importer to prove that the species will do no harm, as 
opposed to the onus being on society to prove that it will.
    8. Urge the States and the Province of Ontario to ban immediately 
the possession of live Asian carp and other species (e.g., the 
snakehead) that have the potential to invade the Great Lakes system.
    9. Support the application of the Canadian Wild Animal and Plant 
Protection and Regulation of International and Interprovincial Trade 
Act (WAPPRIITA) and the Ontario Fish and Wildlife Conservation Act, to 
prohibit the importation of live Asian carp into Ontario. Seek the 
application of these laws to other species.

           GREAT LAKES RESTORATION AND THE CORPS OF ENGINEERS

    The Great Lakes are our region's treasures and they deserve 
restoration. The Great Lakes fishery, which remains stressed, stands to 
benefit tremendously from a comprehensive restoration effort. Although 
significant progress has been made in cleaning up and protecting the 
Great Lakes, a recent report by the General Accounting Office (GAO) 
concluded that binational, Federal, and State strategies to restore the 
lakes are underfunded and not coordinated as well as they should be. 
The report points out that restoration efforts in other regions of the 
country-particularly efforts to protect the Everglades and the 
Chesapeake Bay-are more sophisticated than restoration efforts in the 
Great Lakes region and are guided by more effective strategies. The 
Great Lakes Fishery Commission concurs with the GAO's conclusions and 
has strongly supported the development of a Great Lakes restoration 
strategy.
    One major fishery restoration initiative is the Great Lakes Fishery 
and Ecosystem Restoration Program (GLFER), a program authorized by the 
Water Resources Development Act of 2000. The commission notes that 
Senator Voinovich was the principal author of this provision and we 
commend the Senator for his vision to restore the Great Lakes fishery. 
The program authorizes the Corps of Engineers (COE) to partner with 
Federal, State, and local agencies and the Great Lakes Fishery 
Commission to plan, implement, and evaluate projects supporting the 
restoration of the fishery, ecosystem, and beneficial uses of the Great 
Lakes. The COE has an authorization to spend up to $100,000,000 for 
this program. Examples of projects might include removal of unnecessary 
barriers in Great Lakes tributaries, creation of fish passage devices, 
riparian habitat stabilization, and restoration and creation of 
wetlands.
    Particularly noteworthy about this program is that the COE is 
directed to work with signatories of A Joint Strategic Plan for 
Management of Great Lakes Fisheries and with the Great Lakes Fishery 
Commission to identify and implement restoration projects. In 
formulating this program, the COE is also directed to use existing 
documents (such as the Fish Community Objectives, Lake Management 
Plans, and Remedial Action Plans) as the foundation for identifying 
priorities.
    Since the passage of this legislation, the Great Lakes Fishery 
Commission has worked closely with the COE to get the program up and 
running. The commission has been very proud to be the local sponsor for 
the development of the support plan, the first step in implementing 
this program. The development of the support plan, as called-for in the 
legislation, has been done in close consultation with Federal, State, 
and tribal agencies. The management agencies signatory to the Joint 
Strategic Plan are quite enthused about this program.
    As of this date, the support plan is in the final stages of its 
internal review. Once this support plan is completed, restoration 
projects may commence. It is envisioned that the signatories to the 
Joint Strategic Plan will identify priority projects, similar to how 
they identify projects under the successful Fish and Wildlife 
Restoration Act.
    This program is an enormous opportunity for the Great Lakes. The 
program will rely on the Joint Strategic Plan process for its success, 
a major recognition of the importance of cooperative management. The 
commission urges Congress to appropriate at least $10 million per year 
under this authorization so that the COE and the management agencies 
can partner on restoration efforts.

                               CONCLUSION

    The Great Lakes fishery defines our region and is a key indicator 
of the overall health of the system. Indeed, the first question people 
often ask about the Great Lakes is ``how are the fish?'' Management 
agencies and the Great Lakes Fishery Commission work very hard to 
sustain the fishery for today and for the future, to improve the 
habitat upon which the fish depend, to stop the influx of invasive 
species, to control sea lampreys, and advance our scientific 
understanding of the resource.
    Sportfishing on the Great Lakes remains extremely popular; 
commercial fishing remains economically viable. The lakes need constant 
attention from Congress if they are to sustain this $4 billion fishery, 
keep sea lampreys in check, and stop the biological invasion that is 
taking place. New initiatives like the Great Lakes Fishery and 
Ecosystem Restoration Program and the National Aquatic Invasive Species 
Act aim to improve and protect the resource. Timehonored institutions 
like the Great Lakes Fishery Commission and the Joint Strategic Plan 
for Management of Great
    Lakes Fisheries strive to maintain the cooperation that is so 
critical to the ecosystem approach to management. And a commitment to 
the resource-to the fishery and the environment-by the millions of 
people who live in the Great Lakes basin will help ensure that the 
lakes' resources are passed on to future generations.
    We thank the committee for focusing its attention on the Great 
Lakes and we look forward to working with Congress on ways in which we 
can-together-restore these invaluable treasures.

                                SOURCES

1979. Minutes of the annual meeting of the Council of Lake Committees, 
    In G. L. F. Commission, (ed.). Great Lakes Fishery Commission, Ann 
    Arbor, MI.
DesJardine, R.L., T. Gorenflo, R.N. Payne, and J.D. Schrouder. 1995. 
    Fish-Community objectives for Lake Huron. Great Lakes Fishery 
    Commission, Ann Arbor.
Dochoda, Margaret R., and Michael L. Jones. 2002. Managing Great Lakes 
    fisheries under multiple and diverse authorities. In Sustaining 
    North American salmon: Perspectives across regions and disciplines, 
    edited by K. D. Lynch, M. L. Jones and W. Taylor. Bethesda: 
    American Fisheries Society Press.
Eshenroder, R.L., M.E. Holey, T. Gorenflo, and R.D. Clark. 1995. Fish-
    community objectives for Lake Michigan Special publication 95-3. 
    Great Lakes Fishery Commission, Ann Arbor.
GLFC. 1997. A Joint Strategic Plan for Management of Great Lakes 
    Fisheries. Ann Arbor: Great Lakes Fishery Commission.
GLFC. 2002. A Joint Strategic Plan for Management of Great Lakes 
    Fisheries: Cooperation at its best (Brochure). Ann Arbor: Great 
    Lakes Fishery Commission.
Horns, W.H., C.R. Bronte, T.R. Busiahn, M. Ebener, R.L. Eshenroder, T. 
    Gorenflo, N. Kmiecik, W. Mattes, J.W. Peck, M. Petzold, and D.R. 
    Schreiner. 2003. Fish-community objectives for Lake Superior. Great 
    Lakes Fishery Commission, Ann Arbor.
Mills, E.L., J.H. Leach, J. Carlton, and C. Secor. 1993. Exotic species 
    in the Great Lakes: A history of biotic crises and anthropogenic 
    introductions. Journal of Great Lakes Research 19:1-54.
Piper, Don. 1967. The international law of the Great Lakes. Durham, NC: 
    Duke University Press.
Rasmussen, J.L. 2002. The Cal-Sal and Chicago Sanitary and Ship Canal: 
    A perspective on the spread and control of selected aquatic 
    nuisance fish species. U.S. Fish and Wildlife Service, Rock Island, 
    IL.
Reid, D., H.J. MacIsaac, J.E. Gannon, and J. Hartig. 2002. Research and 
    management priorities for aquatic invasive species in the Great 
    Lakes [Online]. Available by International Association for Great 
    Lakes Research
    http://www.iaglr.org/scipolicy/ais/ais--iaglr02.pdf.
Ricciardi, A. 2001. Facilitative interactions among aquatic invaders: 
    Is an `invasional meltdown' occurring in the Great Lakes? Canadian 
    Journal of Fisheries and Aquatic Science 58:2513-2525.
Ryan, P.A., R. Knight, R. MacGregor, G. Towns, R. Hoopes, and W. 
    Culligan. 2003. Fish-community objectives for Lake Erie. Great 
    Lakes Fishery Commission, Ann Arbor.
Stewart, T.J., R.E. Lange, S.D. Orsatti, C.P. Schneider, A. Mathers, 
    and M.E. Daniels. 1999. Fish-Community objectives for Lake Ontario 
    Special Publication 99-1. Great Lakes Fishery Commission, Ann 
    Arbor.
                                 ______
                                 
  Responses of Roy Stein to Additional Questions from Senator Jeffords

    Question 1. What coordination takes place between the Great Lakes 
sea lamprey control program and sea lamprey control programs throughout 
the nation?
    Response. The Great Lakes and Lake Champlain share a common 
nemesis: the sea lamprey. The Great Lakes Fishery Commission and the 
Lake Champlain Fish and Wildlife Management Cooperative have a long 
history of effective coordination that has contributed to successful 
suppression of this devastating parasite in the both the Great Lakes 
and Lake Champlain.
    Sea lamprey are native to the marine environment of the Atlantic 
coast. In its ocean home, this primitive parasitic fish is in balance 
with the marine ecosystem including the large fish it feeds on and the 
many creatures that feed on them. Sea lampreys are a pest species only 
where they have invaded freshwater lakes. Sea lampreys attach to fish 
and feed on their body fluids. Like many pest species in a new 
environment, they were freed of their natural predators and were at 
once out of balance with the smaller native fish that were there in 
both the Great Lakes and Lake Champlain for them to feed on.
    First observations of sea lampreys in freshwater lakes suggest that 
they were able to invade the Great Lakes once the Erie Canal and the 
Welland Canal of the St. Lawrence Seaway were constructed. Lake 
Champlain connects to the Atlantic Ocean through the Hudson River (via 
the Champlain Canal) and to the St. Lawrence River (via the Chambly 
Canal). It is through these channels that sea lampreys likely entered 
the Lake Champlain system. Lake Champlain, the Finger Lakes of New 
York, and the five Great Lakes have all suffered the effects of this 
invasive species.
    Like the Great Lakes, sea lampreys in the Lake Champlain have 
caused major stresses on the fisheries and reduced fishing 
opportunities. Lampreys have slowed or stopped efforts to restore fish 
populations. Indeed, similar to the Great Lakes of the 1940's, before 
sea lamprey control, some 87-100 percent of the fish in some parts of 
Lake Champlain exhibited sea lamprey wounds.\1\
---------------------------------------------------------------------------
     \1\J.E. Marsden et. al, Lake Champlain grapples with it own sea 
lamprey problem, FORUM (newsletter of the Great Lakes Fishery 
Commission), Fall, 2000, p. 4.
---------------------------------------------------------------------------
    Despite the severe problems sea lampreys cause in both the Great 
Lakes and Lake Champlain, sea lampreys can be managed. In fact, sea 
lamprey control in the Great Lakes and Lake Champlain has a successful 
history. Since 1955, when the Federal Governments negotiated and 
ratified the Convention on Great Lakes Fisheries, the Great Lakes 
Fishery Commission has implemented a sea lamprey control program, which 
uses a number of innovative, effective techniques (including the 
lampricide TFM), sea lamprey barriers, traps, and a sterilization 
technique. Sea lamprey control allows provincial, State, Federal, and 
tribal fishery management agencies to stock fish and implement other 
fisheries restoration activities with confidence, knowing that their 
fish will likely survive to reproduce or be caught by humans. Sea 
lamprey control allows agencies to make substantial progress in their 
efforts to re-establish self-sustaining populations of our rare, 
valuable, native species. Because of sea lamprey control, the 
popularity of sportfishing in the Great Lakes has increased since the 
early 1960's. It protects tribal fishing, and supports thousands of 
commercial fishing jobs. The millions of people who fish the Great 
Lakes recreationally, tribally, and commercially demand the delivery of 
an effective sea lamprey control program. Investments in sea lamprey 
control are investments not only in today's fishery, but also are 
investments in the fishery that future generations will enjoy.
    The Lake Champlain sea lamprey control program is earlier in its 
development, though just as important to the future of the lake's 
fishery. In 1990, the Lake Champlain Fish and Wildlife Management 
Cooperative (a partnership between the U.S. Fish and Wildlife Service, 
the Vermont Department of Fish and Wildlife, and the New York State 
Department of Environmental Conservation) began an experimental 8-year 
program to control sea lampreys on Lake Champlain.
    The Great Lakes Fishery Commission contributed actively to the 
success of this initial control effort through direct participation, 
training, provision of supplies and equipment, and sharing information. 
During 1990, the commission sent treatment crews from the Fish and 
Wildlife Service's Marquette Biological Station to lead the first year 
of stream treatments on Lake Champlain. During this first year, the 
commission's treatment crews trained the State and Federal staff on the 
details of safe and effective application of lampricides. The Fish and 
Wildlife Service continued to send its treatment program leaders to 
work with the cooperative as advisors on stream treatments throughout 
the experimental program. The commission also provided the equipment 
necessary to carry out the first round of stream treatments. All of the 
lampricides required for these treatments were acquired from the Great 
Lakes Fishery Commission.
    Today, after data analysis established the success of the first 
round of sea lamprey controls, the Lake Champlain Fish and Wildlife 
Management Cooperative is continuing the sea lamprey control effort. 
The Great Lakes Fishery Commission is again working with the Lake 
Champlain managers in many aspects of their management effort with 
technical expertise, scientific understanding, and critical supplies. 
For instance:

    <bullet>  Sea lamprey control specialists from the Great Lakes 
region and the Lake Champlain region routinely exchange scientific 
information and expertise in managing sea lamprey populations.
    <bullet>  Biologists from Vermont, New York, and the Fish and 
Wildlife Service working on Lake Champlain attend many of the Great 
Lakes Fishery Commission's workshops and symposia, share information, 
and share state-of-the-art technologies.
    <bullet>  The Great Lakes Fishery Commission has funded and shared 
in funding research on Lake Champlain. These cooperative studies have 
scientists from the Great Lakes and Lake Champlain working together to 
advance the understanding of the sea lamprey and its vulnerabilities. 
This research has benefited both regions.
    <bullet>  The sea lamprey control staffs of the Fish and Wildlife 
Service working for the commission have developed extensive standard 
operating procedures (SOPs) that prescribe the precise science of 
effective stream treatments. These SOPs are used by the State and 
Federal staffs delivering the program for the cooperative.
    <bullet>  The commission has made a significant investment in 
development of new alternative control technologies. The cooperative 
has applied traps developed on the Great Lakes to control efforts on 
some Vermont streams. Barriers that use new technologies being applied 
on the Great Lakes are proposed to block spawning migration on some 
Lake Champlain streams.
    <bullet>  The commission has provided expert staff to advise and 
participate in permitting and environmental assessments of the program 
on Lake Champlain.
    <bullet>  The commission has worked in partnership with the EPA to 
invest millions of dollars in studies to ensure the environmental 
safety of all the lampricides used to control sea lampreys in the Great 
Lakes and in Lake Champlain. The commission maintains the registrations 
for lampricides with the U.S. Environmental Protection Agency.
    <bullet>  The Great Lakes Fishery Commission works very closely 
with the cooperative to ensure the adequate supply of lampricide for 
Lake Champlain. The commission has been successful in establishing a 
cost-effective and stable supply of these unique lampricides. They have 
shared this success with cooperative by providing the lampricides 
needed for Lake Champlain from their inventories at cost.
    <bullet>  Funds for Lake Champlain are provided annually in the 
Commerce, Justice, State, and Judiciary appropriations legislation, 
similar to how funding is provided for the Great Lakes.

    The Great Lakes Fishery Commission and the Lake Champlain 
cooperative have come to appreciate that they can learn from each 
other's experiences. Both regions have suffered tremendously from the 
sea lamprey, but, fortunately, both regions have a history of 
cooperation that has allowed for an effective control effort. Sea 
lampreys can be controlled. Control benefits to the fishery, the 
environment, and the people who depend on the resource are tremendous.

                                 ______
                                 
    Responses of Roy A. Stein to Additional Questions from Senator 
                               Voinovich

    Question 1. What does the Great Lakes Fishery and Ecosystem 
Restoration Program mean to the long-term health of the Great Lakes?
    Response. The Great Lakes Fishery and Ecosystem Restoration Program 
(GLFER), a major new initiative authorized by the Water Resources 
Development Act of 2000 (WRDA), is designed to vastly improve the Great 
Lakes environment. While this initiative is in its infancy (the support 
plan has just been produced and partners are preparing to initiate 
restoration projects) the Great Lakes Fishery Commission is quite 
enthusiastic about what it means for the long-term health of the Great 
Lakes. I commend Senator Voinovich for being the principal author of 
this provision.
    GLFER authorizes the Corps of Engineers (COE) to partner with 
Federal, State, and local agencies and the Great Lakes Fishery 
Commission to plan, implement, and evaluate projects supporting the 
restoration of the fishery, ecosystem, and beneficial uses of the Great 
Lakes. The COE has an authorization to spend up to $100 million for 
this program. The $100 million authorized in WRDA represents the 
Federal component of the program. Projects under GLFER will require 
non-Federal, cost-sharing partners.
    WRDA does not delineate exact projects to be funded under this 
legislation. Rather, WRDA says that funds under this authorization will 
be used for projects that restore the fishery, protect the ecosystem, 
and promote beneficial uses. The long-term implications of a program 
that authorizes such activities are enormous. GLFER, for example, could 
fund a wide variety of projects that fit the law's definitions, 
including (but not limited to):

    <bullet>  Removal of unnecessary barriers in Great Lakes 
tributaries. This opens up stream habitat for a variety of fish 
species, helping to increase spawning and to create fishing 
opportunities.
    <bullet>  Creation of fish passage facilities. This facilitates 
upstream migration of fish in Great Lakes tributaries, helping to 
increase spawning and fishing opportunities.
    <bullet>  Creation of soft structures (shoreline enhancement). This 
increases fish and wildlife habitat along and adjacent to the 
shoreline, prevents erosion, improves aesthetics, and in some cases 
protects important landward resources.
    <bullet>  Riparian habitat stabilization. Creation of soft 
structures to protect existing resources, restore natural habitat, and 
provide shade to reduce stream temperatures. Reduction of stream 
temperatures protects trout and salmon, which are sensitive to warm 
water.
    <bullet>  Replacement of historical reefs and construction of 
artificial reefs to support fish communities. This creates spawning 
habitat and creates fishing opportunities.
    <bullet>  Restoration of estuaries and rapids (particularly in 
connecting channels such as the St. Clair River and the Detroit River). 
This creates spawning and rearing habitat for fish.
    <bullet>  Restoration and creation of riffle areas in Great Lakes 
tributaries. This improves spawning and rearing habitat.
    <bullet>  Restoration and creation of wetlands. This provides fish 
and wildlife habitat, it improves the natural fluctuations in water 
levels (which are beneficial to fish and wildlife), and it provides a 
buffer against flooding.
    <bullet>  Construction of carp barriers in conjunction with 
restoration of wetlands. Carp, because of their foraging habits, 
destroy vegetation in wetlands. These barriers will prevent carp from 
entering the wetland, will thereby protect wetlands, and will help 
increase fish and wildlife habitat.

    These types of projects, if funded, would be enormously beneficial 
to the Great Lakes, the people of the Great Lakes region, and the fish 
and wildlife that inhabit the ecosystem. These types of projects would 
significantly improve habitat and would offer additional beneficial 
uses for the region's stakeholders.
    The commission finds it particularly important that this program 
relies on the signatories of A Joint Strategic Plan for Management of 
Great Lakes Fisheries (i.e., State and tribal management agencies) for 
its success. As the legislation calls upon the Joint Strategic Plan 
signatories to help identify and implement restoration projects, this 
legislation intimately involves the agencies who have primary 
management authority over Great Lakes fisheries. This structure has 
significant implications on the long-term health of the Great Lakes. 
Fishery managers from agencies who have day-to-day management authority 
on the Great Lakes will be integral in applying the resources of this 
program to the areas that need them most. The way this legislation is 
written, in my opinion, practically ensures that GLFER resources will 
be directed to the most important fishery and ecosystem problems, with 
the goal of long-term sustainability of the resource.
    I take this opportunity to note that this program, for it to be 
successful, will require not only the commitment of the COE to 
implement it effectively, but also the commitment of the partnership 
agencies (State and tribal agencies and the Great Lakes Fishery 
Commission) to cost-share projects, and a commitment from Congress to 
appropriate funds. I have every reason to believe that GLFER will be a 
success, as all three of these key partners are firmly committed to the 
effort. I note, for instance, a recent amendment to the Senate Energy 
and Water legislation (authored by Senators Voinovich and DeWine) to 
provide funds in fiscal 2004 to begin projects under this legislation. 
The GLFC urges that these and future funds be appropriated.

    Question 2. What improvements do you recommend for the bill (S. 
525, the National Aquatic Invasive Species Act) that I cosponsored to 
fight against invasive species?
    Response. The Great Lakes Fishery Commission strongly supports S. 
525, the National Aquatic Invasive Species Act (NAISA), and commends 
its author (Senator Carl Levin) and co-sponsors for initiating this 
important legislation. I believe the essential goal of this legislation 
must be zero introductions of new invasive organisms. Certainly, the 
rate of introductions must be reduced rapidly and continually through 
time until that goal is reached. There is no doubt that NAISA will help 
us achieve that goal.
    For the most part, the Great Lakes Fishery Commission is pleased 
with the legislation in its current form and our first concern is that 
this legislation be passed as soon as possible. Additionally, the 
commission is very pleased that the legislation contains provisions 
ensuring the collection and dissemination of ballast activity records, 
the implementation of best management practices for domestic vessels, a 
screening process for new organisms introduced into trade, improvements 
to the Chicago Sanitary and Ship Canal, rapid response, and research. I 
believe these portions of NAISA are critical and should be retained in 
their current form.
    As Congress debates this bill, I offer a few recommendations for 
improvement.

    <bullet>  Findings: In the ``findings'' section of the bill, I 
believe a statement affirming the ``precautionary'' approach is 
warranted. The precautionary approach, as defined by the 1992 United 
Nations Conference on Environment and Development, states that ``where 
there are threats of serious or irreversible damage, lack of full 
scientific certainty shall not be used as a reason for postponing cost-
effective measures to protect environmental degradation.'' The 
commission believes that, because invasions are irreversible and 
typically detrimental to the Great Lakes environment, society should 
take immediate action to stop the influx of invaders.
    <bullet>  Coordination with Neighboring Countries: The commission 
supports the intent of NAISA to enhance the involvement of the 
International Joint Commission (IJC) in preventing aquatic invasions. 
The commission believes, however, that the language in NAISA about 
coordination with neighboring countries is too prescriptive. I urge the 
bill be changed to allow more flexibility for the State Department to 
negotiate with Canada about how the IJC can assist governments in 
preventing aquatic invasions. I have great confidence in the IJC's 
ability to approach this issue from a binational perspective and am 
pleased NAISA recognizes this as well.
    <bullet>  Interim/Final Ballast Water Standards: I am gratified 
that the bill has adopted a strong interim standard (95 percent kill or 
removal) that changes to a strong final standard with the goal of 
eliminating the risk of introduction of live organisms. I support this 
goal enthusiastically; this is one of the most important provisions in 
the bill.
    The Great Lakes Fishery Commission will gauge the overall success 
and effectiveness of this legislation on whether the legislation 
retains strong ballast water standards that eliminate the possibility 
of further introductions. Anything less will mean the legislation has 
failed to deliver what is needed to protect the Great Lakes.
    As the legislation is written, the ballast water goals appear to be 
adequate to protect the Great Lakes. However, I am quite concerned 
about the timeframe for reaching this goal. I believe the environmental 
sustainability of the Great Lakes would be jeopardized if the final 
standards do not come into effect until 2011, as written in the 
legislation. Promulgation and implementation of the final standards 
should not be delayed. The bill, fortunately, establishes a research 
program to support the development of these standards, which is 
critical to the success of this bill. I urge the addition of a deadline 
to this research section delineating when this research program must be 
established and initiated, recognizing all the actions and 
accommodations that government and industry must undertake prior to 
2011.
    <bullet>  Incentives: NAISA includes incentives to help ship owners 
and operators seek new ballast management systems. While the commission 
supports incentives, I believe this section could be much stronger. 
Other incentives could include tax incentives, direct subsidies for 
developing and demonstrating technologies, removal from liability if a 
good-faith effort was made, and other rewards for successful treatment 
systems. This bill provides guidance which, I believe, might not be 
enough to entice the industry's full participation and cooperation.
    <bullet>  Sea Lamprey Program: I take great pride in the fact that 
the Great Lakes Fishery Commission implements a successful sea lamprey 
control program, a program that has reduced the invasive sea lamprey 
population by 90 percent in the Great Lakes. Because the sea lamprey 
control program is effective and authorized under existing law, the 
commission requests that NAISA make it clear that the Great Lakes 
Fisheries Act (including its sea lamprey control program) and the 
Convention on Great Lakes Fisheries are not affected by NAISA.

    Question 3. How do you recommend we develop a comprehensive 
restoration plan while continuing the programs that are currently 
successful and not delaying progress?
    Response. The Great Lakes Fishery Commission feels that government 
agencies are, for the most part, adequately authorized to implement 
initiatives to restore the Great Lakes. I believe that while there are 
certainly areas that require new authorizations--invasive species is a 
key example--we need to redouble our efforts to implement the 
authorities that are currently in place. To that end, the commission 
believes that Congress should consider adequate appropriations for 
authorized programs to be the starting point for any restoration 
initiative.
    Many existing programs have the potential to advance Great Lakes 
restoration; they often just lack adequate funding. The Great Lakes 
Fishery Commission's sea lamprey control program is a case-in-point. 
Sea lamprey control has reduced populations of this invasive pest by 
nearly 90 percent. Nevertheless, the commission currently receives 
about $4 million less per year than it estimates it needs to do the 
job, and this has hampered the commission's ability to maintain this 
success. Sea lamprey populations will rebound if controls are relaxed, 
and the current funding situation creates the strong possibility that 
there will be slippage in sea lamprey control.
    In addition to adequate funding for existing programs, the Great 
Lakes Fishery Commission believes a comprehensive restoration plan for 
the Great Lakes is critical to the long-term sustainability of the 
resource. Although significant progress has been made in cleaning up 
and protecting the Great Lakes, a recent report by the General 
Accounting Office (GAO) concluded that binational, Federal, and State 
strategies to restore the lakes are underfunded and not coordinated as 
well as they should be. The report pointed out that restoration efforts 
in other regions of the country--particularly efforts to protect the 
Everglades and Chesapeake Bay--are more sophisticated than restoration 
efforts in the Great Lakes region and are guided by more effective 
strategies. The Great Lakes Fishery Commission concurs with the GAO's 
conclusions and has strongly supported the development of a Great Lakes 
restoration strategy.
    I again commend Senator Voinovich and his Great Lakes colleagues 
form their strong interest in developing a Great Lakes restoration 
plan. It is my understanding that current efforts to develop this plan 
involve many stakeholders, elected officials, and government agencies. 
These efforts include the identification of priorities by a number of 
entities including Great Lakes United (which reflects grass-roots 
goals), the Northeast-Midwest Institute (which houses the Great Lakes 
Task Force), the Council of Great Lakes Governors (which reflects the 
goals and wishes of the States), and the Great Lakes Commission (which 
focuses on funding for authorized priorities). In addition to these 
efforts, members in both houses of Congress have introduced legislation 
to develop a restoration plan for the Great Lakes. Many, if not all, of 
these concurrent efforts are being coordinated with each other. The 
commission believes the current efforts to develop a restoration plan 
are helping governments and stakeholders to get a handle on a very 
complex process.
    Together, these initiatives are leading the Great Lakes community 
toward a comprehensive restoration initiative. It is my expectation 
that these various initiatives will complement each other and help us, 
together, provide Congress with a clear direction of what we have in 
place that needs funding, what we need to fill critical gaps, and how 
we can support the implementation of restoration projects. The success 
of any Great Lakes restoration initiative will indeed depend on the 
support of organizations in the region and the support from Congress. I 
reiterate that adequate funding for existing authorizations is 
critical.

    Question 4. Including the bill that I cosponsored (S. 1398, the 
Great Lakes Environmental Restoration Act), I have seen different 
mechanisms proposed to coordinate Great Lakes programs, such as a task 
force. What do you think would work best?
    Response. Legislation introduced in the Senate (S. 1398, the Great 
Lakes Environmental Restoration Act) is designed to draw attention to 
the Great Lakes and to call for a coordinated Great Lakes restoration 
effort. It is critically important that agencies at all levels work 
toward this common goal. It is clear to the commission that programs to 
protect the Great Lakes, while certainly effective on many fronts, can 
be greatly improved by enhanced coordination among the agencies and a 
heightened commitment to funding. We can indeed learn many lessons from 
how restoration efforts in the Everglades and the Chesapeake have been 
implemented.
    One major strength of S. 1398 is that it creates a Great Lakes 
Federal Coordinating Council, comprising the heads of all Federal 
departments with a role in the Great Lakes, to better coordinate 
Federal agency efforts and to formulate a more-coordinated request in 
the President's annual Federal budget. The Great Lakes Fishery 
Commission believes that this coordinating council will help the 
Federal Government focus on the Great Lakes and better direct its 
resources. If the council operates as the legislation envisions, 
Federal activities and annual budgets will be much clearer about how 
funds are being requested for the Great Lakes and what is being done to 
restore the Great Lakes. Indeed, much of the anxiety about the lack of 
progress in Great Lakes restoration arises because we simply do not 
have a clear idea about what the Federal agencies are doing to protect 
the Great Lakes and how much funding the Federal Governments are 
devoting to restoration. This legislation will do a lot to correct that 
problem.
    Another major attribute of S. 1398 is the section authorizing 
grants for such things as wetlands restoration, water quality 
improvement, invasive species management, and fisheries habitat 
improvements. Additional resources to these priority areas are, of 
course, badly needed and welcomed. This bill has the potential to 
provide $600 million for these priority areas.
    The establishment of the Great Lakes Advisory Board is one way in 
which we can prioritize Great Lakes initiatives and to present 
recommendations to Congress for funding. A concern with the Great Lakes 
Advisory Board, as written in the legislation, is that it does not 
include all relevant department heads and, therefore, the board might 
not be in a position to formulate comprehensive recommendations. In 
other words, by limiting the voting members to the departments listed 
in the legislation, the process could exclude important programs and 
initiatives simply because some initiatives lacked a voting advocate on 
the advisory board. The legislation attempts to correct this by 
allowing an inclusive group of observers. While this helps assuage the 
commission's concerns, the fact that some agencies are strong members 
on the panel vis-a-vis other agencies means that there is the potential 
for ``priorities'' to simply be a reflection of who voted on the suite 
of priorities.
    I believe the Great Lakes Federal Coordinating Council and Congress 
can best play the coordinating role for identifying Great Lakes 
priorities and implementing the programs. The coordinating council can 
best present the restoration initiative in a Federal budget and 
Congress can, through the appropriations process, see that it is 
implemented. This is not to say that the coordinating council and 
Congress should operate in a vacuum. The Governors, the Great Lakes 
Fishery Commission, Great Lakes United, the Great Lakes Commission, and 
many others are prime resources to help identify and support 
restoration priorities. Federal agencies and Congress should work with 
these and other stakeholders to have all important goals and needs 
identified in an annual, comprehensive Great Lakes package for 
Congress' consideration.

                               __________
 Statement of Samuel W. Speck, Chair, Council of Great Lakes Governors 
 Water Management Working Group, Director, Ohio Department of Natural 
                               Resources

    Thank you for the opportunity to testify before the U.S. Senate 
Committee on Environment and Public Works. This morning I would like to 
share with you what the Great Lakes Governors and Premiers are doing to 
protect the waters of the Great Lakes and keep management of those 
waters in the Great Lakes Basin.
    As you are aware, Ohio's Governor Bob Taft is the current Chair of 
the Council of Great Lakes Governors. I am appearing in my role as 
Chair of the Council's Water Management Working Group and as Director 
of the Ohio Department of Natural Resources. I also serve the Great 
Lakes Commission as its current Chair. I will summarize my remarks and 
would request that my full written testimony be submitted for the 
record.
    The Council's Water Management Working Group is at a critical stage 
in the efforts of the eight Great Lakes States and two Provinces to 
strengthen our collective means for protecting the waters of the Great 
Lakes Basin. The Working Group is developing a new resource-based 
decisionmaking standard for diversions and consumptive uses of Basin 
water in accordance with the Great Lakes Charter Annex.
    The region's Governors are pleased with the leadership Congress has 
shown in recognizing the critical importance of the Great Lakes and the 
pressing need to restore and safeguard them for generations to come. We 
particularly commend Senators DeWine, Levin, and you, Senator 
Voinovich, for the introduction of Senate Bill 1398. The Council of 
Great Lakes Governors believes that the bills now pending in the House 
and Senate offer an opportunity to focus much-needed financial 
resources on priority needs. What is important in the near term is 
continuing the focus on restoration efforts, and Senate Bill 1398 does 
just that.
    Nearly two decades ago, our States jointly formed the Council of 
Great Lakes Governors, in part to fulfill our lead responsibilities as 
stewards of the Great Lakes Basin's water resources and in recognition 
of the tremendous ecological, economic and social benefits they 
provide. The Great Lakes Governors and Premiers have continued to 
provide leadership on Great Lakes issues including the following:
    Creation of the Great Lakes Charter in 1985 to provide a framework 
for managing the Basin waters;
    <bullet>  Use of the Water Resources Development Act (WRDA) of 1986 
as a tool to protect the Basin water resources;
    <bullet>  Commitment made in 1999 to develop a new agreement which 
would bind the States and Provinces more closely to collectively plan, 
manage and make Great Lakes water usage decisions;
    <bullet>  Adoption of the Annex in 2001, an amendment to the Great 
Lakes Charter to further the principles of the Charter;
    <bullet>  Formation of the Council's Great Lakes Priorities Task 
Force chaired by Ohio Environmental Protection Agency Director Chris 
Jones; and,
    <bullet>  Continuation of the Council's Water Management Working 
Group to develop the agreements called for in the Annex, which is the 
focus of my testimony today.
Overview of the Great Lakes Charter Annex
    In 1985, the Great Lakes Governors and Premiers created the Great 
Lakes Charter to provide a framework for managing the waters of the 
Great Lakes Basin. This is a good-faith agreement involving prior 
notice and consultation on large diversions and uses within the Basin 
exceeding five million gallons per day (MGD). Further, it outlines a 
commitment to develop programs to manage diversions and consumptive 
uses.
    The next year (1986), Congress enacted WRDA, recognizing the 
Governors' central role in protecting Great Lakes Basin water 
resources. WRDA does the following:

    <bullet>  Prohibits diversions unless approved by all eight Great 
Lakes States Governors;
    <bullet>  Allows a veto without standards;
    <bullet>  Regulates first drop (no threshold);
    <bullet>  As U.S. Federal law, does not include the Provinces 
regarding decisions; and,
    <bullet>  Addresses diversions, not in-Basin consumptive uses.

    In addition, there is a question whether groundwater is included in 
WRDA.
    In 1998, a proposal by the Nova Group, Inc. to export bulk water 
from the Ontario waters of Lake Superior to the Far East caused the 
State, Provincial, and Federal Governments to react with calls to re-
examine the strength and adequacy of the legal foundations for water 
management authorities.
    Starting in 1999, water levels in the Great Lakes which had been 
atypically high for much of the preceding 30 years fell considerably as 
cyclical patterns took effect. While the recent, lower water levels are 
in fact close to the historic average, the public's perception of 
dramatic loss has given added impetus to concern about the future of 
our Great Lakes water resources.
    At their annual meeting in Cleveland in October 1999, the Great 
Lakes Governors and Premiers committed to:

    <bullet>  Developing a new agreement and standard which would bind 
the Great Lakes States and Provinces more closely to collectively plan, 
manage and make decisions.
    <bullet>  Securing funds to develop a better base of water use data 
necessary to make sound decisions.

    The Governors and Premiers further stated that the agreement should 
reflect the following principles:

    <bullet>  Protect the resource;
    <bullet>  Be durable;
    <bullet>  Be simple;
    <bullet>  Be efficient; and,
    <bullet>  In particular, they wanted to retain authority within the 
Basin to manage the waters based upon resource protection principles.

    The Governors' and Premiers' leadership role was recognized in the 
2000 International Joint Commission report which recommended 
maintaining and strengthening the authority of the Governors/Premiers 
regarding management of Great Lakes waters. The WRDA 2000 amendment 
also promoted partnership with the Canadian Provinces and encouraged 
the Great Lakes Governors to develop and implement a mechanism that 
provides a common standard for decisionmaking.
    On June 18, 2001, the Governors and Premiers adopted the Annex to 
the Great Lakes Charter. In the Annex, they committed themselves to 
move forward on a number of fronts.
    In contrast to WRDA, this initiative under the Annex has the 
following provisions:

    <bullet>  Requires the use of a common resource-based standard;
    <bullet>  Includes the Canadian Provinces of Ontario and Quebec in 
all regional decisionmaking;
    <bullet>  Includes the application of a new standard for in-Basin 
consumptive uses, not just diversions;
    <bullet>  Includes groundwater; and,
    <bullet>  Commits to improve the sources and applications of 
scientific information regarding the management of the Waters of the 
Great Lakes Basin.

    The Annex includes a set of directives to further the principles of 
the Charter:

    <bullet>  First, create a new resource-based decisionmaking 
standard to review new proposals to withdraw water from the Great Lakes 
Basin.
    <bullet>  Second, draft Basin-wide binding agreements such as an 
interstate compact and a State-Provincial agreement.
    <bullet>  Third, is a call for the design of a decision support 
system to include an assessment of available information, update data 
on existing water uses, identify additional needs and develop a plan to 
implement an ongoing support system.
    <bullet>  Fourth, a commitment was made to ensure ongoing public 
input in the preparation and implementation of the agreements.
    <bullet>  Fifth, further commitments were made to improve 
scientific information, including the role of groundwater.

    The Water Management Working Group has been working together with 
an Advisory Committee and Resource Group over the past 2 years to 
implement the Annex through Basin-wide agreements including a new 
decisionmaking standard. The Advisory Committee represents diverse 
stakeholder interests from about 26 large regional/national 
organizations representing agricultural, environmental, industrial, 
municipal, shipping, recreational, manufacturing, and utility groups. 
In addition, stakeholder interests from governmental and quasi-
governmental organizations are also involved through a Resource Group 
and as invited Observers.
Draft Decision-Making Framework
    A decisionmaking framework is being developed which includes a two-
tier review structure. Under the framework being discussed, new or 
increased diversions or consumptive uses exceeding a regional review 
threshold level of three MGD would be reviewed by all ten 
jurisdictions. Proposals that do not exceed the regional review 
threshold level would be reviewed using a common resource-based 
standard by the individual State or Province in which the diversion or 
consumptive use is proposed.
    The draft framework continues to be discussed and revised.
    Draft decisionmaking criteria being discussed that will be used for 
review of diversions and consumptive uses are consistent with the 
following Annex principles:

    <bullet>  Preventing or minimizing Basin water loss through return 
flow and implementation of environmentally sound and economically 
feasible water conservation measures.
    <bullet>  No significant adverse individual or cumulative impact to 
the quantity or quality of the waters and water dependent natural 
resources of the Great Lakes Basin.
    <bullet>  An improvement to the waters and water dependent natural 
resources of the Basin. An improvement means an additional beneficial, 
restorative effect to the physical, chemical, and biological integrity 
of the waters and water dependent natural resources.
    <bullet>  Compliance with all applicable State, provincial, 
Federal, and international laws and treaties.

    The resource improvement requirement is unique with no similar 
standard in existence which we can use as a model. Mitigation of 
impacts associated with a withdrawal are not being considered as an 
improvement. An improvement could be based on hydrologic conditions, 
water quality or habitat. Most likely, hydrologic improvements will be 
preferred.
    The issue of how to address out-of-Basin diversions is a critical 
issue for the States and Provinces, yet there are many diverse views on 
this. For example, Ohio has several communities that straddle the Great 
Lakes Basin drainage divide. Flexibility is needed to allow these 
communities to serve their citizens in areas immediately adjacent to 
the Basin divide where adequate quantities of potable quality water are 
not available. Yet, Ontario and Quebec have enacted legislation that 
largely prohibits diversions. The challenge is to craft agreements that 
will be acceptable to all the jurisdictions and meet the intent of the 
Annex.

Timeline
    The Governors and Premiers agreed to create the necessary 
agreements within 3 years of the effective date of the Annex, in other 
words, by June of 2004. The Water Management Working Group is on 
schedule and its goal is to release draft documents for public review 
later this year. Consensus takes patience and we must allow ourselves 
adequate time to craft agreements acceptable to all ten jurisdictions.
    Regardless of the timeline, a flexible agreement must be drafted 
that will allow for the incorporation of new scientific information 
into the decisionmaking process. For example, we do not currently know 
where the Basin groundwater divides are relative to the surface water 
divides.

Conclusion
    The Annex will be attempting to do something that has never been 
done before. We are trying to protect 20 percent of the world's fresh 
surface water, not on a basis of economic protection, but on protection 
of the resource.
    In reality, there are so many competing and conflicting interests 
that the only way it will be accomplished is through partnerships. It 
will not be enough to simply have State Provincial partnerships but 
Federal Governments, local communities, NGO's and the private sector 
will also need to be included. The water management regime we develop 
will show how an effective partnership can protect one of the world's 
greatest natural resources and may be used by others as a model in the 
future.

                                 ______
                                 
   Responses of Samuel W. Speck to Additional Questions from Senator 
                               Voinovich

    Question 1. As I mentioned during the hearing I held a Government 
Affairs Committee hearing last month on Great Glades programs, the 
Chairman of the United States Section of the International Joint 
Commission, Dennis Schornack, suggested that we revise and update the 
Great Lakes Water Quality Agreement to form the basis for a major, 
binational Great Lakes initiative. What is your opinion of using this 
as a vehicle for a comprehensive restoration plans?
    Response. The Great Lakes Water Quality Agreement (GLWQA), first 
signed in 1972, is an important binational mechanism for multi-
jurisdictional management, but is not an appropriate vehicle to use as 
the basis for a comprehensive restoration plan. It is an agreement 
between the U.S. and Canadian Federal Governments and, as such, does 
not provide the Great Lakes Governors and premiers with an explicit 
leadership role. Similarly, it lacks explicit recognition of--and a 
role for--other public and nongovernmental entities whose partnership 
is needed to ensure the success of any restoration initiative.
    In its present form, the GLWQA does not have the breadth of focus 
needed to accommodate the kinds of ecosystem restoration priorities 
that are emerging from regional entities such as the Great Lakes 
Commission and Council of Great Lakes Governors. For example, the 
Agreement does not adequately address such critically important matters 
as invasive species prevention and control; sustainable water use; 
habitat biodiversity; land use/water quality linkages; recreational and 
commercial value of the resource; and other matters that reflect the 
environmental and socio-economic dimensions of ecosystem restoration. 
Last revised in 1987, the GLWQA is outdated and in need of a thorough 
review and potentially significant revision, a conclusion reached by 
the International Joint Commission's Science Advisory Board several 
years ago and increasingly embraced by the larger Great Lakes 
community.
    The GLWQA has serves us well for 31 years and, with a thorough 
review, revision and update, can continue to do so. However, it is best 
viewed as a vehicle for implementing components of a comprehensive 
restoration plan; it would not be well-suited to serve as the plan 
itself.

    Question 2. How do you recommend we develop a comprehensive 
restoration plan while continuing thepmgrnms that are currently mcccs 
ful and not delaying progress?
    Response. This region cannot, and should not wait for a large 
scale, comprehensive plan to be finalized before enhanced restoration 
activities take place. Adequate guidance to initiate restoration 
activities presently exists, and should be used while the large scale 
planning effort proceeds.
    Three documents--all complementary--will be of great utility to the 
Congress in the immediate term while planning takes place. The Great 
Lakes Program to Ensure Environmnental and Economic Prosperity is a 
detailed listing of the Great Lakes Commission's U.S. Federal 
legislative and appropriations priorities. It is appropriately viewed 
as a foundation for restoration planning efforts, and explicitly 
identifies strategic actions organized around seven priority themes for 
restoration; cleaning up toxic hotspots; shutting the door on invasive 
species; controlling nonpoint source pollution; restoring and 
conserving wetlands and critical coastal habitat; ensuring the 
sustainable use of our water resources; strengthening our decision 
support capability; and enhancing the commercial and recreational value 
of our waterways. A second source of information is the recently 
released statement by the Council of Great Lakes Governors (letter of 
October 1, 2003 to Members of Congress) that presents a set of nine 
priorities and associated principles. The Council of Great Lakes 
Governors also committed to submitting a short-term agenda to help 
guide spending decisions while a more comprehensive protection and 
restoration funding program is being developed. Finally, the Great 
Lakes Strategy, produced by the U.S. Policy Committee (a Federal/State 
body coordinated by the U.S. EPA), offers relevant guidance as well, 
with an emphasis on restoration initiatives that can be pursued under 
existing authorities and funding levels.
    The restoration priorities embodied in these documents can provide 
the basis for congressional legislative and appropriations initiatives 
in the immediate future. They also provide the foundation for a 
comprehensive planning effort that willl guide efforts over the long 
term. In brief, we are well positioned to act now!

    Question 3. Including the bill that I cosponsored (S. 1398, the 
Great Lakes Environmental Restoration Act), I have seen di ferent 
mechanisms proposed to coordinate Great Lakes programs, such as a task 
force. What do,you think would work best?
    Response. The Great Lakes Governors must have the leadership role 
in plan development and implementation for Great Lakes protection and 
restoration. The Senate bill does provide for a key role by the 
Governors in establishing environmental restoration goals. However, the 
advisory board arrangements, as proposed in the bill, may be overly 
proscriptive and exclusionary. The Governors should have a role in 
identifying those stakeholder groups that should be included in the 
planning and implementation effort.
    The creation of additional, unneeded bureaucracy in developing and 
administering a comprehensive ecosystem restoration plan should be 
avoided. Selection of a coordinating mechanism to guide plan 
development and implementation should be preceded by a thorough review 
of the many existing mechanisms to determine their capabilities to 
perform such functions. Such a review may find that the establishment 
of a new body is duplicative and unnecessary. For example, the 
potential of the existing U.S. Policy Committee should be explored. 
With significant modifications, the U.S. Policy Committee might be able 
to function as a coordinating body for restoration plan development and 
implementation.
    In the interest of efficiency and effectiveness, the region's 
multi-jurisdictional agencies, such as the Great Lakes Commission, 
should have a central role in plan development and coordination. 
Ecosystem-based restoration planning and implementation is central to 
the role of the Commission, which has undertaken these activities at 
various scales for almost 50 years. Comprised of State and provincial 
members (including Governor/ Premier appointees) with observers 
representing almost two dozen U.S. and Canadian Federal agencies, 
regional agencies, tribal authorities and academic bodies, the Great 
Lakes Commission has a communications, planning, policy and advocacy 
mandate. The Commission is the only regional agency founded in both 
Federal and State law (i.e., Great Lakes Basin Compact), and has a 
``sustainability'' mandate; it focuses on the intersection of 
environmental and economic goals. Its ecosystem restoration planning 
capabilities arc substantial. Given this, it would be a most 
appropriate mechanism to serve as a member on, and provide technical 
and secretariat support to, any body coordinating restoration plan 
development and implementation.
    The ``Great Lakes Federal Coordinating Council'' concept, as 
embodied in the Senate bill, does have merit and responds to 
inefficiencies identified in a recent U.S. General Accounting Office 
report. The notion of a single, coordinated Federal appropriations 
request has considerable appeal.

                                 ______
                                 
   Responses of Samuel W. Speck to Additional Questions from Senator 
                                Jeffords

    Question 1. Please describe how the Great Lakes Governors and 
Premiers coordinate with the IJC.
    Response. The Great Lakes Governors and Premiers coordinate with 
the International Joint Commission on several levels. Major initiatives 
of the Council of Great Lakes Governors, such as the Annex 2001 process 
concerning water quantity management, provide for substantive IJC input 
in an advisory capacity. In turn, multiple bodies of the IJC, including 
its Water Quality Board, Boards of Control and study teams, typically 
provide for State and provincial membership and consultation. 
Consultations between senior staff of the IJC and interstate 
organizations (i.e., Council of Great Lakes Governors, Great Lakes 
Commission) are pursued on an ongoing basis to ensure coordination and 
cooperation on initiatives of shared interest.

    Question 2. Please provide your recommendations on how to measure 
progress in restoring the Great tikes and how to define restoration.
    Response. An explicit, consensus-based definition of restoration is 
critically important before any planning effort and implementation 
strategy is developed. Some view restoration as a return to pre-
settlement conditions, while others may take a very different view. 
Unfortunately, neither the Senate nor House bills offer a deflzxition-a 
problem that needs to be remedied. The Great Lakes Commission 
recommends that the efinition reflect the environmental, social and 
economic dimensions of the ecosystem, and the need to reinstate 
beneficial uses in a manner that addresses these multiple dimensions. 
More specifically, the following definition is recommended for 
inclusion in legislation--``the reinstatement of beneficial uses of-the 
water and related natural resources of the Great Lakes ecosystem 
through projects and activities that improve environmental quality and 
ensure environmentally sound and sustainable resource use.'' The 14 
beneficial use impairments articulated in the Great Lakes Water Quality 
Agreement to guide Areas of Concern cleanup may provide a basis for 
operationalizing this definition.
    Such a definition will allow for the benchmarking of restoration 
efforts with quantifiable goals, science-based indicators, and a 
monitoring program that provides continuous feedback. Such functions 
must be integrated into the plan development and implementation 
process, and be prominently pursued and reported to ensure strong 
accountability.
    A sound basis for a methodology to measure progress is found in the 
SOLEC (State of the Lakes Ecosystem Conference) initiative to develop 
and apply science-based indicators-This is a longstanding collaborative 
effort involving agencies and organizations within and outside 
government. Once fully developed and employed, such indicators will 
provide a continuous means of monitoring progress and making 
adjustments, as needed. The U.S. EPA and Environment Canada are 
coordinating this collaborative effort. Major challenges include 
resources (i.e., funding and staff) to maintain the program and ensure 
long term, uninterrupted data collection and analysis. Federal 
legislation should support and advance the SOLEC indicators effort.

    Question 3. Please provide an inventory of all of the strategic 
plans for the restoration of the Great Lakes that you are aware of that 
are completed, underway or planned Identify which, from your 
perspective, provide the most comprehensive approach to restoration.
    Response. The Great Lakes Commission is in the process of 
assembling and reviewing existing restoration plans that range from 
local, topic-specific initiatives to ecosystemwidc, broad-based 
efforts. The following descriptive listing is illustrative of the rich 
information base from which to assemble an overarching plan or 
strategy:

    <bullet>  The Great Lakes Commission has developed, on behalf of 
its member States and provinces, a Five Year Strategic Plan (2000) that 
presents a vision statement, goals, objectives and strategic actions. 
Its annual U.S. Federal legislative and appropriations priorities 
statement (The Great Lakes Program to Ensure Environmental and Economic 
Prosperity), includes several dozen recommendations organized around 
seven themes. And, previously, the Commission coordinated the 
development of the Ecosystem Charter for the Great Lakes-St. Lawrence 
Basin in 1995.
    <bullet>  State and province level initiatives exist as well. Among 
others, New York has developed a 25 year Great Lakes Management Plan; 
Ohio has developed a restoration plan for Lake Erie; and Michigan's 
Office of the Great Lakes has issued strategic planning documents, 
including a Lake Huron Initiative. Literally every Great Lakes State 
and province has some type of Great Lakes strategy, whether it be 
statewide, agency-specific or topic-specific. Among others, States/
provinces have plans that address one or more of the following: aquatic 
nuisance species prevention and control; coastal management; nonpoint 
source pollution; water use/conservation; spill prevention and 
response; land use and air quality management. Further, the Congress is 
presently providing substantial restoration grants to individual Great 
Lakes States.
    <bullet>  The U.S. Policy Committee, with staff support from the 
U.S. Environmental Protection Agency (Great Lakes National Program 
Office) has developed a Great Lakes Strategy. The, U.S. Policy 
Committee is a consortium of U.S. Federal, State and regional agencies 
with responsibilities related to implementation of the Canada-U.S. 
Great Lakes Water Quality Agreement.
    <bullet>  Lakewide Management Plans (LaMPs) for each of the Great 
Lakes, and Remedial Action Plans (RAPS) which provide restoration plans 
to restore Areas of Concern specific to Great Lakes tributaries, have 
been developed.
    <bullet>  The National Sea Grant Program maintains a Sea Grant 
Network Plan that highlights the agency's role in economic leadership; 
coastal ecosystem health and public safety; and education and human 
resources. Complementing this are strategic plans specific to each 
Great Lakes Sea Grant Program.
    <bullet>  The Great Lakes Fishery Commission maintains a Joint 
Strategic Plan for Management of Great Lakes Fisheries which was 
developed and endorsed by Federal, State and tribal governments. It 
provides the agency and its many partners with a framework for 
individual and collective fisheries management activities.
    <bullet>  The International Joint Commission has developed a 
strategic plan to guide its efforts--and those of its boards--under the 
terms of the Boundary Watery Treaty of 1909 and the Canada U.S. Great 
Lakes Water Qualiy Agreement of 1972 (as amended by Protocol in 1987).
    <bullet>  The U.S. Army Corps of Engineers (Great Lakes and Ohio 
River Division) recently initiated a strategic planning process under 
provisions of the John Glenn Great Lakes Basin Program authorized in 
the Water Resources Development Act of 1999. The objective is to define 
Corps authorities, inventory current activities, and document unmet 
needs and partnership opportunities. The Corps has also initiated--per 
congressional directive--a Great Lakes System Review Study that will 
examine issues, unmet needs and opportunities associated with the Great 
Lakes-St. Lawrence maritime transportation system. Also, the Corps is 
partnering with the Great Lakes Commission--and multiple U.S. and 
Canadian agencies from the local to Federal level--on development of a 
comprehensive management plan for the St. Clair River and Lake St. 
Clair watershed.
    <bullet>  The Great Lakes Environmental Research Laboratory (NOAA) 
crafted a strategic plan in 2000 that presents a mission statement and 
a series of associated goals, related activities, products and 
strategic actions. As with the other selected plans identified above, 
interagency' collaboration and partnership are prominently featured.
    <bullet>  Canadian Commissioner of the Environment and Sustainable 
Development. A Legacy Worth Protecting, released in 2001.
    <bullet>  Great Lakes United, Canadian Environmental Law 
Association, National Wildlife Federation, Lake Michigan Federation and 
Strategies St. Laurent. Water Use and Ecosystem Restoration: An Agenda 
for the Great Lakes and St. Lawrence River Basin, December 2000.
    <bullet>  The Nature Conservancy. Toward a New Conservation Vision 
for the Great Lakes Region: A Second Iteration, revised September 2000.
    <bullet>  Northeast-Midwest Institute. Northeast-Midwest Institute 
Survey of Ecosystem Restoration Efforts, February 2002.
    <bullet>  U.S. EPA and Environment Canada. State of the Great Lakes 
2001.
    <bullet>  U.S. EPA Great Lakes National Program Office. Great Lakes 
Ecosystem Report, December 2000.
    <bullet>  U.S. Geological Survey. Strategic Vision for the U.S. 
Geological Survey in the Great LakesSt. Lawrence Region, 2001-2010, 
released in 2002.

    Complementing these activities are issue-specific strategies at the 
regional level that have restoration plan relevance. Among many others 
are the elements of Annex 2001 of the Great Lakes Charter signed by the 
Great Lakes Governors and premiers; the strategic plans of the Great 
Lakes Commission-coordinated Great Lakes Panell on Aquatic Species; and 
the binational Waterways Management Forum (coordinated by the U.S. 
Coast Guard).
    It is essential to note that the building blocks for a large scale 
restoration plan are already in place, as indicated by just the partial 
list identified above. Numerous agencies at all levels of government, 
as well as nongovernmental interests, maintain (or are in the process 
of developing) strategic plans that can contribute to a large scale 
planning effort. Duplicating past work should be avoided at all costs; 
validation and enhancement of such work, where relevant, is critical. 
Also needed is an effort to ``assemble, package and sell'' the 
excellent work already completed.
    As noted above, three existing (and complementary) documents 
provide an excellent basis for a comprehensive plan: the Great Takes 
Program to Ennurr Environmental and Economic Pro. perity (Great Lakes 
Commission); the Council of Great Lakes Governors' restoration 
priorities (as articulated in an October 1, 2003 letter to Congress); 
and the Great Lakes Strategy developed by the U.S. Policy Committee 
(coordinated by U.S. EPA.)

    Question 4. What coordination takes place between the Great Lakes 
sea lam prxy control pro ram and sea lae'njir y control pmgr-amr 
throughout the nation?
    Response. The Great Lakes sea lamprey control program is managed by 
the Great Lakes Fishery Commission under the authority of the 
Convention on Great Lakes Fisheries, negotiated and ratified in 1955. 
The Fishery Commission has had a history of successful coordination 
with the Lake Champlain Fish and Wildlife Management Cooperative. Among 
others, this has included information exchange; technology transfer; 
cooperative research; joint development of Standard Operating 
Procedures; and collaboration in developing and testing alternative 
control technologies.
    Acting in its advocacy role on behalf of its eight member States, 
the Great Lakes Commission has been an ardent supporter of the Fishery 
Commission's sea lamprey control program and, more generally, of 
federally funded efforts in the prevention and control of aquatic 
nuisance species. Among-others, support has been vocalized for 
enhancing the sea lamprey control program; passage of the National 
Aquatic Invasive Species Act; funding for comprehensive State 
management plans and the Great Lakes Pastel on Aquatic Nuisance 
Species; and installation of best available technology on commercial 
vessels to reduce/eliminate infestations and spread via ballast water.
    The Great Lakes Fishery Commission has prepared a detailed response 
to this question, and will be providing it under separate cover.

                               __________
   Statement of Jeffrey M. Reutter, Ph.D., Director, Ohio Sea Grant 
   College Program, F.T. Stone Laboratory, Center for Lake Erie Area 
     Research (CLEAR), and Great Lakes Aquatic Ecosystem Research 
                   Consortium, Ohio State University

``THE DEAD ZONE IN LAKE ERIE: A BRIEF HISTORY, THE CURRENT STATUS, AND 
                    RECOMMENDATIONS FOR THE FUTURE''

Introduction
    My name is Jeffrey M. Reutter. I have been doing research on Lake 
Erie, studying this wonderful resource, and teaching about it since 
1971. I am the Director of the Ohio Sea Grant College Program (part of 
NOAA), the F.T. Stone Laboratory (the oldest freshwater biological 
field station in the country), the Center for Lake Erie Area Research 
(CLEAR), and the Great Lakes Aquatic Ecosystem Research Consortium 
(GLAERC). I have held these positions since 1987. I am here today to 
speak to you about the area of hypoxia or anoxia in the middle of Lake 
Erie, the so-called ``Dead Zone,'' to discuss its history, the current 
status of the lake, and to make a few recommendations for future 
action. To do this I need to tell you a little about all of the Great 
Lakes, how Lake Erie differs from the other Great Lakes, and a little 
basic limnology so you can understand the problem. I will build on my 
testimony before this committee in July 2002 and discuss current 
efforts and needs. We have also developed a poster describing this 
problem with I will leave with Senator Voinovich.

Take-Home Message
    While this is a very complex issue, the take-home message from my 
testimony is simple. Due in part to changes brought about by invading 
species, zebra and quagga mussels, reduced water levels, and global 
warming, I am concerned that we are seeing indications that Lake Erie 
is heading back to the conditions of the ``dead lake'' years in the 
1960's and early 70's. We must determine if that assessment is 
accurate, and if accurate, we must identify actions and management 
strategies to minimize the damage. Finally, we must recognize that the 
Central Basin of Lake Erie, because of its very unique morphometry, is 
the best indicator in all of the Great Lakes of larger stresses and 
problems.
    Solving these problems will require coordination and collaboration 
on the research front, the management front, and the outreach front. 
Consequently, I am a strong supporter of recent funding from NOAA Sea 
Grant to the Great Lakes Commission and the Northeast-Midwest Institute 
to develop a Great Lakes Restoration Plan. I also strongly support 
Senator Voinovich's efforts to sponsor the Great Lakes Environmental 
Restoration Act and an amendment to include the Great Lakes in the 
Harmful Algal Bloom and Hypoxia Act. I have also recently been 
appointed to the Steering Committee for the Global Ocean Observing 
System (GOOS) and strongly encourage everyone to support the 
development of an Integrated Ocean Observing System (IOOS) that 
includes the Great Lakes. We need a string of monitoring buoys around 
all of the Great Lakes.

Background and History
    The Great Lakes hold 20 percent of all the freshwater in the world 
and 95 percent of the freshwater in the United States. The US shoreline 
of the lakes is longer than the Atlantic Coast, Gulf Coast and Pacific 
Coast, if we leave out Alaska. Approximately 30 percent of the US 
population lives around these lakes.
    Lake Erie is the southernmost and shallowest of the Great Lakes. As 
a result, it is also the warmest. It also provides drinking water to 11 
million people each day. The other Great Lakes are all in excess of 750 
feet deep, and Lake Superior is 1,333 feet deep. The deepest point of 
Lake Erie is about 210 feet in the eastern basin, off Long Point. As a 
result, Lake Erie is the smallest of the lakes by volume, and Lake 
Superior is 20 times larger than Lake Erie. The watersheds around the 
other four Great Lakes are all dominated by forest ecosystems. The 
watershed around Lake Erie is the home to 14 million people and is 
dominated by an agricultural and urban ecosystem. As a result Lake Erie 
receives more sediment and more nutrients than the other Great Lakes. 
Now, if Lake Erie is the southernmost, shallowest, warmest, and most 
nutrient enriched of the lakes, we should expect it to be the most 
productive of the Great Lakes. It is. In fact, we often produce more 
fish for human consumption from Lake Erie than from the other four 
lakes combined.
    Lake Erie has gone from being the poster child for pollution 
problems in this country to being one of the best examples in the world 
of ecosystem recovery. A little over 30 years ago, 1969, the Cuyahoga 
River burned and Lake Erie was labeled a dead lake. Nothing could have 
been further from the truth. In reality the Lake was too alive. We had 
put too many nutrients into the Lake from sewage and agricultural 
runoff. These nutrients had allowed too much algae to grow, and that 
algae, when it died and sank to the bottom, had used up the dissolved 
oxygen in the water as the algae was decomposed by bacteria. This 
sequence is a natural aging process in lakes called eutrophication, but 
man had accelerated the process by 300 years by putting in too much 
phosphorus. It is very similar to what we are seeing today in the Gulf 
of Mexico, but the problem in salt water is nitrogen.
    Scientists divide Lake Erie into three basins based on significant 
differences in shape and depth. The Western Basin is the area west of 
Sandusky and has an average depth on only 24 feet. The Eastern Basin is 
the area east of Erie, Pennsylvania and contains the deepest point in 
the Lake. The Western and Eastern Basins have irregular bottoms with a 
lot of variation in depth. The Central Basin is the large area between 
Sandusky and Erie. The average depth of this basin is about 60 feet and 
the bottom is quite flat. Unfortunately, it is this shape that causes 
this basin to be the home of the Dead Zones.
    Many of you have probably experienced swimming in a pond and 
noticed that the deep water was much colder than the surface water. 
This layering with warm water on top because it is less dense and 
lighter, and cold water on the bottom because it is heavier, is very 
common in the Great Lakes. The warm surface layer is called the 
epilimnion. The cold bottom layer is called the hypolimnion. The line 
of rapid temperature change between the layers is called the 
thermocline. In Lake Erie, these layers form in the late spring and 
break up in the fall when the surface layer cools to the temperature of 
the bottom layer normally in September or October.
    In Lake Erie, the thermocline usually forms around 50 feet. Based 
on the depths of the three basins, this means the Western Basin is too 
shallow to have a thermocline except on rare occasions, the Eastern 
Basin will have a thermocline and there will be a lot of water below it 
in the cold hypolimnion, and the Central Basin will have a thermocline 
but there will be a very thin layer of cold water under it in the 
hypolimnion.
    At the time the thermocline forms, there is plenty of dissolved 
oxygen in the hypolimnion. However, due to its depth, there is often no 
way to add oxygen to the water in the hypolimnion until the thermocline 
disappears in the fall. Therefore, throughout the summer the oxygen 
that was present when the thermocline formed is used by organisms 
living in this area, including bacteria, which are decomposing algae as 
it dies and sinks to the bottom. If large amounts of algae are dieing 
and sinking, then large amounts of oxygen will be required for the 
decomposition process. It should then seem logical that if we could 
reduce the amount of algae, we could reduce the amount of oxygen that 
would be required to decompose the algae. It should also seem logical 
that if the hypolimniom was thicker (if the lake was deeper) it would 
have a larger reservoir of dissolved oxygen.
    Because the Western Basin seldom has a thermocline, this is not a 
problem there. And, because the Eastern Basin is so deep, there is a 
large reservoir of oxygen in the hypolimnion enough to last through the 
summer until the thermocline disappears in the fall. The Central Basin, 
however, does not have a large reservoir of water or oxygen in the 
hypolimnion because the basin is not deep enough. As a result, loss of 
all the oxygen, or hypoxia (levels below 2.0 ppm) or anoxia (no 
oxygen), can be a serious problem in the bottom waters of the Central 
Basin. Areas of anoxia were first observed as early as 1930, and by the 
1960's and 1970's, as much as 90 percent or the hypolimnion in the 
Central Basin was becoming anoxic each year. This is why Lake Erie was 
labeled a ``dead lake.'' When an area becomes anoxic, nothing but 
anaerobic bacteria can live there. Also, this water creates severe 
taste and odor problems if it is drawn in by water treatment plants 
servicing the population surrounding the Lake.
    To reduce the amount of algae in the Lake, we needed to reduce the 
amount of the limiting nutrient. By ``limiting nutrient,'' I mean the 
essential nutrient that is in the shortest supply. Without this 
nutrient algae cannot grow and reproduce. In freshwater this nutrient 
is phosphorus. In 1969, we were loading about 29,000 metric tons of 
phosphorus into Lake Erie each year. Our models told us that in order 
to keep dissolved oxygen in the Central Basin, we needed to reduce the 
annual loading of phosphorus to 11,000 metric tons. This was 
accomplished and the recovery of the Lake has been truly remarkable. 
The walleye harvest from the Ohio waters jumped from 112,000 in 1976 to 
5 million in 1988 and the value of this fishery exceeds the value of 
the lobster fishery in the Gulf of Maine. Small businesses associated 
with charter fishing increased from 34 in 1975 to about 900 today, and 
Lake Erie became the ``Walleye Capital of the World.''
    Then on 15 October 1988, we documented the first zebra mussel in 
Lake Erie. Recognizing the significance of this discovery, Ohio Sea 
Grant initiated a research project on 15 November to document the 
expansion of the mussels. One year later, the densities in the Western 
Basin had reached 30,000 per square meter. Their impact was so great 
that in 1993 I addressed the International Joint Commission and asked 
them to create a special task force to try to understand the huge 
changes that were occurring in Lake Erie. I was asked to be US Co-Chair 
of the Lake Erie Task Force for the International Joint Commission from 
1994-1997 as we developed models to better understand the impact of the 
zebra mussel on the ecosystem of the Lake.
    In 1998 I formed the Phosphorus Group, a group of about 50 
scientists from the US and Canada to discuss phosphorus levels to 
determine if they might have gotten too low and were harming the 
fishery at that point the walleye fishery had been reduced by about 60 
percent and the smelt population had been decimated. This group 
concluded that based on changes in the system caused by zebra mussels, 
adding more phosphorus would create more zebra mussels and more 
inedible, blue-green algae.
    At the end of 1998, Drs. Jan Ciborowski (University of Windsor), 
Murray Charlton (National Water Research Institute of Canada), Russ 
Kreis (US EPA) and I formed the Lake Erie at the Millennium Program to 
continue to lead discussions and focus attention on the huge changes 
that were occurring in Lake Erie. We have documented a number of new 
invaders to the Lake, including the round goby, and have observed the 
gradual transition from zebra mussels to quagga mussels, a relative of 
the zebra mussel, but a species we know much less about.
    In the mid-1990's, US EPA's Great Lakes National Program Office 
(GLNPO) observed an increase in phosphorus levels in Lake Erie and the 
increasing trend has continued. They also observed areas of anoxia in 
the Central Basin that showed indications of growth. In 1996 we 
observed a bloom of blue-green algae in the Western Basin an indication 
that phosphorus levels were high. In 2001 we saw more indications that 
dissolved oxygen levels were critically low, and we observed that 
mayfly larvae had been eradicated from several regions a clear 
indication that oxygen had been eliminated. We also observed reduced 
water transparency over the artificial reefs we had worked with the 
city of Cleveland to produce from old Brown's Stadium another 
indication of an anoxic hypolimnion.
    The above information was shared with the GLNPO and they asked me 
to bring together a group of Lake Erie experts for a meeting in their 
Chicago offices on 13 December 2001 to discuss the problems we were 
observing in Lake Erie and strategize about solutions. As a result of 
this meeting, GLNPO issued a call for research proposals in January 
2002 and fund a 1-year project lead by Dr. Gerry Matisoff, Case Western 
Reserve University, and the four scientists mentioned above from the 
Millennium Program, to attempt to better understand the dissolved 
oxygen problem in Lake Erie. This project included many scientists on 
both sides of the border and results have been presented in May 2003 at 
the Millennium Conference and at IAGLR.

Current State of the Lake
    GLNPO recently completed another science cruise aboard the Lake 
Guardian from 14-19 August. Preliminary results from this cruise 
indicate that hypoxia was evident at half of the stations and only 20 
percent of the stations showed dissolved oxygen levels about 4 ppm, the 
minimum level for most fish species. In June of this year, Ohio Sea 
Grant and Stone Laboratory placed a monitoring instrument one foot 
above the bottom at a station approximately seven miles north of Huron, 
Ohio in an area we call the Sandusky Sub-basin. This instrument, a YSI 
6600, makes hourly readings of dissolved oxygen and five other 
parameters. This site was chosen because it is among the most 
productive sites in the entire lake and it was the first area to 
exhibit anoxia as early as 1930. This year hypoxia was first observed 
at this site on 4 August, and a low value of 0.2 ppm was observed on 8 
August. Oxygen is not likely to return to these stations until the lake 
turns over during a storm this fall when the upper warm layer cools to 
a temperature almost equal to the cold bottom layer. It is also 
important to note the Microcystis sp., a harmful form of algae that 
produces the toxin microcystin, has been increasing in density in the 
Western Basin for the past 2 weeks and is nearing bloom levels.
    I believe the oxygen problem is real and that it is growing. There 
are clearly a number of exacerbating conditions that are causing this. 
It now appears clear that Lake Erie has been gradually warming for the 
past 100 years, that phosphorus concentrations having been increasing 
since 1995, and that the water level has fallen sharply since 1997. 
Together, these conditions reduce the amount of oxygen available in the 
hypolimnion of the Central Basin and accelerate the use of the oxygen 
that is available. It also appears likely that zebra mussels and quagga 
mussels are exacerbating the problem by releasing phosphorus and 
allowing it to cycle more frequently through the system.

Recommendations
    Needs:

    <bullet>  Reduce the amount of phosphorus entering Lake Erie 
difficult, but possible.
    <bullet>  Eliminate zebra and quagga mussels difficult and probably 
not possible.
    <bullet>  Eliminate global warming difficult and most people don't 
even realize it is a very serious problem.
    <bullet>  Increase the water level of Lake Erie currently Mother 
Nature holds all of the cards and models of how global warming will 
affect this indicate that levels are likely to go down.

    The dead zone problem in the Central Basin of Lake Erie should be a 
wake-up call for all of us. The ecosystem in the Great Lakes cannot be 
taken for granted. We badly need a huge influx of Federal funding on 
the scale of that used for the Florida Everglades to address the 
recovery of the Great Lakes Ecosystem from the dissolved oxygen 
problems to contaminated sediment and harmful algal blooms. We should 
all support Senator Voinovich's efforts to sponsor the Great Lakes 
Environmental Restoration Act and an amendment to include the Great 
Lakes in the Harmful Algal Bloom and Hypoxia Act. The Senator has lead 
efforts in the past to improve sewage treatment capabilities. We must 
get behind him again to eliminate combined sewers and problems like 
those that occurred here in Cleveland at the sewage treatment plants 
during the 14 August blackout.
    We badly need a coordinated plan that includes and coordinates that 
activities of all agencies. Some of us will be leaders and some of us 
must accept roles as team players. Currently, there are too many cooks 
in the kitchen when it comes to managing the Great Lakes Ecosystem. We 
need better coordination. We should all support the recent funding from 
NOAA Sea Grant to the Great Lakes Commission and the Northeast-Midwest 
Institute to develop a Great Lakes Restoration Plan.
    Finally, I have also recently been appointed to the Steering 
Committee for the Global Ocean Observing System (GOOS) and strongly 
encourage everyone to support the development of an Integrated Ocean 
Observing System (IOOS) that includes the Great Lakes. We need a string 
of monitoring buoys around all of the Great Lakes so we are never 
caught off guard.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
               Statement of Elaine Marsh, Ohio Greenways

    I am deeply grateful for the opportunity to speak with you this 
morning about my experiences working on two collaborative efforts. I am 
Elaine Marsh, Project Director of Ohio Greenways. For the past 6 years, 
I have served as Lake Erie Director on the Board of Trustees for Great 
Lakes United. I would like to express my gratitude to Senator Voinovich 
for holding these hearings, for his consistent efforts on behalf of the 
Great Lakes and for his support a Great Lakes Restoration Plan.
    Great Lakes United is an international coalition of individuals and 
over 170 organizations representing hundreds of thousands of citizens 
from the eight Great Lakes States, two Canadian provinces and tribal 
territories within the Great Lakes region. Our main constituents are 
environmental organizations like National Wildlife Federation, Sierra 
Club, the Ohio Environmental, the Kent Environmental Council and 
EcoCity Cleveland; conservation organizations like Trout Unlimited; and 
labor groups and civic organizations like United Auto Workers and the 
Great Lakes Chapter of the League of Women Voters. We work at the 
local, regional and international level on projects, programs and 
policies to protect and restore the Great Lakes--St Lawrence River 
ecosystem.
    To that end, we developed A Citizens' Action Agenda for Restoring 
the Great Lakes--St. Lawrence River Ecosystem. Two years ago, we at 
Great Lakes United became convinced that expanded Federal action to 
protect the Great Lakes might be a real possibility. During the 2001 
annual spring get-togethers organized separately by the Northeast-
Midwest Institute and the Great Lakes Commission, we had occasion to 
talk to Members of Congress and their staff. Those conversations 
suggested that there was growing frustration with the existing approach 
of dealing with Great Lakes issues on a project-by-project basis within 
a convoluted and uncoordinated framework.
    We concluded from those meetings that the region needed a 
comprehensive approach that could be broadly supported by the States 
and their publics. We at Great Lakes United thought that both State and 
Federal Great Lakes officials might be considering comprehensive Great 
Lakes action. We thought it was imperative that the Great Lakes public 
be in on the ground floor of any new protection effort. We also thought 
it would be ideal for the public to approach restoration both 
collectively and comprehensively, and to address any new Federal effort 
with as unified a voice as possible.
    For the next 18 months, we worked on what evolved into the Great 
Lakes Green Book that you have before you. Our first objective was to 
involve every major organization in the Great Lakes basin, on both 
sides of the U.S.-Canada border. We included all interest parties, 
members and non-members alike. We wanted to construct an agenda that 
addressed all of the major issue areas impacting the Great Lakes 
ecosystem. We wanted to include both project-oriented and policy-type 
solutions. Finally, we wanted to make sure that the resulting document 
was not just the work of Great Lakes ``insiders,'' but a representative 
statement by all those with an interest in regional environmental 
issues.
    We started by dividing the problems besetting the Great Lakes 
ecosystem into seven general restoration issue areas:

    1. Toxic Clean Up
    2. Clean Production
    3. Green Energy
    4. Sustaining and Restoring Water Quantities and Flows
    5. Protecting and Restoring Species
    6. Protecting and Restoring Habitat
    7. Water and Air Quality Standards

    Next, we established self-selected working groups to draft plans 
for each of these areas. Each of the seven draft plans was circulated 
to all organizations and individuals interested in the relevant issue 
area. After rewrites based on resulting comments, the whole plan, 
including all seven issue areas and an introduction, was sent out by 
surface as well as electronic mail to general announcement lists and 
all members of the public we thought might be interested. Each section 
was rewritten again based on the resulting comment, and the whole plan 
was sent out one last time to the Great Lakes community for final 
comment. Great Lakes United released the Citizens' Action Agenda for 
Restoring the Great Lakes--St. Lawrence River Ecosystem this past June 
at our annual meeting. I have brought a couple copies of the agenda in 
its entirety.
    The Green Book you have before you is the executive summary of the 
agenda. The Green Book begins with a statement of our purpose and a 
statement of the critical condition of the Great Lakes. Next, each of 
the seven sections begins with a brief discussion of the problem and a 
list of recommended actions, including timetables. For example, in the 
Toxic Cleanup section, the first category of actions, very relevant to 
today's proceedings, is ``Provide adequate funding for cleanup of Areas 
of Concern.'' Several action items relating to AOC's follow. Other 
categories in this section are Building and Engage Healthy Communities 
with actions related to public education on health issues, Coordinating 
Toxic Cleanup Efforts, Treating Contaminants, and Contaminated Land and 
Groundwater Sites. Likewise, the six remaining issue areas are divided 
categories and related actions. If you would like, I could walk you 
through particular sections.
    Senator, I know that you are interested in hearing about how 
collaborative efforts might support the pending legislation on Great 
Lakes restoration. I would like to give another example of my 
experiences here in Ohio. As Project Director of Ohio Greenways, I 
worked with the Ohio Conservation and
    Environmental Forum to inform the legislative process and support 
the Clean Ohio Fund. The $400 million bound fund was initiated in 2000 
by Governor Taft to finance brownfield revitalization, natural resource 
projects, and farmland preservation projects. Coordinated by the Ohio 
League of Conservation Voters, more than thirty organizations put their 
resources and expertise together and, over a twelve-month period, 
drafted the ``Blueprint for the Clean Ohio Fund.'' Several copies are 
circulating. This document clearly stated our priorities for funding 
projects, identified desired administrative procedures, and defined 
criteria both for the selection and exclusion of projects. The document 
was released to the media and distributed to the legislature. It was 
the central focus of our educational efforts with the public. It served 
as point and counter-point to the treatises produced by members of the 
administration and other interested parities.
    I believe that I can unequivocally state that Blueprint had a 
profound and positive effect on the outcome of the Clean Ohio Fund. It 
is a possible approach for a Great Lakes Restoration Plan.
    I would like to conclude by examining the remarkable capacity of 
the Great Lakes public as demonstrated by the Citizens' Action Agenda. 
It is comprehensive in scope and specific in recommendations. The power 
of the document and its broad support is derived from the inclusive 
process used in its production. Likewise, we think extensive public 
involvement in any comprehensive restoration effort will greatly 
strengthen that effort. The production of the Green Book clearly 
demonstrates that the Great Lake public has the capacity to play a 
constructive role in any comprehensive restoration effort. We encourage 
you to engage the public, early and often, and we offer our assistance 
in that effort. And, while we are not prepared to discuss priorities at 
this time, using the Green Book as a basis, we could help the basin 
public come to consensus in prioritizing Great Lake restoration 
projects as they might relate to legislated funding.
    We laud you for your efforts on behalf of our Great Lakes, and we 
thank you for the opportunity to talk about our Citizen's Agenda.

                                 ______
                                 
Responses of Elaine Marsh to an Additional Question from Senator Inhofe

    Question. I was very impressed when reading about the local effort 
that resulted in The Green Book for Great Lakes restoration efforts. 
Such local public enthusiasm and nearly 200 programs identified by the 
General Accounting Office in its report A Coordinated Strategic Plan 
and Monitoring System Are Needed to Achieve Restoration Goals is not 
indicative of a need for more Federal involvement but rather help with 
coordination. The Great Lakes are fortunate in that they appear to have 
an active citizenry, active community groups and concerned State and 
local governments already engaged and eager to help.
    With so many citizen groups involved as well as State and local 
organizations, could one of these organizations coordinate the broader 
effort with Federal guidance but not necessarily Federal leadership, 
which has thus far failed to result in a comprehensive approach?
    Response. Great Lakes United and other regional non-governmental 
organizations are prepared to partner in restoration with leaders in 
our Great Lakes city, State, and Federal Governments, and other basin 
government entities such as Ontario, Quebec, First Nations and tribes. 
However, as a non-governmental organization, our capacity to act as 
coordinator of all these actors is limited.
    While some progress in Great Lakes restoration and protection has 
been made in the last three decades, the Federal role in Great Lakes 
environmental affairs has so far not resulted in as rapid or as 
comprehensive an approach to protection and restoration as either the 
States or the regional public would have liked. We believe this state 
of affairs has two causes. First, no Federal agency was ever tasked to 
coordinate basin environmental programs. Second, basin States have had 
a predominant say in how Federal environmental programs in the region 
have been carried out, but until recently chosen not to exercise that 
say in a unified manner.
    The current initiative comes in the context of a declared interest 
by the region in a unified, comprehensive, coordinated approach to 
restoration, most recently expressed last week by the Council of Great 
Lakes Governors in their release of ``priorities'' for basin 
environmental restoration.
    The restoration bills introduced in the Congress reflect the new 
reality of regional interest in unified, coordinated, comprehensive 
restoration and a substantial Federal role in that restoration. The 
House and Senate bills have substantial differences, but both propose a 
central role for State leadership in decisionmaking, in the context of 
Federal resources and coordination.
    We think the bills' various ideas for a Great Lakes advisory board 
led by the States and a Great Lakes Federal coordinating council led by 
the Environmental Protection Agency's Great Lakes National Program 
Office are the beginning of a plan for a comprehensive approach that 
could effectively protect and restore the largest freshwater ecosystem 
on earth.

                                 ______
                                 
    Responses of Elaine Marsh to Additional Questions from Senator 
                               Voinovich

    Question 1. What groups does Great Lakes United recommend be at the 
table as we start to develop an overall Great Lakes restoration 
strategic plan?
    Response. We think the regional environmental groups should be at 
the table, including the National Wildlife Federation's Great Lakes 
office, the Sierra Club's Great Lakes Program, the Lake Michigan 
Federation, the Great Lakes Aquatic Habitat Network and Fund, and Great 
Lakes United. Perhaps there should also be a role for one or two basin 
environmental ``practitioners''--organizations actually carrying out 
restoration activities already. Two or three seats could be rotated 
among all these groups to keep the table small enough to be workable 
and also so as not to overtax the capacity of any one group. Basin 
environmental groups in turn would continue to share information with 
each other, with our associated or member groups, and with our State, 
provincial, and local partners in restoration.
    We also think there should be an observer role for a 
nongovernmental organization from Canada, just as governmental 
direction of any plan or effort should include incorporate consultation 
with basin Tribes and the governments of Canada, Ontario, and Quebec.

    Question 2. How do you recommend we develop a comprehensive 
restoration plan while continuing programs that are currently 
successful and not delaying progress?
    Response. We answer this question on the basis of a universal point 
agreed to by all regional stakeholders: funding and resources are 
needed now to address the broad range of ecological threats already 
known to exist. A vast body of evidence shows that invasive species, 
sewage overflows, pollution, habitat destruction, and wasteful water 
uses, among other problems, continue to put the Great Lakes and its 
basin ecosystem at risk. Our first concern is that short-term action 
and longer-term prioritization and planning take place at the same 
time.
    We believe that both short-term actions and long-term planning 
require regional leadership and extensive public involvement. As a 
result, we do not think that either element of Great Lakes restoration 
should be directed by the U.S. Army Corps of Engineers, although the 
agency doubtless must play a significant role in carrying out 
restoration activities.
    In the short term, the bodies proposed in the bills, the State 
advisory board and Federal coordinating committee, or their equivalent, 
with significant public representation, should agree annually upon a 
set of priority projects to be funded in fiscal years 2004, 2005, and 
2006. In later fiscal years, the priorities outlined in a long-term 
planning document would guide funding.
    For the longer term, we believe that a comprehensive restoration 
plan should be created, but we do not recommend that it be developed 
from scratch. Rather, we recommend that Federal, State, local, and 
other interests draw from the myriad existing plans that already exist 
to come up with long-term restoration priorities. Among such existing 
plans are the Bush Administration's Great Lakes Strategy 2002, the 
Lakewide-Area Management Plans, the Great Lakes Water Quality 
Agreement, Great Lakes United's Green Book, and many others. Years, and 
in some cases decades, of work by agencies and stakeholders have gone 
into these plans to identify threats and identify ways to address them. 
The express and implied priorities outlined in the Great Lakes Water 
Quality Agreement should be paid special attention, as they are a 
solemn commitment of the United States to Canada.
    To carry out this longer-term planning, we recommend the creation 
of an independent task force that would distill priorities from 
existing plans and identify emerging issues within 2 years of passage 
of restoration legislation. The independent task force could be 
directed by bipartisan figures appointed by the Governors of the eight 
Great Lakes States in consultation with the region's mayors. The task 
force should engage significant interested sectors of basin society, 
including tribes; it should submit a draft proposed plan after 1 year 
for wide public comment; and it should deliver a final product to 
Congress after one more year.
    Great Lakes regional environmental groups are prepared to convene a 
first meeting early next year, with your help as appropriate, to bring 
the region's major stakeholders together to determine criteria for 
selecting the first set of commonly agreed-upon projects.

    Question 3. Including the bill that I cosponsored (S. 1398), I have 
seen different mechanisms proposed to coordinate Great Lakes programs, 
such as a task force. What do you think would work best?
    Response. With respect to ongoing coordination of Great Lakes 
programs, the model proposed in the Senate bill appears the most 
effective. However, we think final restoration legislation should have 
stronger basic restoration principles and mechanisms for accountability 
and public participation than are currently found in either the House 
or Senate bills.
    We are meeting with the regional environmental groups mentioned 
above to develop specific recommendations as to how this might be done. 
Regional environmental groups will provide a coordinated response to 
House and Senate staff by the end of October.

                                 <all>

</pre></body></html>
